<html>
<title> - DEPARTMENT OF DEFENSE BODY ARMOR PROGRAMS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-58]
 
               DEPARTMENT OF DEFENSE BODY ARMOR PROGRAMS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                              JUNE 6, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                     U.S. GOVERNMENT PRINTING OFFICE
37-812 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
MARTY MEEHAN, Massachusetts          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               HOWARD P. ``BUCK'' McKEON, 
VIC SNYDER, Arkansas                     California
ADAM SMITH, Washington               MAC THORNBERRY, Texas
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MIKE McINTYRE, North Carolina        ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        KEN CALVERT, California
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
JAMES R. LANGEVIN, Rhode Island      JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK UDALL, Colorado                 MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK MURPHY, Pennsylvania         MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     THELMA DRAKE, Virginia
JOE COURTNEY, Connecticut            CATHY McMORRIS RODGERS, Washington
DAVID LOEBSACK, Iowa                 MICHAEL CONAWAY, Texas
KIRSTEN GILLIBRAND, New York         GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
GABRIELLE GIFFORDS, Arizona
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                 Doug Roach, Professional Staff Member
               Jesse Tolleson, Professional Staff Member
                 John Wason, Professional Staff Member
                      Ben Glerum, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, June 6, 2007, Department of Defense Body Armor 
  Programs.......................................................     1

Appendix:

Wednesday, June 6, 2007..........................................    81
                              ----------                              

                        WEDNESDAY, JUNE 6, 2007
               DEPARTMENT OF DEFENSE BODY ARMOR PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Abercrombie, Hon. Neal, a Representative from Hawaii, Chairman, 
  Air and Land Forces Subcommittee...............................    18
Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Saxton, Hon. Jim., a Representative from New Jersey, Ranking 
  Member, Air and Land Forces Subcommittee.......................    19
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Coyle, Hon. Philip E., III, Senior Advisor, World Security 
  Institute......................................................     7
Morgan, Dr. Jonathan, Deputy Director, National Institute of 
  Justice........................................................    60
Neal, Murray, Founder and CEO, Pinnacle Armor, Inc...............     5
Noonan, Col. Kevin S., Program Executive Officer, Special 
  Operations Forces Warrior Programs, United States Special 
  Operations Command, U.S. Army..................................    58
Smith, Col. Edward J., Product Group Director, Combat Equipment 
  and Support Systems, U.S. Marine Corps.........................    56
Smith, Roger M., Deputy Assistant Secretary of the Navy, 
  (Expeditionary Warfare)........................................    55
Solis, William ``Bill'' M., Director, Defense Capabilities and 
  Management Issues..............................................    59
Thomas, Douglas D., Executive Director for the Air Force Office 
  of Special Investigations, U.S. Air Force......................    57
Thompson, Lt. Gen. N. Ross, III, Military Deputy to the Assistant 
  Secretary of the Army for Acquisition, Logistics and Technology    53

                                APPENDIX

Prepared Statements:

    Abercrombie, Hon. Neal.......................................    87
    Coyle, Hon. Philip E., III...................................   144
    Grant, John D., from Pearcy, Arkansas........................    92
    Neal, Murray.................................................    97
    Noonan, Col. Kevin S.........................................   111
    Skelton, Hon. Ike............................................    85
    Smith, Col. Edward J.........................................   122
    Smith, Roger M...............................................   129
    Solis, William ``Bill'' M....................................   157
    Thomas, Douglas D............................................   116
    Thompson, Lt. Gen. N. Ross, III, joint with Brig. Gen. R. 
      Mark Brown.................................................   134

Documents Submitted for the Record:

    Body Armor Inquiry enclosures a, b, c, d, submitted by James 
      G. Magee...................................................   194
    Letter from John Morgan, Assistant Director, Office of 
      Science and Technology, National Institute of Justice Dated 
      December 20, 2006..........................................   173
    Recommendations for Testing Dragon Skin<Register> Armor from 
      Kirk Rice, NIST/OLES to Alex Sundstrom, NLECTC-National....   183

    [Pinnacle Armor submitted over 50 pages of testimony 
      including the HP White test results, general company 
      literature, product profiles, and biographical information 
      which is retained in the committee files.]

Questions and Answers Submitted for the Record:


    Ms. Bordallo.................................................   218
    Mr. Conaway..................................................   219
    Ms. Davis....................................................   223
    Mr. Forbes...................................................   218
    Mr. Ross.....................................................   222
    Mr. Saxton...................................................   217
    Mr. Skelton..................................................   201
    Dr. Snyder...................................................   217
    Mr. Spratt...................................................   217
    Mr. Thornberry...............................................   221
               DEPARTMENT OF DEFENSE BODY ARMOR PROGRAMS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Wednesday, June 6, 2007.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. The committee will come to order. This 
morning we will have testimony on the Department of Defense 
Body Armor Programs. We have with us today two panels. We have 
distinguished witnesses representing the military services, 
private industry, and independent agencies.
    First, I want to thank them for appearing. I would like to 
remind the members, which I usually do anyway, that we are 
under the 5-minute rule; and because we have two panels, we 
want to move along as expeditiously as possible.
    However, I ask unanimous consent that Mr. Ross of Arkansas, 
Mr. Radanovich of California and other noncommittee members, if 
any, be allowed to participate in today's hearing after all 
committee members have had an opportunity to ask questions.
    Is there an objection?
    If not, without objection, those Members will be recognized 
at appropriate times for five minutes.
    The jurisdiction of our committee is such that we cover a 
wide range of issues with the significance of other issues 
relative to the importance of providing the best protection 
possible for our men and women serving.
    Our committee has been in the forefront providing 
necessary, nonpartisan oversight on the full spectrum of 
protection matters. Since 2001, our committee has authorized 
over $5 billion to help the services procure body armor and 
expand that industrial base.
    Effective body armor is the baseline component to force 
protection. It is critical to promoting the survivability of 
military personnel serving in combat environments.
    Recent media reports have suggested that we may not be 
providing the best body armor available. NBC News commissioned 
an independent round of limited ballistic tests that compared 
current body armor to another system called Dragon Skin. NBC 
indicates the results from these limited tests favor Dragon 
Skin over the current military Interceptor Body Armor (IBA).
    NBC tests contradict the information provided to this 
committee by military and Department of Defense (DOD) officials 
in numerous briefings and hearings. Most recently, the Army 
indicated to this committee in a closed briefing on May the 
24th that they conducted first article live-fire ballistic 
tests on the Dragon Skin system in May of 2006. These tests 
also included environmental constraints such as subjecting the 
vests to extreme temperatures and fluids to ensure the vests 
would hold up to conditions that the troops might find in the 
field. The Army tests engaged in showed Dragon Skin failed to 
meet the military body armor specifications.
    We are here today to gain a better understanding of our 
facts and to reassure our constituents that our goal remains 
that we are ensuring their sons and daughters are being 
provided the best body armor available.
    I ask unanimous consent to put the balance of my statement 
in the record.
    However, I wish to point out that we have as witnesses on 
the first panel:
    Representing Pinnacle Armor, Inc., Mr. Murray Neal, 
President and Chief Executive Officer, Mr. Neal. We thank you.
    The Honorable Philip Coyle, III. Mr. Coyle served at the 
NBC News tests. And thank you, Mr. Coyle.
    After Panel I concludes, we will have Panel II:
    Lieutenant General Ross Thompson, III; representing the 
Department of Navy, Mr. Roger Smith; representing the Marine 
Corps, Colonel Ed Smith; representing the Air Force, Douglas 
Thomas; representing the Special Operations Command, Colonel 
Kevin Noonan; representing the Government Accountability Office 
(GAO), Mr. Bill Solis, the Director of Defense Capabilities and 
Management; and representing the National Institute of Justice 
(NIJ), Dr. Jonathan Morgan.
    With that, I will recognize the ranking member, my friend 
from California, Mr. Duncan Hunter.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 85.]

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman, and thanks for holding 
this hearing. I think it is a good hearing and it is a good--it 
is always, always the right time to work on force protection.
    You know, I looked over a few of the statements that were 
submitted to the hearing. Mr. Coyle, we have worked with you 
for a long time and appreciate your statement that you sent in. 
But one that I wanted to lay out first, I noticed a statement 
by you saying you thought that the Armed Services Committee 
needed to be more open to innovation. And I thought that we 
needed to let you know about some of the innovations that we 
have done.
    When our guys started to get hurt with Improvised Explosive 
Devices (IEDs) in Iraq, this committee went to Defense Advanced 
Research Project Agency (DARPA) and got money and we built a 
gun truck. In fact, we built over 113 of them and gave them to 
the U.S. Army. The Army ultimately funded a few of them, but we 
basically gave them to them--built it with DARPA money.
    This is a picture of one of them that I am going to send 
down to you. This is one of the gun trucks, called the Iron 
Horse; and there is a letter written to one of the Livermore 
personnel who helped to put this together, thanking him for 
saving his life with this truck that has a double hull with an 
inch and a quarter of E Glass, something that has never been 
done by any of the services, that we distributed to Iraq, that 
has taken massive IED blasts. And to my knowledge, not one of 
these trucks that was provided by this committee was ever 
penetrated.
    Now, that is an initiative that this committee took with no 
urging from any service but because we needed it.
    I have got another picture, and that is something we call 
Little Blue that is a portable jammer. Ten thousand of these 
jammers were provided by this committee in 70 days, which was a 
record time from start to finish, so that our marines and 
soldiers could have a jammer that they could carry on foot 
patrols, because as you know, all of the jammers that we had in 
the theater heretofore were massive jammers that had to be 
carried on Humvees or larger vehicles.
    We turned those babies out in 70 days, 10,000 of them; and 
we found out that we needed to bypass acquisition regulations. 
So there is a third thing I want you to take a look at, and 
that is a one-page certification for the Secretary of Defense 
(SECDEF) that Mr. Skelton and I and the other members of the 
committee provided by changing the law. That says, if we are 
taking hits on the battlefield, if we are taking injuries on 
the battlefield, the Secretary of Defense, by signing his name, 
can waive every acquisition regulation in the United States and 
move equipment to the battlefield quickly; and by signing that, 
Secretary Rumsfeld allowed us to get 10,000 jammers to the 
field in 70 days--incidentally, a record that hasn't come close 
to being broken since we have reverted back to the old system.
    Now, I know that Mr. Abercrombie has worked on this issue 
that we are going to talk about today, and Mr. Skelton also. I 
wanted to just offer a little corporate history here.
    I heard about the Dragon Skin either from a soldier or a 
marine who had heard about it from a family member or from a 
Web site; I can't remember exactly which one. But I called our 
staff here and said, Bring these guys in; let's see what 
they've got.
    Your guys, Mr. Neal, came in and met with the Armed 
Services folks; and our guys called up the Army and said, We 
wanted you to test this, to which the Army responded, We have 
already got a test laid on. And I have got a letter here, but 
apparently they also responded to Mrs.--to Senator Hutchison, 
who had made a request to have Dragon Skin tested.
    The Army said, We are going to test it; and the Army did 
test it.
    Now, I have looked at the tests today, the tests that they 
did, and they said they did these tests with you folks present 
at the test. Showed a lot of penetrations. I saw after that--
the back-and-forth where you felt that you had unfair tests. 
You shot at the edges, and other things were done that you 
think allowed these penetrations to take place, but there are 
fairly substantial penetrations in that armor.
    Now I understand that you then went to a German tester and 
you got a test done that indicated that Dragon Skin does great.
    A couple of things: I think that there is always a massive 
bureaucracy in the Department of Defense. We all know that, and 
we in Congress who helped to create that bureaucracy with our 
rules and regulations--many of which attend the competitive 
arena and accommodate the competitive arena, which you wouldn't 
have otherwise.
    But we also have the ability to move very quickly, and 
often there is a response, a bureaucratic response. It builds 
up. That does impede getting equipment to the battlefield 
quickly.
    I don't know which category this falls in, but I do know 
this: The Army reported back to us, after we told them we 
wanted them to test this, that they did test this and they told 
us the results and they showed penetrations.
    I know there are lots of folks, families paying 5K apiece 
for this body armor. I can tell you there are five members of 
this committee who have their kids at one time or another 
wearing body armor in theater, either Iraq or Afghanistan. And 
that includes this Member of Congress. In fact, as we sit here 
today, my son is wearing, on his third tour, the body armor 
that is issued to him by the U.S. Marine Corps, the same stuff 
that everybody else is using.
    So what I would like you to address today is whether or not 
you folks have come to closure with the Army on doing a test.
    The Army informed us that it took five months to get a set 
of Dragon Skin or enough sets from you guys to get the test 
done, but that ultimately it was done with you folks attending 
the test. And I want to know what your take is, if you stood 
there and watched them shoot this stuff and the bullets went 
through it, if you think the test was faulty. If it wasn't 
faulty, why didn't you speak up, or let us know that you 
thought you had a faulty test? And did you talk to the Army 
about it? And then we are going to ask the Army if there is an 
opportunity to take this stuff out and shoot it and see if it 
works.
    And, Mr. Coyle, as a guy who has worked on lots of things 
like the B-2 bomber and lots of other very complex systems, it 
seems to me that this shouldn't require rocket science to tell 
if a bullet goes through a certain substance. We ought to be 
able to figure this out.
    So I hope that we finish this hearing off by coming to some 
kind of an agreed-upon third-party test, Mr. Chairman, that 
will help to resolve this issue. And I think we need to move 
egos and personalities and cross-currents aside.
    And, Mr. Neal, I saw some pretty strong statements by you 
after I asked our guys to have you come in and show us what you 
had. They wrote a report that said that they saw what the Army 
had seen on this test. You had a couple of strong statements 
about them to the effect that they were part of a--part of the 
problem.
    And I can just assure you that the guys that we have got 
working, the men and women that we have working on force 
protection, have had lots of occasions when they brought in the 
Army and the Marine Corps, and this committee has brought in 
the Army and the Marine Corps, and we have put enormous 
pressure on them when they have not provided what we thought 
was needed to be provided in terms of force protection.
    If you want to go to sleep, get some late night C-SPAN, you 
can run some of the old tests or some of the old C-SPAN of 
hearings that this committee has done on force protection with 
respect to Humvees, up-armor, and jammers and the like.
    So we are interested in making sure we get the right 
protection for our troops. But the big question here is, how 
could the Army's test--which shows complete penetration, and I 
have looked at it--be so different from this test that you 
folks took with this independent agency in Germany? I would 
like to see those tests reconciled.
    So, Mr. Chairman, thank you for holding this hearing today. 
I think it is absolutely timely, and I look forward to seeing 
how these, how the Army tests and the Dragon Skin tests stack 
up. And if you've got the--if you've got the real McCoy, Mr. 
Neal, we want to get it out there fast.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Hunter.
    We will hear from the chairman of the subcommittee and the 
ranking member a bit later.
    Be that as it may, we will now welcome Mr. Neal and Mr. 
Coyle. Thank you.
    Mr. Neal.

STATEMENT OF MURRAY NEAL, FOUNDER AND CEO, PINNACLE ARMOR, INC.

    Mr. Neal. Thank you, Mr. Chairman.
    Mr. Chairman, honorable members of the committee. Thank you 
for the opportunity to come before you today to give you the 
facts and information needed to make sure that as long as----
    Mr. Hunter. I think you have got the wrong Neal.
    The Chairman. No. Mr. Abercrombie will speak later.
    Mr. Abercrombie. I want to get the testimony in.
    The Chairman. I called on Mr. Neal. That is his name; is 
that correct?
    Mr. Neal. Yes, sir.
    The Chairman. Go ahead. You are on.
    Mr. Neal. Thank you very much.
    Mr. Chairman, honorable members of the committee. Thank you 
for the opportunity to come before you today to give you the 
facts and information needed to make sure that as long as we 
have American men and women in harm's way in Iraq, Afghanistan, 
or anywhere else, they will have the best possible body armor 
production available.
    My name is Murray Neal, and I am the founder and chief 
executive officer of Pinnacle Armor, a company in Fresno, 
California. You have my written testimony addressing all of the 
concerns of testing, protocol issues, and my request for a fair 
and honest, unbiased hearing.
    The bottom line for me, and I would say for the American 
people, is that Dragon Skin has been verified as the best body 
armor in the world by testing throughout the U.S., as well as 
in other allied nations and beyond. Therefore, all we ask is 
for a third-party independent testing of Dragon Skin at a 
facility that has Office of the Secretary of the Defense 
Department Testing and Evaluation oversight.
    Please note that the only testing facility where the Dragon 
Skin has allegedly failed happens to be the only place where 
the current Interceptor has always passed, which is why we are 
seeking a neutral and independent party.
    That testing facility where the Interceptor always passes 
is the H.P. White Laboratory, which is primarily the Army's go-
to lab for the testing of body armor. And I believe that any 
future tests at that laboratory of either type of body armor 
will yield the same results.
    The Army tells you that it wants to test Dragon Skin along 
with the Interceptor, and we welcome such a test. But they 
insist on us using rigid-plate technology, and we insist on 
using the most technologically advanced, only flexible, rifle-
defeating body armor in the world. If Dragon Skin performed as 
poorly as the Army claims, why is it doing everything in its 
power to obfuscate and avoid such an independent test, which 
would ostensibly validate its allegations against Dragon Skin 
and support Army claims that the Interceptor is the best body 
armor in the world, bar none?
    There is a pattern of anti-Dragon Skin disinformation 
coming from the Armed Forces, and most of this can be traced to 
a single source.
    If that isn't enough, you would be intrigued that despite 
the fact that the Army claims it uses H.P. White Laboratory as 
an independent facility, it is that source that runs the entire 
so-called ``independent testing protocol,'' monitors and 
controls the test. General Mark Brown has told you that he told 
the media in the May 21st briefing that Mr. Karl Masters is, in 
Brown's words, the chief engineer and test director. That begs 
the question of how independent and unbiased the H.P. White 
test really was or could be in the future.
    The issue of the lack of quality of the Interceptor vests 
was broadly discussed during a Federal investigation of a body 
armor defense contractor that was conducted by the FBI, the 
Defense Criminal Investigative agency, and the United States 
attorney for the Eastern District of New York.
    This Federal investigation also determined that fielded 
Interceptor Body Armor did not meet ballistic standards. And 
the investigator discovered that the armor had failed these 
standards and was recalled, yet it is was still issued to our 
troops.
    The Army allows the test director to have broad discretion 
above and beyond the written test protocols and procedures.
    Lieutenant Colonel Gabriel Patricio of the Marine Corps, 
program manager responsible for body armor said, and I quote, 
``Failing or passing anything, that is a matter of some 
testing, procedures, and interpretations.''
    Over a 3-year period from 2002 to 2005, in cooperation with 
the Army Research Lab in Aberdeen, I worked on a development of 
a testing protocol for a flexible, rifle-defeating body armor 
that would provide a 95 percent level of confidence indicating 
multiple high-powered rifle rounds across the board. This is at 
a success rate level that is 100 percent higher than the 
current issued Interceptor whose ballistic integrity degrades 
with each additional shot.
    Natick was established to test and evaluate clothing and 
foodstuffs and additional, ancillary equipment for the military 
and now spends approximately--the vast majority of its time and 
budget on the ceramic-plate-based Interceptor Body Armor 
system.
    The introduction of a flexible system like Dragon Skin 
would cost Natick a significant chunk of its research and 
development budget because the dated armor plate system would 
disappear. Could that threat to the Natick's budget be the 
reason for this opposition? I don't know.
    Honorable members, when the smoke clears from a true, 
independent, third-party testing of Dragon Skin, you will see 
that Dragon Skin has the capability to substantially save 
American lives. That is the bottom line.
    Thank you for your time and your invitation to lay out some 
facts and the true story of Dragon Skin, and for giving me the 
opportunity to share with you my passion for protecting the 
lives of men and women in harm's way.
    Mr. Chairman, I would like to submit my testimony and 
documents package to be provided and entered into the record.
    The Chairman. Without objection.
    Mr. Neal. Thank you.
    [The prepared statement of Mr. Neal can be found in the 
Appendix on page 97. Also Pinnacle Armor submitted testimony 
including the HP White test results, general company 
literature, product profiles, and biographical information 
which is retained in the committee files.]
    The Chairman. Mr. Coyle.

 STATEMENT OF HON. PHILIP E. COYLE, III, SENIOR ADVISOR, WORLD 
                       SECURITY INSTITUTE

    Mr. Coyle. Thank you, Mr. Chairman.
    Mr. Chairman, Mr. Hunter, members of the committee, I very 
much appreciate the opportunity to appear before you today to 
discuss the comparative body armor tests sponsored by NBC and 
conducted in Germany early last month.
    I last appeared before the Air and Land Subcommittee of 
this full committee on January 18, 2007. Then, as now, I 
provided a description of my affiliations. I do not have a 
financial conflict of interest in this matter.
    This declaration constitutes the first section of my 
prepared statement. I won't read all of that now, but I would 
like to submit my entire statement for the record.
    The Chairman. Without objection.
    Mr. Coyle. I have over 30 years of test and test-related 
experience involving U.S. defense systems and equipment; and 
knowing this, NBC invited me to observe side-by-side body armor 
tests that were conducted at the Beschussamt Mellrichstadt 
laboratory in Germany on May 3, 2007. My role was to observe 
those tests, to provide advice and commentary where I saw fit; 
and I neither requested nor received any compensation from NBC 
for my time spent traveling to the laboratory nor for observing 
the tests.
    This committee needs to be open-minded about looking at the 
questions which the NBC body armor tests have raised. I say 
this because you know that body armor is of critical importance 
to U.S. military personnel in Iraq and Afghanistan. However, in 
the recent past, this committee has not shown itself to be 
open-minded on issues raised by NBC. I refer to NBC reporting 
on active protective systems. The House Armed Services 
Committee (HASC) held two hearings to denounce NBC for raising 
those issues, and those hearings did not engage the specific 
facts which NBC raised. In the course of those two hearings, 
this committee received testimony from the U.S. Army which was 
misleading and sometimes just plain wrong.
    On the positive side, after those two hearings, Senator 
John Warner requested an independent study of active protection 
systems. That study was completed 2 months ago by the Institute 
for Defense Analyses and showed that NBC was correct. The IDA 
study showed that the Trophy Active Protection System was the 
farthest along, as NBC had reported, and ranked the system 
which the Army system favored, the Raytheon ``Quick Kill'' 
system, ninth in terms of technical readiness.
    In short, the IDA report confirmed that NBC got it right.
    With respect to the questions that NBC has raised on body 
armor, I hope this committee will consider that NBC may have 
gotten it right again.
    From the outset, it was apparent that NBC would not have 
the capacity to conduct full-scale body armor tests that would 
capture all of the variables of importance to the U.S. Army. 
For example, NBC did not conduct tests at high or low 
temperatures; all of the rounds fired in the NBC body armor 
tests were fired at ambient temperature. Nevertheless, it was 
important for NBC to be sure that their tests, although 
limited, were fair and conducted according to professional 
standards, which I can attest they were.
    The results of the NBC tests, which are summarized on their 
Web site, were significant. The test showed that the Army 
Interceptor Body Armor meets U.S. Army requirements, something 
which I myself stated on camera. The NBC tests also showed that 
the ballistic protection from Dragon Skin body armor is better.
    I would now like to talk about the actual results of those 
tests commissioned by NBC and conducted on May 3rd in Germany--
actually, northern Bavaria.
    At NBC's request, the Mellrichstadt laboratory performed 
comparative testing of the Army's body armor, Interceptor, 
which employs rigid plates inserted into large pockets in an 
outer vest, against Dragon Skin, a flexible body armor, which 
employs a series of overlapping disks, each a little larger in 
diameter than a silver dollar.
    The Mellrichstadt laboratory is well familiar with the 
specifications governing body armor testing, regularly conducts 
body armor tests and has an outstanding reputation as the BMW 
of ballistic testing laboratories. Body armor tests are tested 
against a special kind of clay that simulates the resistance of 
the human body and provides a way to measure blunt force 
trauma. After each shot, each vest is removed to see whether or 
not the bullet has penetrated, and if not, to measure the blunt 
force trauma to a person wearing the vest.
    The U.S. Army generally considers a cavity deeper than 44 
millimeters to be a failure even if the bullet does not 
penetrate because the shock can be so great that the wearer of 
the body armor could die anyway. The sternum is a particularly 
dangerous area for blunt force trauma, as chest bones can be 
broken and propelled into the heart, lungs and so forth. A 
ruptured spleen or other damaged organ can be very dangerous, 
if not fatal, also.
    The measure of this blunt force trauma is called BFS, or 
Back Face Signature. That is the depth of the indentation 
caused in the clay when a bullet strikes a body armor vest. The 
NBC test consisted of six groups of test firings involving a 
total of 31 rounds of ammunition of different types and 
lethalities.
    Test number one was of Dragon Skin only. That is before the 
comparative testing began, a preliminary series of six shots 
were fired against Dragon Skin only using 7.62 caliber by 51mm 
long, M80 rounds. This is called a Level III threat, meaning 
capable of defending against high-powered rifle ammunition, and 
both Dragon Skin and Interceptor are National Institute of 
Justice certified at this level.
    The Army requires that three rounds be defeated; the 
National Institute of Justice requires that six rounds be 
defeated. And in this first test series, six rounds were fired 
at Dragon Skin body armor, and it stopped all six rounds, 
allowing no penetration. The Back Face Signatures were well 
within the Army standard. So this test showed that Dragon Skin 
could defeat this threat and meet both the Army standard and 
the tougher National Institute of Justice standard.
    From this point forward in this open testimony, I do not 
speak of the specific caliber or construction of each round 
fired in the NBC-sponsored test. Similarly, in their broadcast 
and on their Web site, NBC News did not describe the specific 
caliber or ammunition used in the comparative test because the 
Army believes that level of detail may assist the enemy.
    NBC News did, however, share those details with the Army, 
and the Army itself reported some of those in an open press 
conference on May 21st.
    Test 1a, part one of the first comparative test series, 
consisted of four rounds of a type of armor-piercing ammunition 
fired against an Interceptor Level IV vest with what are called 
``enhanced small arms protective inserts'' installed in an 
outer vest. Level IV refers to a higher level threat from 
armor-piercing ammunition.
    This test shows that the Army's Interceptor Body Armor 
meets minimum U.S. Army standards for this type of round at 
ambient temperature, which only requires body armor to stop one 
round of this type of ammunition. However, when taken to a 
third and fourth round, the blunt force trauma on the third 
round was high, 47mm at the top end of the range; and on the 
fourth shot there was a complete penetration of the Interceptor 
Body Armor.
    Test 1b, part two of this comparative test series, 
consisted of six rounds of the same type of armor-piercing 
ammunition as was fired in Test 1a, but now fired against 
Dragon Skin.
    This test showed that Dragon Skin also meets U.S. Army 
standards for this type of round at ambient temperature. Better 
still, Dragon Skin allowed no penetration in six rounds fired, 
and the blunt force trauma from each was significantly less 
than with Interceptor.
    On average, the Back Face trauma signature was 56 percent 
greater with Interceptor than with Dragon Skin. This test was 
also significant because the Army has indicated that in its 
test of Dragon Skin last year, the Dragon Skin could not defeat 
this type of ammunition. In the test that I observed, it 
clearly did and never failed.
    Test 2a, the next comparative test series, was conducted 
with a type of armor-piercing incendiary ammunition and 
consisted of six rounds firing at the Army body armor. This 
test shows that the Interceptor Body Armor can stop this type 
of armor-piercing incendiary ammunition, but when taken to a 
fifth round, the blunt force trauma exceeded general Army 
standards, and the sixth round allowed a complete penetration.
    Test 2b then was conducted with the same type of armor-
piercing incendiary ammunition as in 2a, but now against Dragon 
Skin, and six rounds were fired. This test showed the Dragon 
Skin can defeat this type of armor-piercing incendiary round as 
it did six times. There were no penetrations, and the depth of 
the blunt force trauma signature was dramatically less than for 
Interceptor. On average in this test series, the Back Face 
trauma depth was nearly 82 percent higher for Interceptor than 
for Dragon Skin.
    The third and final test was of Dragon Skin alone. The 
ammunition fired was of a composite nature. The Army does not 
require its body armor to defend against a bullet of this 
lethality. Three rounds were fired. This test showed the Dragon 
Skin can defeat a highly lethal type of armor-piercing 
ammunition. Also notable is that the Back Face trauma signature 
on these three shots averaged less than 19 millimeters, less 
then half of the Army's 44mm standard, a standard which is only 
required for less lethal types of ammunition.
    Given the NBC test results, the refusal of the Army to 
undertake side-by-side testing is puzzling. When NBC News 
Reporter Lisa Myers asked General Mark Brown whether the Army 
would do side-by-side testing, General Brown said that the Army 
doesn't do side-by-side testing, but tests to a standard. Of 
course, they test to a standard, but NBC News tested both vests 
to the Army standard, and Dragon Skin performed better.
    Side-by-side testing means testing both types of body armor 
under the same conditions according to the same scoring rules, 
in short, a level playing field.
    In his recent press conference, General Brown said he had 
all of the money and all of the leadership support he needed to 
get body armor and to get improvements to body armor. He also 
said that the Army is never satisfied with the status quo and 
that the Army is always looking for the next best thing and 
that if there is something better out there, we are going to 
buy it after we have live-fire tested it. If this is true, 
doing fair, contemporary, side-by-side tests should not be a 
problem.
    I am not saying that Interceptor does not provide good 
protection; nor is retired Army General Wayne Downing, who 
observed the tests with me. He noted on camera, as did I, that 
Interceptor performed well during the NBC tests. But Dragon 
Skin was better, notably against multiple rounds and in 
reducing blunt force trauma which can kill even if a bullet 
doesn't actually penetrate the vest.
    From the body armor tests that I observed in Germany, 
Dragon Skin appears to have five advantages, advantages in 
which I would think the Army and this committee would be 
interested. Those advantages appear to be, first, Dragon Skin 
is flexible and conforms better to the contours of the human 
body which is also helpful for female soldiers.
    Dragon Skin covers more of the torso and does not leave 
gaps.
    Dragon Skin is better against multiple shots.
    Dragon Skin reduces blunt force trauma. The depth of the 
cavities caused in the test clay by shots fired at Dragon Skin 
were often half as deep as the cavities caused in the clay 
during Interceptor tests.
    And fifth, Dragon Skin performed perfectly, allowing no 
penetrations, and defeated six rounds of a particularly deadly 
ammunition threat which U.S. troops in Iraq and Afghanistan may 
face.
    Mr. Chairman, in conclusion, the controversy over the most 
effective body armor for the U.S. Army has been brewing for a 
long time and was not started by NBC. NBC, ABC, CBS, the 
Discovery Channel, the History Channel and the National 
Geographic Channel, that I know of, have all either aired 
programs on this controversy or plan to do so.
    This does not count the scores of prank media sources who 
have reported on the body armor controversy. Even YouTube has 
pictures of Dragon Skin body armor testing on the Internet and 
Wikipedia has posted a carefully documented description of the 
history of this controversy. Some news organizations have shown 
successful ballistic tests of Dragon Skin body armor conducted 
on behalf of other agencies such as police departments.
    In addition, officials with the FBI, the CIA, the U.S. 
Marshal Service, the GSA, the U.S. Navy, the U.S. Air Force, 
the Federal Protective Service, the Department of State, the 
Department of Energy, and the U.S. Coast Guard have all bought 
or placed orders for Dragon Skin. And so also have private 
security firms that provide security protection for high-
ranking officials in Iraq or other dangerous places.
    Mr. Chairman, the tests conducted by H.P. White for the 
Army in May 2006 and the NBC tests conducted this year can 
probably never be compared one for one. Too much time has 
passed since the tests a year ago, and the Army is overly 
invested in proving NBC wrong.
    The best way to resolve this matter would be for the U.S. 
Army Test and Evaluation Command to conduct comparable side-by-
side tests of both the Interceptor and Dragon Skin body armor.
    Those tests should be overseen, in my view, by an 
independent third party such as the Director of Operational 
Tests and Evaluation. That is what the Senate Armed Services 
Committee has called for, and I hope the House Armed Services 
Committee will join the Senate to call for a fair, balanced, 
and refereed body armor testing program.
    Mr. Chairman, I would be pleased to take any questions you 
might have.
    [The prepared statement of Mr. Coyle can be found in the 
Appendix on page 144.]
    The Chairman. Thank you very much.
    Mr. Coyle, in your prepared statement--and you made 
reference in your oral comments that you do not think our 
committee is open-minded in looking at questions--you make 
reference in your written statement, though I don't recall your 
using the phrase, the Active Protection Systems, which have 
nothing to do with body armor, but deal with devices that go on 
vehicles; and you question the Armed Services Committee which 
held two hearings, one in September when Mr. Hunter was 
chairman and one in January when I am chairman.
    The Active Protective Systems won't be ready for prime time 
until March of next year, and I have no idea why in the world 
you make reference to that when we are talking about body 
armor. I frankly resent your doing so. I think we should stay 
on subject.
    Mr. Coyle, let me ask you this: In the test that was done 
in Germany, who provided the Army body armor system for that 
test?
    Mr. Coyle. The body armor system----
    The Chairman. On the test that was done in Germany.
    Mr. Coyle [continuing]. Was provided by Jim Magee, who, I 
understand from the press, is an inventor of the Interceptor 
system. I don't know where he got it.
    The Chairman. You have no independent understanding as to 
whether this is the exact Interceptor system that the Army uses 
or not?
    Mr. Coyle. I do not.
    The Chairman. Let me ask you, Mr. Coyle, what does the 
Dragon Skin--say, size large--weigh, please.
    Mr. Coyle. I don't know. You will have to ask Mr. Neal 
that.
    The Chairman. Mr. Neal, do you know how much it weighs?
    Mr. Neal. Size large with two 10-by-12 plates, Level IV, 
weighs 24 pounds. Depending upon the area of coverage, it could 
weigh more or it could weigh less. That is one of the unique 
things about Dragon Skin. You can go from as small as an 
independent disk all the way up to a full torso wrap. Depending 
upon the size of coverage and the size of the vest, the weights 
will vary.
    The Chairman. Suppose you have the fullest protection 
possible. How much would it weigh?
    Mr. Neal. Fullest protection in a Level III.
    Mr. Skelton. Large.
    Mr. Neal. On a large, full-torso wrap, Dragon Skin weighs 
26.7 pounds.
    The Chairman. If we were to do another test, how fast could 
you provide required 30 vests, Mr. Neal?
    Mr. Neal. I would have to look at the DFAS rated orders we 
have in house. We had the same situation initially with 
Brigadier General Moran's request. We had DFAS rated orders in 
house, and under Federal law, I am required to do them first 
unless I can augment production enough to not interrupt my 
deliverable timeline. I would anticipate probably by the middle 
of July.
    The Chairman. Mr. Hunter.
    Mr. Coyle. If I could comment about the first thing you 
raised.
    The Chairman. I wish you would.
    Let me tell you, Mr. Coyle, I don't care who is chairing 
this committee or who is on this committee, we do our best to 
protect the soldier. And we are open-minded on everything that 
we have before us. We are not rubber stamps for anyone. I think 
our recent bill shows that.
    Go ahead and comment.
    Mr. Coyle. Nor did I mean to imply anything of the sort.
    The Chairman. I read your words.
    Mr. Coyle. But what I said and what I meant was that I had 
the feeling that this committee was not open to issues when 
they were raised by NBC. I did not say that this committee was 
not open-minded. I did not say that this committee was not 
supportive of new innovations. I very much appreciate the 
examples that Mr. Hunter brought up of new innovation which 
might not have happened if not for this committee.
    My only point was that, last January, it didn't appear to 
me that this committee was open to the questions that NBC 
raised and certainly didn't discuss those specific questions. 
And I was hoping that wouldn't happen this time just because it 
was an NBC thing.
    That was my only point.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Mr. Coyle, without beating a dead horse, when 
did NBC become aware of Dragon Skin?
    Mr. Coyle. I don't know.
    Mr. Hunter. Well, my memory is, because I heard about 
Dragon Skin from a Special Forces guy, or saw it on a Web site 
or something, that it was January of 2006 when I had our staff 
contact the Dragon Skin folks and had them come in and have a 
meeting with the Armed Services Committee, a year before NBC 
became interested in it. And we subsequently called the Army 
and told the Army that we wanted them to test it. The Army 
fired back that they, infact, had a request, I believe, from 
Kay Bailey Hutchison to do the same thing.
    They did test it, and what I would like to have you look 
at--because I agree with you, let us get down to the nuts and 
bolts here--which test, which test is right and/or maybe, are 
both of them right, but they were using different types of 
material or different or disparate systems?
    I have got the Army tests in front of me. The Army test in 
front of me has a--that they gave the committee has Dragon Skin 
with a bunch of holes in it, and I want to--let me ask the 
staff to bring that down and give that to you.
    Could you give a copy of that to--have you got it there, 
Mr. Coyle?
    Mr. Coyle. I believe I do.
    Mr. Hunter. Open that up to the chart that has got the 
photographs of Dragon Skin with the holes in it. Those are x 
rays that they took of the Dragon Skin.
    And first, it says they weighed them, and the Dragon Skin 
was not 24 pounds; it was 48 pounds.
    Am I missing something here? Because Mr. Neal said they are 
27.
    Mr. Coyle. I was not there. I didn't see these tests that 
were done a year ago last May. Mr. Neal was. I think it is 
probably better if you ask him.
    Mr. Hunter. Mr. Neal, we were told that your folks were 
present at the test. That is what the Army tells us. Were they 
present?
    Mr. Neal. Myself and one other individual were present at 
the test.
    Mr. Hunter. Now, if you go to the first shot, I am looking 
at the first test and they say this was done under ambient 
temperatures, and it says XL-01 front, second shot, complete 
penetration.
    Now, Mr. Neal, we just heard of the tests that were done in 
Germany where you had, what, a total of--was it a total of, Mr. 
Coyle, of 12 shots or 18 shots that were taken? Some series of 
6, right?
    Mr. Coyle. You are talking about the German?
    Mr. Hunter. The German tests.
    Mr. Coyle. All in all, there were 31.
    Mr. Hunter. Mr. Neal, is this an accurate x ray of the 
Dragon Skin with a hole in it, underneath the statement that 
says ``second shot, complete penetration''? You were standing 
there when they shot that one, right?
    Mr. Neal. Yes, sir.
    Mr. Hunter. Do you think it was an unfair shot or a shot 
from a bad angle? Or what happened here?
    Mr. Neal. No. On that I don't think this is an unfair shot 
or an incorrect angle.
    One of the things that is--in the process of going through 
this to show you, I have got copies that are in the data 
package of three different Power Point presentations that have 
been presented, and there is a little bit of discrepancy or 
difference in the data. And let me just show you one of those 
for your information, if I can find how these things were 
copied. Bear with me one minute, please.
    On one of them, under the high temperature, 160----
    Mr. Hunter. Let's go to the low temperature first. It may 
be unfair to you guys to go to a high temperature. Let's go to 
the regular ambient temperature. It says ``second shot, 
complete penetration.'' you were standing there.
    Mr. Neal. I don't disagree with that.
    Mr. Hunter. Okay. Then let's go to--let me ask you a 
question: Why do you think that the Army test, then--if you 
were standing there watching the Army test, and they fired the 
gun and the bullet went through the Dragon Skin, why didn't it 
go through the Dragon Skin in the German test?
    What is your answer for that discrepancy?
    Mr. Neal. I don't have an answer for the discrepancy in 
that particular situation. You will have armor systems, it 
doesn't matter how many times they pass, once in a while you 
will end up with a complete penetration. That is just part of 
the nature of ballistics, and there is no way of getting around 
that.
    However, that is why test protocols and procedures often 
have QA issues attached to them, such as this First Article 
Testing. It has the QA retest procedure.
    If you--you are allowed--if you go through and you have 
some penetrations, they are required to be retested. That was 
never the case in this situation. And that is part of the 
protocol and procedures.
    Mr. Hunter. Let me ask you another question.
    Turn to saltwater exposure. That one looks like you did 
pretty good on that one. It says, apparently, because there is 
always a chance you are going to have saltwater exposure if you 
are talking about the Marines, the Army, et cetera, it said 
results okay, okay, okay, okay.
    Now go to motor oil exposure because apparently you--or 
diesel, and it is a diesel fuel exposure after that. The 
services believe that there will be an exposure to motor oil 
and diesel fuel, and they don't want to have degradation.
    Now they have got under that, and they have got the 
pictures that back it up that after they shot it with you 
standing there, they have got second shot complete penetration 
on MO-1 front and then on MO-1 back, second shot complete 
penetration.
    On the sides, to be fair, on the sides they have got that 
it stopped the bullets. But on the front and back complete 
penetration.
    In your estimation, is that--was that an unfair test or do 
you think that is an unfair requirement that you can come in 
contact with motor oil and keep its structural integrity.
    Mr. Neal. No, I don't feel that's an unfair requirement. If 
you look at the x ray that has a round circle in it in the 
center, you will see the bullet residing in the armor. That is 
not a penetration. That is a defeat. The bullet did not go 
through the armor. It is residing in the center of that round 
circle that they call a penetration.
    Mr. Hunter. So how would you classify that?
    Mr. Neal. That is a defeat. If there was no bullet core 
residing in the x ray, it would have gone through the vest.
    Mr. Hunter. We will reserve that question then for the Army 
and let them explain that one.
    Mr. Neal. Same, too, with the diesel fuel exposure with--
the one with the circle shows it has a bullet core sitting in 
the center of the circle. That is not a penetration. That is a 
defeat of the projectile.
    Mr. Hunter. So when they say ``penetration,'' in your 
estimation that is not accurate. So we will bring that up with 
the Army when we let them take the witness table.
    Now if you go to impact drop. Apparently they drop these 
things so that--because you are going to have your vests thrown 
around in the Army and the Marine Corps, et cetera.
    They have got on the fourth test they have got left, 01, 
right side, first shot, complete penetration. Do you disagree 
with that? Was that an unfair----
    Mr. Neal. Yes, sir. Because the bullet core is residing in 
the upper 1 o'clock position within that circle. If the bullet 
is residing in the armor, the bullet was defeated. It did not 
penetrate and go through the armor.
    Mr. Hunter. Okay. So that is the third one where you say 
the bullet still hung in there and didn't get all the way 
through?
    Mr. Neal. Yes, sir.
    Mr. Hunter. Let's go to low temperature, and low 
temperature. I have got minus 60 degrees Fahrenheit. It says 
``okay'' all the way through, then high temperature 160 degrees 
Fahrenheit. I thought that was a little high, but I was 
reminded when my kid went to Kuwait the other day on his way 
into country, it was like 137 degrees in the shade. So I take 
it the reason they got the 160 degrees is because if it is in 
the back of a Humvee and it is closed, you could get up to 160, 
right?
    Mr. Neal. You could have it in a metal container. You could 
have the armor sitting in--we have a lot of law enforcement 
officers who are in Arizona, and they wear their concealed 
armor and then they have the Dragon Skin tactical; and they 
throw it in the trunk of their vehicles all the time, and it 
has been with them all the time, and it is warm in the trunk.
    Mr. Hunter. I understand. But let me go to the test.
    They took this up to 160 degrees in this test while you 
were there and they have got XL-03, front, first shot, complete 
penetration; XL-03, back, first shot, complete penetration; XL-
03, left side, first shot, complete penetration.
    What do you think? Did you observe those? Did you think 
they were unfairly taken or was there, in fact, complete 
penetration?
    Mr. Neal. Eight of the shots that were taken on the high 
temperature vests were shot in areas where there were no Dragon 
Skin ceramic discs. They shot through the textile component 
only. It did not engage the rifle-defeating portion of the body 
armor. That is not considered a----
    Mr. Hunter. How did that happen?
    Mr. Neal. What happened in this particular one--it was 
addressed with Mr. Masters and Mr. Zheng--was, we had a 
section, a 25mm strip where there was no adhesive in the 
material. We even cut it open, peeled the vest back.
    The adhesive anomaly, as it was considered at that time, 
is--if I may explain this to you, because I have to tell you 
how it works. We have 200-yard rolls of an aramid textile that 
goes through a laminating press, which is similar to a wringer 
washer, and it is put under pressure and heat. The laminator 
that does it has 50-yard rolls. So they butt-joint them and run 
them through.
    Well, what happened in this incident was, one pulled 
through, left a 25mm 1-inch gap where there was no adhesive. It 
did not get caught when we manufactured the vests, and that 
happened to be on the front----
    Mr. Hunter. So you are saying, basically your adhesive 
failed.
    Mr. Neal. No, it did not. It did not have adhesive in those 
areas. We have subsequently got with the manufacturer. The 
manufacturer now guarantees not a butt joint, but an overlap 
and additionally have to mark every time there is a joint to 
the right and left of the roll; and then we have now changed 
the QC procedures in house to visually inspect every one of 
those joints as well.
    Mr. Hunter. So the adhesive didn't fail, but there was a 
lack of adhesive because of a problem that you fixed.
    So the stuff fell down, and you really didn't have a shoot 
through the armor. You really didn't have an opportunity to 
test the armor on that shot; is that accurate?
    Mr. Neal. What you will see here, where you see the one 
disk with the inside, the red circle, there was one roll of 
discs that we are missing. The second row for the x rays, those 
have been put in because you can see, as you compare to the 
left side, the lap overlap joints aren't the same.
    We had peeled that back and we opened it up on the range. 
It was during that time that Mr. Zheng chose to shoot through. 
The textile component, as he said, he was gathering data 
points, and then it was at that time where they decided to 
shoot three individual discs by themselves.
    One disk they shot in the center; it defeated the round. 
The second disk they shot half way between the center and the 
edge; it defeated the round. The third shot they fired 
approximately a quarter inch to three-eighths from the edge and 
the round went through, which is what it will do because you 
wouldn't shoot that close to the edge on the armor system.
    So aside from that--oh, and by the way, the one that is in 
the circle here is the one they shot about the 6 o'clock 
position, very close to the bottom of the edge that did have 
the penetration.
    Mr. Hunter. Okay. So just to take it--and I thank you, Mr. 
Chairman, for letting me have some time, but you kind of have 
to go through this stuff. You are saying the first shot that 
went through, you kind of accept that. That one went through. 
And if you had shot--the first one we went to, where you said--
--
    Mr. Neal. Yes, sir.
    Mr. Hunter [continuing]. You didn't think it was an unfair 
shot.
    Mr. Neal. That is correct.
    Mr. Hunter. But the other ones you disagree that there was 
total penetration, and the last one it was just a problem with 
not having adhesive there, so the armor really down, slipped 
down, and you didn't have an opportunity to really test the 
armor is what you are saying.
    Mr. Neal. We had one row of disks that just dropped----
    Mr. Hunter. Okay.
    Mr. Neal [continuing]. Down probably that far, yes.
    Mr. Hunter. Okay. Thank you. And so we will take up those 
discrepancies with the Army when they come up. And I just say 
this, Mr. Chairman. Mr. Neal, you got some sets of this Dragon 
Skin, at least one or two sets available?
    Mr. Neal. Here.
    Mr. Hunter. I would like to see us take them down, while we 
are waiting for these sophisticated tests to be set up, take 
them down to the Marine Corps Warfighting Lab, break out an M14 
with 7.62 armor-piercing and shoot it and see if it goes 
through.
    Mr. Neal. I would have to get some sent in.
    Mr. Hunter. Okay. That's not mission impossible, is it?
    Mr. Neal. No, sir, it is not.
    Mr. Hunter. I would like to see us do that. I think we 
could do that in short order. Anyway thank you, and I look 
forward to the Army's response on that. Thank you, Mr. 
Chairman.
    The Chairman. Thank you. We are going to go a bit out of 
order because the subcommittee chairman and the ranking 
subcommittee gentleman will be recognized each for five 
minutes, and then we will go in regular order.
    Mr. Abercrombie.

   STATEMENT OF HON. NEAL ABERCROMBIE, A REPRESENTATIVE FROM 
       HAWAII, CHAIRMAN, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Abercrombie. Yes. Thank you, Mr. Chairman. Mr. 
Chairman, I have a statement for the record I would like to 
submit.
    The Chairman. Without objection.
    [The prepared statement of Mr. Abercrombie can be found in 
the Appendix on page 87.]
    Mr. Abercrombie. Thank you very much. Mr. Chairman, 
recently I was introduced to a group in Hawaii by someone who 
felt they wanted to give a good introduction to me, and so they 
did a little research on Wikipedia. And when I was introduced I 
could not recognize myself, because what was apparently in 
Wikipedia was so far removed from any of the facts surrounding 
my life or interpretations of the facts surrounding my life 
that it made no sense at all.
    So I understand and perhaps have a better understanding now 
of Mr. Coyle's testimony inasmuch as he thinks Wikipedia is 
something that should be cited for careful documentation. And I 
quite agree with Mr. Coyle that he did not imply that the 
committee was not open-minded. He said it absolutely. He didn't 
imply it at all. In case he has already forgotten what he said, 
he said in the recent past this committee has not shown itself 
to be open-minded on issues raised by NBC. He was talking about 
the Active Protection System. But now we suddenly got into 
armor. He did refer to two hearings to denounce NBC for raising 
the issue, and those hearings did not engage the specific facts 
which NBC raised.
    Well, I can tell you, Mr. Chairman, that the first hearing 
was held under the direction of Mr. Hunter as chairman of the 
committee, and he charged Mr. Weldon, who was chairman of the 
subcommittee, and I was ranking member, to follow through on 
what he has already enunciated today. And we did. And for those 
new members here who don't know Mr. Weldon, I can assure you--
although Mr. Sestak I guess knows Mr. Weldon. Perhaps Mr. 
Weldon is not so happy about that today. But the plain fact of 
the matter is that I don't think anybody here who ever knew Mr. 
Weldon, and for those members who didn't know him, he was never 
hesitant about reaching out to get any kind of facts. And as I 
say, he did it under Mr. Hunter's direction. And he always 
involved the ranking member and the staff. That was me. And I 
can tell you we went to NBC, and by phone, calling, everything, 
trying to get them to come here to the hearing or involve 
themselves with the staffs so we could find out what was going 
on. And then when I became the chairman under Mr. Skelton, Mr. 
Skelton charged me and Mr. Saxton to do it. And I can assure 
you, again for new members who may not be familiar, this 
committee as a whole and the subcommittees to the best of my 
knowledge don't do anything except on a bipartisan basis. And I 
can say when I was ranking member for all the time under Mr. 
Hunter of the committee, or just a member of the committee, our 
staffs and ourselves were always involved from beginning to 
end.
    And the hearing that we held, the second hearing that Mr. 
Coyle refers to, which we held to denounce NBC, it is a little 
hard to denounce NBC when I asked Mr. Coyle to be a witness. So 
I don't know why he bothered to go through all the hearing if 
we were not taking everything up that was at point.
    So I don't know--and today--and I want to finish with 
this--is that today we have been trying to get NBC to 
participate in some way. Where did you get the information? 
What are you referring to? Can you please let us know about the 
tests? NBC refuses to talk to us. The only contact I have had 
and Mr. Saxton has had with NBC is to watch some overpaid 
multimillionaire line reader show up on television, properly 
groomed and coifed and made up, to denounce this committee.
    Now the reason that I am so exercised about it, and I think 
what needs to be said with as much emphasis as I can place upon 
it, is that we have the direct responsibility for the Armed 
Forces of the United States to prepare them in terms of 
equipment, in terms of proper personnel, and in terms of proper 
training to carry out the strategic interests of this country 
as is required of them when they are sent into the field and 
deployed. Everything and anything that is done by this 
committee is done with that in mind. It's not a Republican 
issue, it's not a Democratic issue, it is not an issue of 
contending with networks who, when they finish their discussion 
of the Active Protection System or the body armor, went on to 
their ads for erectile dysfunction or a murder or whether or 
not some celebrity slut was going to jail. So I am not 
interested in those kinds of things. What we are interested in 
is seeing to it that the men and women of the armed services 
have the best possible equipment, the best possible training, 
the best possible preparation for the tasks that have been 
assigned them.
    Now, if the Army or anybody else has not been able to 
fulfill that obligation, that is fair and legitimate inquiry, 
Mr. Chairman. But that has not been the case. The Army has come 
forward in this instance, at least as far as I can tell from 
Mr. Saxton and myself, fully prepared to engage in the issue. 
And I am prepared to engage in the issue as your subcommittee 
chair, as is Mr. Saxton.
    The Chairman. Thank you, gentlemen. Mr. Saxton from New 
Jersey.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE FROM NEW JERSEY, 
        RANKING MEMBER, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Saxton. Thank you, Mr. Chairman.
    The Chairman. Recognized for 5 minutes.
    Mr. Saxton. I would like to just pick up where Mr. Hunter 
left off, Mr. Neal. Mr. Hunter ran out of time just as he was 
getting to page 17 of the Army report, which has photographs of 
the vests that were taken after the Army tests, where the 
temperature was cycled with the vest from minus 25 degrees 
Fahrenheit to plus 120 degrees Fahrenheit. Do you have that 
page there with you?
    Mr. Neal. Yes, sir.
    Mr. Saxton. Okay. It shows that three of the tests were 
okay, but the test on the back, it says here that the first and 
second shot completely penetrated. Would you like to give us 
your version of why that happened? Or explain to us why that 
happened?
    Mr. Neal. I don't recall if there was a first shot 
penetration. I think there was a second and third shot complete 
penetration on those. I don't know the results on it. I do know 
that the armor performed well. The second and third shot 
penetrations, I don't know if it was on the--one was on the 
front and one was on the back, I am not too sure. I don't have 
that data here in front of me.
    Mr. Saxton. Are you saying that the information that the 
Army presented us was wrong, incorrect?
    Mr. Neal. No, I am not saying that. I am saying I can't 
recall whether the one that they are calling the first and 
second shot completes on the back, I recall the second and 
third shot, but I don't know if they were all on the back panel 
or one on the front and/or one on the back.
    Mr. Saxton. I am not an expert at reading x-rays, but it 
would seem that--it would appear that some of those disks had 
in fact delaminated in that picture. Would you agree with that?
    Mr. Neal. I don't know what has happened there. The disks 
are actually turned on side.
    Mr. Saxton. Yes, sir.
    Mr. Neal. Can I pull something up to show the members? I 
need to show you something, if you may, an example of the armor 
to explain what I need to do.
    Mr. Saxton. Sure. If you could just let me go on to one 
more question before we do that.
    Mr. Neal. All right.
    Mr. Saxton. On page seven there are two pictures, and other 
information relating to Interceptor Body Armor on the left and 
Pinnacle body armor on the right. And in his oral statement, 
Mr. Coyle mentioned that the Pinnacle body armor provides 
better coverage of the upper torso because it can wrap in 
places and there are no gaps. And in fact, these two pictures, 
it indicates that the coverage with the Pinnacle is 743 square 
inches, where with the Interceptor Body Armor the coverage is 
720 square inches. I did a little math, and it shows that in 
fact the Pinnacle armor does provide about 3 percent more 
coverage in this instance. It also shows here that the 
Interceptor Body Armor weighs 28 pounds and that the Pinnacle 
body armor in this example weighs 47-1/2 pounds. And I will say 
that when the Army was here they actually brought two scales 
and hung these two vests on the scales and showed that those 
weights did register as such on the scales. And that would seem 
to me to indicate that there was a significant disadvantage. In 
fact, the weight was said to be 46 by the Army, 46 percent to 
70 percent heavier with Pinnacle body armor than with 
Interceptor Body Armor. Would you speak to that?
    Mr. Neal. Yes, sir. The information that is on this 
PowerPoint presentation is misleading and incorrect. The 
coverage that they have there in square inches, which is as 
most people would assume it looking at that, would be 
considered the amount of coverage area to defeat rifle rounds. 
That is incorrect. The Interceptor Body Armor, with the front 
and rear plate and two side SAPI plates represents about 2.88 
square feet of rifle-defeating coverage. The extra large vest 
which was ordered by Brigadier General Moran was an extra large 
full torso wrap with added disks at the top and the edge, which 
brought it to 5.45 square feet of rifle-defeating coverage. You 
are getting an apples and oranges comparison. The weight on 
that, if you will look in the document package presented to 
you, part A, where there is this picture right here, this is 
the actual three dimensions of the vest, the serial numbers, 
and handwritten on the side are the actual weights of the body 
armor as weighed the day of the test. There is nothing that 
weighs 47-1/2 pounds as weighed by the Army. The information 
provided in here is misleading. They are trying to tell you 
that 47-1/2 pounds, which is a pound and a half too heavy for 
an overloaded vest, which has more disks in it, as General 
Moran asked us to load it up, that is more than we would 
normally put in for a full torso wrap. And giving you a 5.4-
square foot area of coverage, and trying it to compare it to 
2.88, and breaking the weight down and calling that an apples 
to apples representation is a misrepresentation.
    Mr. Saxton. Thank you, Mr. Neal.
    Mr. Neal. You are welcome.
    Mr. Hunter. Could I take----
    Mr. Saxton. If I may yield to----
    The Chairman. Yes.
    Mr. Hunter. Thank you, Mr. Chairman. I thank the gentleman 
for yielding. Mr. Coyle, you made the statement when you opened 
up you didn't see the Army test, you saw the test in Germany in 
which there was no penetration. And you concluded that 
therefore it appeared to test in your test in a way superior to 
the Interceptor. Is that right?
    Mr. Coyle. That is correct.
    Mr. Hunter. Okay. Now that you saw the test in which Mr. 
Neal acknowledged that he was present, stood there, watched 
them shoot it, watched them shoot his package that he had given 
them, and the first shot or second shot had total penetration, 
which he acknowledges, would that change your conclusion that 
it is superior to the Interceptor? If you accept that as a 
valid shot?
    Mr. Coyle. If that was a valid shot it certainly would 
raise questions in my mind.
    Mr. Hunter. Oh, really?
    Mr. Coyle. Like questions you asked, which is how come, you 
know, the Dragon Skin stopped everything in Germany but didn't 
in the cases----
    Mr. Hunter. Okay. But if you had taken that and considered 
that to be the sixth shot, that was a seventh shot that was 
made----
    Mr. Coyle. Yes.
    Mr. Hunter [continuing]. You wouldn't then have put in your 
report that you considered it to be superior to the 
Interceptor, would you?
    Mr. Coyle. I would not have, no.
    Mr. Hunter. Okay. Thank you, Mr. Chairman. I appreciate it. 
Incidentally, before we go off this, I think every member of 
the committee is interested in having the very best. I think 
the flexibility is a value that you pointed out. When my son 
came into Iraq the first time, coming over the berm out of 
Kuwait, his gunner was shot and fell back into him, and they 
had a tough time getting him out of the way and getting their 
guns operated, and we brought in some people to try to design a 
serapi-type of a covering that the gunner could wear on a 
Humvee, something that was heavier than the normal vest. It 
looks to me like this Dragon Skin may have some possibilities 
in that connection. I would like to explore that later when we 
are finished with this hearing.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Spratt, five minutes.
    Mr. Spratt. Thank you both for your testimony. It seems a 
bit odd that, given the fact we have all kinds of testing 
facilities in this country, we would go all the way to Germany 
for conducting these tests. You know if any effort was 
undertaken by NBC or by yourselves, particularly you, Mr. Neal, 
to have the tests conducted here on some kind of reasonable 
parity basis?
    Mr. Neal. I was asked by NBC to provide body armor to do a 
comparative test. You will have to ask NBC with regard to why 
they chose----
    Mr. Spratt. You didn't have anything to do with selecting 
the German laboratory?
    Mr. Neal. No, sir.
    Mr. Spratt. Do you know why NBC made this decision?
    Mr. Neal. No. That, sir, you will have to ask them. I am 
not privy to that. Again, I was asked to bring the body armor 
to do a side-by-side comparative test, a level IV system, and I 
did.
    Mr. Spratt. You were present for one of the tests comparing 
your body armor with Interceptor Body Armor. Is that correct?
    Mr. Neal. No, I was at a First Article Test with the Army, 
and there was no comparison testing done.
    Mr. Spratt. Did you make or did anyone make any effort to 
find out what the testing protocols were and whether or not 
what was being done in Germany was consistent with what had 
been done by the Army to select between these two systems?
    Mr. Neal. I know that the testing that was done in Germany 
was to the ESAPI specifications, which is a level IV.
    Mr. Spratt. Yes, sir.
    Mr. Neal. That is what was done.
    Mr. Spratt. Mr. Coyle, it appears that both systems were 
reasonably protective for the first several rounds, and they 
began to break down around round five, round six. In particular 
the Interceptor, according to your tests, the German tests, 
seems to have broken down and allowed penetration at round 
number six. Does this assume that there is a certain cluster? 
Are these impacts clustered in the same area such that the 
cumulative impact finally penetrates the armor, or are the 
shots scattered over the whole surface of the armor, body 
armor?
    Mr. Coyle. For the tests in Germany, the shot--the various 
shots were spread out. They didn't shoot twice at the same 
place, for example. If you have an opportunity to see the NBC 
presentation on this, you can actually see a technician at the 
German laboratory holding up a template as to where the shots 
are going to go. It is a fixed template that they always use.
    Mr. Spratt. The CEP so to speak was what, 6 inches in 
diameter?
    Mr. Coyle. I don't know what the CEP was, but what they did 
at the laboratory is they held up the template with holes in 
the template where the bullet shots were going to go and marked 
those on the vest, and then they aimed at each one of those.
    Mr. Spratt. So they preselected where they were going to--
--
    Mr. Coyle. Yes, they picked a template which is used for 
body armor testing, a standard template. It wasn't different 
for the NBC and they would have used for any other body armor 
test. It was just a standard template.
    Mr. Spratt. If the rounds weren't concentrated on one 
particular spot so that the cumulative impact finally defeated 
the system why does the cumulative impact of a wider scattering 
of rounds eventually produce a failure in the Interceptor 
system around round number six.
    Mr. Coyle. I am not sure I can answer that question. It 
probably has to do with how cracks develop in the armor plates 
in those cases where armor plates are used. But it gets to be a 
quite complicated matter as to structurally why does something 
stop one or two or three bullets and then not a fourth or a 
fifth or a sixth.
    Mr. Spratt. Mr. Neal, Mr. Coyle, it has been proposed that 
there be a side by side, a formal test conducted with the 
Army's participation. Would you be satisfied if this test were 
overseen and conducted and established by an independent agency 
like the Government Accountability Office?
    Mr. Neal. Yes, sir.
    Mr. Spratt. That is suitable to you?
    Mr. Coyle. Absolutely.
    Mr. Spratt. And you think this is where the matter should 
be taken next? Is that your testimony?
    Mr. Neal. I would like to see a third-party test, out of 
the hands and control of the Army and done with Office of 
Secretary of Defense.
    Mr. Spratt. What about NIJ? Would NIJ be an acceptable----
    Mr. Neal. I didn't hear that.
    Mr. Spratt. National Institutes of Justice. Would they be 
acceptable?
    Mr. Neal. Provided that it doesn't go to the same lab that 
was utilized last time, I have no problem with that. NIJ is a 
very credible source. NIJ developed a flexible body armor 
system for level III and IV this last year. The level III, 
which is even a more rigorous standard than the typical level 
III test, that not only is required to stop six instead of 
three rounds, as in the Army specification, but as the 
information campaign about Dragon Skin went out and 
misinformation was out that the Dragon Skin couldn't stop 
rounds at obliquities, the NIJ took the wherewithal to go 
forward develop a test protocol and procedure that added 
induced angled penetrations at specific locations that were 
said that it couldn't defeat to make sure of that. So it has 
induced additional angles into it. They have gone over and 
above as far as developing a flexible rifle-defeating body 
armor protocol and procedures, of which the level III one we 
have already passed, and we are getting ready to do the level 
IV. So I feel that they are more than capable of doing that.
    The Chairman. I thank the gentleman very much. Mr. McHugh 
from New York.
    Mr. McHugh. Thank you, Mr. Chairman. Mr. Neal, just seconds 
ago you repeated a rather unveiled accusation against the 
integrity of the H.P. White Laboratories. They are an NIJ-
certified lab. Can you share with this committee any specifics 
as to how you feel they conducted the tests in a way that 
produced a prior conclusion and outcome? Because that would be 
a very serious charge, and I think we would want to follow 
through on that.
    Mr. Neal. Okay. What I mean by going to H.P. White 
Laboratories is the fact that I would like to see total 
autonomy pulled away from the current location where the 
military tests, to go to a complete different facility, to a 
complete different people doing the testing, and that----
    Mr. McHugh. That is fine.
    Mr. Neal. May I finish my thought, please?
    Mr. McHugh. Absolutely.
    Mr. Neal. H.P. White Laboratories, while I was there I did 
not see any wrongdoing. But you have to also realize that they 
are a laboratory, a civilian laboratory, and they will follow 
the discretion of the client or the customer who asks to do the 
test protocol and procedures. There is a lot of latitude given 
to the test director, and there was a lot of deviations taken 
from the protocol and procedures during the First Article Test. 
If you have got a test, as an example, that says you got to go 
from number one to number 10, in this specific order, you go 
from number one to number 10 and you complete the test. You 
don't do research and development, shot placement, specific 
shootings to try to come to an understanding of how you don't 
understand how an armor system works while you are doing the 
test. You do the test. If it passes, it passes. If it doesn't, 
it doesn't. Then you can go ahead and induce your research and 
development. But when you have a First Article Test and you 
start doing research and developmental testing on it during the 
test, that is incorrect. I don't have any----
    Mr. McHugh. Are you accusing them of doing that?
    Mr. Neal. No, sir, I didn't say that.
    Mr. McHugh. Then why would we bring this up? The answer 
then is, no, you don't. If you do--and I am not trying to catch 
you in a prevarication. I am stating, and why don't we leave it 
with this, if you have specifics against this lab that we rely 
upon for accurate results, then I would strongly encourage you 
to bring them forward. I can understand your interests, because 
your article failed the lab test. And you want to have another 
test at a different facility. And I don't question that. That 
is fine. But what I am worried about is the very clear 
suggestion you made that this laboratory that we rely upon may 
conduct itself inappropriately. So I am just going to leave 
that part of the question. And if you can detail that, please 
share it with us, because I think it is something that is 
critical and needs to be pursued.
    Having said that, Mr. Coyle, in your testimony you said 
from the outset it was apparent NBC would not have the capacity 
to conduct full scale body armor tests, etc. Why was that 
obvious? Why were they not able to do that?
    Mr. Coyle. The tests that NBC conducted in Germany were 
done in one day. The setup took longer than that, because that 
is what happens when you do a test.
    Mr. McHugh. Then they were not able to because they chose 
not to?
    Mr. Coyle. Exactly.
    Mr. McHugh. Did they discuss this with you? You are an 
expert in the field. You understand the need to fully test 
under the other circumstances, the temperature, the salt water, 
the diesel fuel. Did you talk to them about that? And if so, 
what kind of explanation did they provide?
    Mr. Coyle. Those kinds of tests are quite difficult and 
expensive to do, high temperature, low temperature, salt water, 
all of those things, and expensive to do. And in fact the Army 
itself, General Brown in his press conference the other day 
pointed out that the Army itself puts off those tests when they 
are testing body armor because if it is going to fail the 
easier tests, so to speak, they don't want to spend the money 
on the more difficult tests. So I think it was really a matter 
of time and resources.
    Mr. McHugh. Do you feel--you stated repeatedly, or at least 
gave the suggestion that Dragon Skin met Army standards. And I 
think what you would mean to say is at ambient temperature 
only; is that correct?
    Mr. Coyle. And that is what I say in my testimony, yes.
    Mr. McHugh. Do you feel the other tests are irrelevant, 
that they shouldn't be conducted? If indeed the slides that 
have been shown to you as to what the Army describes as 
catastrophic failures of Dragon Skin, through a variety of the 
varying testing environments, if that was indeed the case, what 
would your conclusion be as to that being the preferable 
system?
    Mr. Coyle. The other tests are very important, tests at 
high and low temperature, with diesel oil, motor oil, salt 
water, all of those other tests are very important, and I would 
not say that they are irrelevant at all. Quite the contrary, 
they are very important and need to be done. My point was only 
that NBC didn't do them. You can quarrel that maybe they should 
have spent more of their money doing a wider slate of tests, 
but they didn't. But no, those other tests are very important, 
and I think really only the Army can do that. I think the Army 
Test and Evaluation Command can do those tests just fine.
    Mr. McHugh. All right. Well, just if I may, Mr. Chairman, 
to close, I have no interest in seeing one manufacturer over 
another. Like every other member, we need to procure the best. 
And I want to echo the statements of my colleagues, that is the 
critical interest and the only objective of this committee on a 
bipartisan basis. And if it is one system or another we should 
buy the best.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, gentleman. Mr. Taylor, the 
gentleman from Mississippi.
    Mr. Taylor. Thank you, Mr. Chairman, and I want to thank 
the gentlemen for being with us, and I appreciate your interest 
in this. Mr. Coyle, I have got to admit that you have confused 
me. I thought I heard you in the beginning say that the Army 
had performed an unfair test, that the test that NBC had 
performed was more accurate, and just a minute ago I thought I 
understood you to say that the Army had performed a very good 
test, that the conditions that they subjected the body armor to 
were what they should have. And so I am going to give you the 
opportunity to clarify for me which is it? And one other thing. 
I have got to admit that when I first saw that the Army had 
subjected this to diesel and motor oil and very huge 
temperature changes, it was one of those moments where you go, 
gee, that is brilliant. Because they are going to get soaked 
with diesel fuel, they are going to get soaked with motor oil, 
and yes, when you go from the valleys of Afghanistan to the 
mountains of Afghanistan you are going to have huge temperature 
differences. So that makes perfect sense.
    So I want to give you, number one, tell me which of your 
statements did I get wrong? And the second one is what tests 
have we missed that you would include in a fair comparison?
    Mr. Coyle. Mr. Taylor, I did not say that the Army 
conducted an unfair test. There is nothing in my testimony that 
says that the Army conducted an unfair test, and I am sorry if 
you got that impression, because I never intended anything of 
the sort. The tests that were conducted by H.P. White, I wasn't 
there, I can't say what happened. So I am not even in a 
position to say they were unfair. I wasn't there and wouldn't 
say so, not having had that opportunity.
    I did raise some questions in my written testimony, which I 
did not go into in my oral testimony, about the briefings that 
we have been talking about. But I think Mr. Hunter and others 
have already gotten to those questions with Mr. Neal. So my 
point was simply that the tests that I observed in Germany 
showed that Dragon Skin was at least equal to Interceptor, if 
not better.
    Mr. Taylor. Mr. Coyle, again let's--again I think the Army 
did us all a favor by doing what I think is a more accurate 
test. I do think a soldier, sailor, Marine is probably going to 
get diesel splashed on him at some point, probably going to get 
motor oil splashed on him at some point. It is going to stay 
with that vest for the life of that vest. And yes, they are 
going to be exposed to extreme temperatures. And again, that is 
the reality that we have to deal with.
    Did you have a problem with any of those other factors 
being included in the Army tests?
    Mr. Coyle. Not at all. And I don't why you would think that 
I would, because obviously all of those factors are important, 
and the Army standards have to be met by any company that makes 
body armor.
    Mr. Taylor. Do you question the validity then of the Army 
results that reported penetrations in the Dragon Skin?
    Mr. Coyle. I have no basis to question them. I wasn't 
there.
    Mr. Taylor. How about you, Mr. Neal, because I thought I 
heard you say that those weren't penetrations?
    Mr. Neal. Mr. Hunter, Mr. Duncan Hunter brought up--he 
brought me to specific pages, pointed at specific x-rays. And 
as I elaborated in those specific x-rays, if you will look on 
the motor oil exposure, for example, it shows a big red circle, 
and it says right there, it shows where it is supposed to be a 
penetration. It is clearly evident that right there is a 
projectile core. If the projectile core is there, it did not 
exit the armor; it was not a complete penetration. Likewise--
excuse me, sir.
    Mr. Taylor. No, because I am trying to learn something here 
and I need to be asking the questions.
    Mr. Neal. Okay. All right.
    Mr. Taylor. All right. So we have a discrepancy as to 
whether or not it was a penetration. But was the impact in the 
indentation enough to have caused a fatality, even if it wasn't 
a penetration?
    Mr. Neal. No, sir. All of the blunt trauma Back Face 
signatures, Back Face deformations on the Dragon Skin system 
have always been between 50 and 62 percent less than any 
current plated system today manufactured, whether it be 
military or commercial.
    Mr. Taylor. So why would the Army in this official 
publication call that a penetration?
    Mr. Neal. I have absolutely no idea why they would do that. 
It is just like the same thing that I started to go to, which I 
got sidetracked on with Mr. Hunter----
    Mr. Taylor. Mr. Neal, let's bring this back to reality. Are 
you telling me if you were wearing this vest that had been 
subjected to this test and that round hit you in the chest, 
would that have killed you or not?
    Mr. Neal. No.
    Mr. Taylor. And you stand by that absolutely?
    Mr. Neal. Yeah, because the bulletis sitting right there in 
the body armor. Yes, sir. The other thing I was trying to get 
to is if you look, there is actually three briefs provided in 
your package. You will see on the high temperature on one brief 
they show first shot complete penetrations on all of it. On 
another brief they only show it on three of them. There is a 
lot of discrepancies between various briefs that have been 
handed out. And to me, when you start having discrepancies in 
information handed out in briefs, and it doesn't matter whether 
it is to all of you people here or whether it is to a military 
person, to a mother and father in the field or to a law 
enforcement, you can't give different data for different 
audiences. That is providing disinformation to them. A lot of 
this is played upon what people don't know. Nobody caught any 
of this stuff with the bullet still stuck in the x-rays. Why 
would the Army put an x-ray up there that clearly shows a 
projectile defeated on the armor, call it a defeat when--I mean 
a complete penetration when it was not? That is just like the 
information provided on the weight. You got coverages wrong. 
Nothing jives. Nothing makes sense. And if you are going to 
cover something as important as a safety issue to protect 
people's lives, you at least need to get it accurate. That is 
why I am saying and I am asking for an independent test, 
because the information coming out from the Army is fraught 
full of inaccuracies. And that is not how it happened. That is 
all.
    The Chairman. Thank you, Gentleman. Mr. Miller from 
Florida.
    Mr. Miller of Florida. Thank you, Mr. Chairman. Mr. Neal, 
going into the first test with the Army, what were your 
thoughts about the integrity of the test? Did you feel--prior 
to any testing taking place, did you feel that the lab was a 
credible lab, that you were going to be given an opportunity 
for a fair test and fair results?
    Mr. Neal. I have tested before at H.P. White Laboratories. 
We have done some certification testing from them in the past 
and we have had no problems with them. The issue as far as 
whether I thought I was going to get a fair shake, if you will, 
out of that, I had trepidations. And trepidations were because 
of prior testings conducted there. Not so much----
    Mr. Miller of Florida. Testings by who and what?
    Mr. Neal. Right. That is what I am going to get to. 
Testings that were conducted in 2005 which the Army has 
retroactively gone to as saying that was the reason for their 
issuance of the Safety of Use Message, where there was a test 
conducted for the Marine Corps on side panels for at that time 
the Marine Corps, for them to use side plates, or we provided 
panels--where the testing was conducted again at the same 
laboratory, however again it was conducted with Mr. James Zheng 
defining how the armor was going to be shot. Mr. Michael Codega 
for the Marine Corps was the test director for that. In that, 
and the documentation is provided in here as submitted by H.P. 
White Laboratories, it does show that the armor met the 
requirements.
    Mr. Miller of Florida. If I could interrupt, because I only 
have just a few minutes to ask questions, did you raise any of 
these issues prior to the tests taking place?
    Mr. Neal. Yes, I have. And as I was instructed when we got 
there--there were five different rooms where things were. I was 
only allowed to be in one room at any given time during certain 
events and during the testing. And I was invited there and I 
was----
    Mr. Miller of Florida. No, what I am talking about is prior 
to you getting there for the test, you raised those issues 
before you got there?
    Mr. Neal. In the meeting with the Brigadier General Moran, 
I said, you know, we have had some issues in the past. I said I 
just want to make sure that----
    Mr. Miller of Florida. You had some issues or you saw some 
issues?
    Mr. Neal. I saw some issues.
    Mr. Miller of Florida. You hadn't had issues in the past?
    Mr. Neal. No, sir. That there was issues in the past with 
testing----
    Mr. Miller of Florida. You said we. I am sorry, you said we 
have had issues in the past with the lab.
    Mr. Neal. What I meant was our equipment tested at that lab 
for the Army or the Marine Corps, with the Army and the Marine 
Corps directing how the tests are to be conducted, we have had 
issues, and I wanted to make sure that this would be a non-
issue test, fair and unbiased, yes.
    Mr. Miller of Florida. And was it?
    Mr. Neal. I would not say so, because research and 
development went on, and it should have been a First Article 
Test.
    Mr. Miller of Florida. Is it your intent to impugn the 
integrity of the Army?
    Mr. Neal. There were individuals working for Natick----
    Mr. Miller of Florida. Is it, yes or no, your intent to 
impugn the integrity of the Army?
    Mr. Neal. I am not saying that.
    Mr. Miller of Florida. Can I ask you a question on a press 
release that you issued on the 30th of May and ask you why you 
needed to put in the press release that there were concerns 
from military families that the Army has manipulated tests on 
body armor? That was in your press release, correct?
    Mr. Neal. Yes, sir.
    Mr. Miller of Florida. And is involved in a coverup similar 
to recent Walter Reed, Trophy Missile, Pat Tillman and Jessica 
Lynch scandals that have resulted in multiple investigations, 
congressional hearings and proposed punishment, retirement and 
demotion of several top Army officials.
    What was the purpose for putting that in your press 
release?
    Mr. Neal. That was information provided to me by the 
families, and that was their concern, and basically I was 
stating their concerns.
    Mr. Miller of Florida. Not to impugn the integrity of the 
Army?
    Mr. Neal. No, sir. I am just stating their concerns.
    Mr. Miller of Florida. But it is on your letterhead, 
Pinnacle.
    Mr. Neal. Yes, sir. It was a press release. I am trying not 
to hold----
    Mr. Miller of Florida. So you adhere to the accuracy of 
this press release?
    Mr. Neal. Yes, sir. I am representing what they----
    Mr. Miller of Florida. Then on the second page you say that 
Defense Assistant--former Assistant Secretary of Defense Philip 
Coyle participated in the test, rated Dragon Skin far superior. 
Is that correct?
    Mr. Neal. Yeah. I would say it was far superior.
    Mr. Miller of Florida. Why did Mr. Coyle just say it was 
equal, if not better, and did not say far superior?
    Mr. Neal. You will have to ask that to him, sir.
    Mr. Miller of Florida. Mr. Coyle.
    Mr. Coyle. I don't believe I have ever used the phrase 
``far superior.'' It is not in my testimony, written or oral. I 
did say that I thought the tests in Germany that I observed 
showed that Dragon Skin was better, especially against multiple 
shots and against more lethal threats.
    The Chairman. Thank the gentleman. The gentleman from 
Arkansas, Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. Mr. Chairman, if I 
might, I would like to have submitted for the record a 
statement from John D. Grant from Pearcy, Arkansas, in 
Congressman Mike Ross' district, who had a son serve in the 
military, and would like to have his statement submitted for 
the record.
    The Chairman. Without objection, will be submitted for the 
record.
    [The prepared statement of Mr. Grant can be found in the 
Appendix on page 92.]
    Dr. Snyder. Thank you. Mr. Neal, pursuing a little bit 
along Mr. Miller's line from your--I had not seen your written 
statement until this morning. I don't know if it was here or 
not. But on page eight interesting you state the following. 
Quote, ``Some of the dads who have come to see me seeking 
Dragon Skin for their sons and daughters in harm's way believe 
that there is some sort of conspiracy going on to keep better 
body armor off the market. I don't want to believe that, but 
H.P. White Labs in Maryland had an explosion and fire shortly 
after NBC sought to get some Army test data. I do find that 
interesting,'' end of quote.
    That is from your written statement. Are you making an 
allegation that there was some kind of an explosion or fire set 
to somehow kind of cover up evidence or to get rid of test 
results? Do you have any evidence that this committee or our 
government or the FBI ought to have that warrants some kind of 
a criminal investigation of this fire or explosion that you 
refer to?
    Mr. Neal. I am sorry, could you say that one more time, 
please?
    Dr. Snyder. You make an allegation or make a statement here 
that you find it interesting that there was an explosion and 
fire shortly after NBC sought to get some Army test data from 
H.P. White Labs. Do you have any evidence or information that 
this committee--or you should be turning over to the FBI or any 
law enforcement agency with regard to an allegation that there 
was some kind of a fire covering up the destruction of test 
data at H.P. White Labs?
    Mr. Neal. I don't have anywhere written in here that it 
covered up or destroyed any test data, sir.
    Dr. Snyder. I just read to you what you said, Mr. Neal. 
This is an inflammatory statement. ``I don't want to believe 
that, but H.P. White Labs in Maryland had an explosion and fire 
shortly after NBC sought to get some Army test data. I do find 
that interesting.'' Well, I think it is pretty clear what the 
innuendo you are trying to make. But you are saying you don't 
have any evidence that there was any kind of criminal activity 
that went on in regard to that fire. Is that correct?
    Mr. Neal. No, sir.
    Dr. Snyder. Mr. Coyle, it is not clear to me--one of the 
concerns I have is the difference in the Army testing on the 
Interceptor Body Armor, between what the Army does and what you 
all demonstrated in Germany. Is it clear to you that the 
Interceptor Body Armor that was tested in Germany is identical 
to what our troops use?
    Mr. Coyle. No, sir. I did not, you know, go to the factory 
where Interceptor is built. I think in both instances Mr. McGee 
and Mr. Neal each brought the best they had. I think they both 
wanted to do as well as they could.
    Dr. Snyder. Mr. McGee was--I think wanted to be here but 
was unable to be here today, had a conflict----
    Mr. Coyle. Right.
    Dr. Snyder [continuing]. And submitted a statement. He 
states in his written statement with regard to the NBC test, 
the soft body armor Interceptor vest and the ESAPI plates were 
made by Protective Products International, PPI, in Sunrise, 
Florida. Maybe Mr. Chairman and staff can help with this. It is 
my understanding that is not one of the vendors that supplies 
the Interceptor Body Armor. Is that correct?
    The Chairman. I could not answer that. The staff says that 
is correct.
    Dr. Snyder. So were you aware when you did this comparison 
involving this comparison testing that you were comparing the 
Dragon Skin to a Interceptor Body Armor that is not currently 
being supplied--that was not supplied by one of the vendors 
that is currently supplying the military?
    Mr. Coyle. No, I was not, and I still couldn't speak to the 
pedigree of either sets of body armor that were tested.
    Dr. Snyder. And in fairness to Mr. McGee, he should have an 
opportunity to submit any kind of statement for the record in 
response to that since he is not here.
    Mr. Neal, one of the concerns I heard about, one of our 
members that has a military base in their district, is that 
since the NBC report that there is a very active solicitation 
going on to sell Dragon Skin to the families of people in Iraq. 
Is that correct? Since the NBC report? Are you doing a 
solicitation of military families to buy your product?
    Mr. Neal. No, we don't solicit any families to sell our 
product. In fact, we--any of this, you know, all of the stuff 
that has been brought on by the media and all that, that isn't 
us. We haven't paid for anything. All of the TV stations, like 
Modern Marvels, Test Lab, Future Weapons, Mail Call, they have 
all come to Pinnacle. The only thing we have done is supplied 
the armor to be shot. We don't do that, no.
    Dr. Snyder. Let me ask you a question. Mr. Coyle, why do we 
call the Dragon Skin--help me with this technical question 
here--why do we call the Dragon Skin an example of a flexible? 
Do you use that word when you refer to the Dragon Skin?
    Mr. Coyle. Yes.
    Dr. Snyder. I don't understand that. When I picked it the 
up the other day, it didn't seem flexible. If those little 
plates are glued to each other, they are glued to each other. 
Do they have movement in those joints? Why do we call that 
flexible? Aren't they glued into a solid piece?
    Mr. Coyle. Well, Mr. Neal can speak better to the 
construction, but it is flexible in the sense that it can bend 
around you. Whereas the solid plates that the Army uses that 
fit into pockets are solid like a board and don't bend. I agree 
with you that it is not as flexible as a jacket or something 
might be.
    Dr. Snyder. It seems like if it had give, the adhesive 
would be having some----
    The Chairman. Thank you.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman, and thank you, 
gentlemen. You are aware that we have had testimony from the 
Army that is what in contradiction to some of the testimony we 
have heard today. And I don't think any of us here have any 
motivation other than trying to give our soldiers the very best 
that we can give them. And I am sure that, you know, that both 
sides believe that they are correct. But you know, the bottom 
line is that the truth always has the last word. And it is just 
perhaps a little bit unusual, the suggestion, Mr. Chairman, but 
we have got a gun range in the basement of this building. And I 
think we ought to take a couple of sets of both sets of this 
body armor and have both sides have a sworn affidavit that this 
is indeed the exact armor that is going into the field, and 
that we all go down and have some experts there to make sure 
that the tests are fair, and witness this for ourselves. 
Because, you know, I have to say to you that many times expert 
witnesses and expert testimony only confuses those of us who 
are not always experts. But I would like to see this for 
myself. And I would like to suggest to the chairman that the 
ranking member is correct, that Mr. Hunter has got the best 
idea for us, to go down and see this for ourselves. We don't 
even have to let the media in. We can talk to them afterwards. 
But let's test this out and get to the bottom of it and do 
what's right for the soldiers of this country. And I just 
wonder if you would be interested. We will use the same guns, 
same 7.62, same box of cartridges, or several of them, to make 
sure that everythingis as fair as possible, and shoot both sets 
front and back and see whether or not we can get a clear 
picture of this.
    Would the gentleman be amenable to that or does that sound 
entirely too straightforward?
    Mr. Neal. No, sir, I would go for that. I have no problem 
with that.
    Mr. Franks. Sometimes something so common sensical is not 
embraced readily. But Mr. Chairman, I would leave that for your 
consideration, and hope that perhaps we could just simply check 
it out ourselves, if for no other reason--not to solve this 
controversy on a broader picture. That is probably going to 
take a while. But I think it would be good for this committee 
to witness for ourselves the performance of this equipment for 
the sake of our soldiers. And that is pretty much all I have, 
Mr. Chairman.
    The Chairman. Thank you very much. We do know that any test 
would be under the same conditions such as temperatures, what 
it is soaked in and the like.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being before us today. I have a couple 
questions, first of all for Honorable Coyle. Just to reiterate 
what I heard you say from the last couple of my colleagues, you 
are not sure that the Interceptor Body Armor that was tested by 
NBC is actually the same one that we test and we use on our 
Army and other service members?
    Mr. Coyle. That is correct.
    Ms. Sanchez. Okay. And the room temperature conditions that 
NBC tested are not the same as the ones that we use in the 
tests that the Army has been conducting?
    Mr. Coyle. The Army does require ambient room temperature 
tests, but then they do more than that.
    Ms. Sanchez. But with a broader array of different 
conditions?
    Mr. Coyle. Yes, ma'am.
    Ms. Sanchez. Okay. For Mr. Neal.
    Mr. Neal. Yes, ma'am.
    Ms. Sanchez. Have you ever responded to an RFP by our 
military services to put this armor on----
    Mr. Neal. Yes, ma'am, I have. And in the documents package 
I provide at least five examples of responses to requests for 
proposals by the Army, by the Marine Corps, by----
    Ms. Sanchez. But you have responded?
    Mr. Neal. Yes, ma'am.
    Ms. Sanchez. To the Army?
    Mr. Neal. Yes. In the pack----
    Ms. Sanchez. You put forward to an RFP by the Army?
    Mr. Neal. Yes. I have the RFPs that we responded to, as 
well as the submissions that we put in there. Every time that 
we submitted we have been declined because we fail to submit to 
the spec, and the specs calls for rigid plate systems. We have 
said that we don't have a rigid plate system, we have a 
flexible system. But they don't allow for alternates. They are 
not looking for anything other than a rigid plated system, and 
so we fail to get anywhere every time.
    Ms. Sanchez. Are you aware of anybody else in the services 
who uses something other than rigid plate?
    Mr. Neal. No, ma'am.
    Ms. Sanchez. Mr. Coyle, do you know of any other service 
that uses, any other service members, any special teams that 
uses anything other than?
    Mr. Coyle. Well, I think Mr. Neal could tell you who has 
bought his armor. That is not an area where I am an expert. But 
I believe he has sold his armor to, you know, to officials in a 
number of agencies, including armed services, that are 
mentioned in my testimony.
    Ms. Sanchez. And Mr. Neal----
    The Chairman. I thank the gentlelady. Go ahead and finish 
your question, please. Finish your question, please.
    Ms. Sanchez. I just had one last question for Mr. Neal. If 
you are not actively soliciting our military families for them 
to buy this armor, then what great means of communication are 
you using to get this armor into their hands?
    Mr. Neal. They e-mail us. They call us. They want to know 
information about the armor, how they can get it. We tell 
everybody that there is a Safety of Use Message out there. And 
now that the Marines have put out their directive, we let 
everyone know about that. We don't hide behind anything. People 
call us. They just aren't feeling comfortable, or their sons 
that are over there are asking that they look into procuring 
the Dragon Skin because what they are seeing in the theater 
from guys that have been shot, they are overly impressed with 
it.
    The Chairman. I thank the gentlelady.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, I will be short, because I had to 
be out for about 45 minutes, and I am sure that I can't add 
much more to whathas been said. But I would say to Mr. Neal, I 
read your comments about you said--and I hope you feel 
differently when you finished today--you said I would be remiss 
if I didn't tell you my deep disappointment and concern in 
coming here. Let me say as a Congressman that has been here for 
14 years, and I represent Camp Lejeune Marine Base, and God 
bless our Marines and our men and women in uniform, it is very 
difficult for us who go home every weekend, and most Members do 
in Congress, you might be in the grocery store, you know, for 
some reason, or a drug store, and someone will come up, and 
they have seen the NBC show about the body armor and what works 
and what does not work, and this hearing is critical. And I 
want to thank you for your participation, as well as Mr. Coyle, 
for this reason. And the next panel I look forward to hearing 
from as well.
    You know, it is hard. I actually I don't tell you this for 
any other reason except I want you to understand my passion for 
giving the best to our men and women in uniform. I took it upon 
myself three years ago, because of my regret for voting to give 
the President the authority to go into Iraq, I write every 
family in America that has lost a loved one. When you fight to 
end extensions of families, we have sent over 6,400 letters 
that I have personally signed. So my being here, Mr. Chairman, 
is I want to make sure that, as every member of this committee 
does, that our men and women will never have to call their moms 
and dads or their friends or their wives or their husbands and 
say help me purchase this type of armor because this is the 
best. This government owes our military men and women the very 
best. And it should not be any second-guessing of what is the 
best for our men and women in uniform.
    And with that, Mr. Chairman, I will yield back my time.
    The Chairman. Thank you very much. The gentlelady from 
California, Ms. Davis.
    Ms. Davis of California. Thank you, Mr. Chairman, thank you 
all for being here. I wanted to just go to the issue of testing 
to a standard and trying to understand that a little bit more. 
And Mr. Coyle, in your opinion--you have obviously been 
involved in this on many occasions. Is that always the case? 
Have you participated in tests where there is a side by side 
test, where it is actually something that is going out in the 
field or going to be used in some fashion? How unusual is it to 
have that kind of side by side test? And do you think that is a 
better way of taking a look at this issue?
    Mr. Coyle. Yes, Ms. Davis, I have observed, participated in 
side by side tests. The Army does do them. Of course both 
sides, so to speak, have to meet the standard. But side by side 
means more than just testing to a standard. It means under the 
same conditions at about the same time. For example, the tests 
a year ago conducted for the Army, a year ago last May, were 
not side by side tests. They were tests of the Dragon Skin. And 
I don't know what would have happened if the Interceptor had 
been in those same tests, tested exactly the same way. So it is 
what makes it so difficult to compare all of this.
    Ms. Davis of California. Mr. Neal, have you been involved 
in tests in the past where you would say it is an accurate and 
appropriate side by side test, or have you generally seen more 
of the testing to the standard?
    Mr. Neal. We do both. Where we get called to do side by 
side tests is because an agency or an entity feels that they 
really want to make a decision, and they want to just test it 
for themselves right there, aside from any protocol and 
procedures, the way that they feel it would be shot on the 
street or, you know, in a battle zone or whatever. And they 
just want to grab a rifle, whatever, shoot it, detonate 
something against it, do these types of tests. So it is not 
conducted in any specific way. It is just wild and random like 
it would be on the street. That type of thing. And that is why 
they kind of do those.
    Ms. Davis of California. You mentioned one of the real 
discrepancies here is the weight, and whether or not the tests 
in Germany were identical to the tests here in the States, 
especially concerning the weight issue. And is that something 
that you can actually get to and determine that yes, in fact, 
you know, any one individual carrying this vest is going to be 
the same as another individual? I mean obviously weights are--
individual personal weights are different as well in terms of 
the way people carry themselves. I am just wondering is there a 
problem here in terms of really determining that? And the other 
question would be whether you can test with a moving individual 
essentially, and does that make a difference? Because clearly 
if something is so heavy that someone can't move quickly enough 
they could be caught in the crossfire and otherwise would not 
have to be if they had that mobility. So how do you see us 
being able to accurately diagnose that situation?
    Mr. Coyle. And I think that is a place where the side by 
side tests could help. You would think a simple matter like 
comparing weights shouldn't be that difficult. But the vests 
that we used in Germany, that were used in the tests in 
Germany, there wasn't the kind of weight difference that the 
Army reports. Now maybe something has changed in the past year 
that I don't know about. I can't explain it. But a fair 
comparison just of weights, forget about other measures, would 
be same level of threat, you know, same size person wearing it, 
all of that.
    Ms. Davis of California. Were you aware that the weight 
differences were quite different? Did you have any knowledge of 
that going in, that perhaps they had said this was 47 pounds 
versus 27 or whatever? Were you aware of that and did you ask 
any questions about that?
    Mr. Coyle. I had seen that on the Internet and news 
reports. I didn't have any firsthand knowledge, but I had seen 
it in the news and all. And for exactly that reason, the 
ballistics lab in Germany weighed them, which they would have 
done anyway, because that is their normal protocol. So whether 
we suggested they would have been weighed or not, the lab would 
have done it anyway and did.
    Ms. Davis of California. But in weighing them, were they 
weighing them as if they were being used in the field under 
those same circumstances? Was there any way of getting a handle 
on that particular specificity?
    Mr. Coyle. As I said, they did weigh them, and there was a 
difference. Dragon Skin was a pound or so heavier. But not the 
19 pounds the Army reports, which may have been correct a year 
ago because of what they compared then. But again it may have 
been an apples and oranges comparison. I just don't know.
    Ms. Davis of California. Any particular insights as to why 
this was done at the German lab?
    Mr. Coyle. You would have to ask NBC that. But I think one 
of the reasons they chose that lab is because it has a very 
good reputation, you know. They did it to typical German 
detailed standards.
    Ms. Davis of California. Thank you.
    The Chairman. Thank the gentlelady. The gentleman from 
Texas, Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. Back to a question 
that Ms. Sanchez asked. Has Pinnacle participated in all the 
full and open competitions since 1999 for body armor?
    Mr. Neal. We haven't been able--well, we didn't compete to 
all them because when I guess Commerce Business Daily changed, 
and then now it is FedBizOpps, we missed a transition there.
    Mr. Conaway. Okay.
    Mr. Neal. I can't tell you if we have participated in 
everything that has gone out, but we have participated in a 
substantial amount of them.
    Mr. Conaway. All right. Apparently we are artfully choosing 
our words. Is there an open competition going on right now? And 
if so, are you participating in that?
    Mr. Neal. I can't think of the entity, we put that pack in 
here as well.
    Mr. Conaway. Is the answer yes or no?
    Mr. Neal. Yes, we have responded to it, yes.
    Mr. Conaway. So you are participating in that?
    Mr. Neal. We are still waiting on a response, whether there 
will be an accepted allowance for a flexible system instead of 
a rigid system.
    Mr. Conaway. I am a CPA, so I don't know a lot about 
ballistics, but I can weigh things. And I am still trying to 
understand how we can get a 19-pound differential. Let me ask a 
question. You have referred to level III protection. And I am 
assuming that we are really wanting level IV protection. So the 
page seven shows a large for Interceptor Body Armor, with an 
asterisk saying that the extra large on the Pinnacle is the 
equivalent, because some clothes are measured differently. Can 
you see the body armor for your Dragon Skin? Does that not 
weigh 47 pounds in that configuration?
    Mr. Neal. No, sir. As weighed it was 46.1 pounds. And that 
was an extra large with more disks in it than our full torso 
wrap, which is our maximum coverage.
    Mr. Conaway. Okay. You mentioned a while ago the coverage 
on the IBA was 2.8 square feet?
    Mr. Neal. Approximately 2.88 square feet, yes.
    Mr. Conaway. Seven hundred and twenty square inches is five 
square feet. So that is----
    Mr. Neal. What the inches are in coverage here is the OTV 
component measurement, not rifle-defeating component.
    Mr. Conaway. And your rifle-defeating component is 743 
square inches?
    Mr. Neal. No, in this one here it is 5.4. That is what I am 
saying is----
    Mr. Conaway. Five point four square feet is marginally more 
than 743 square inches.
    Mr. Neal. Yes, sir, it is.
    Mr. Conaway. I mean, well, 743 square inches is a 5.15 
square feet. So you are saying it really should be 5.4 square 
feet?
    Mr. Neal. Yes.
    Mr. Conaway. Okay. Several times during your----
    Mr. Neal. But there is no way 2.88 square feet is in here. 
That is why I said it is kind of----
    Mr. Conaway. Okay. We will get the Army up.
    Mr. Neal [continuing]. Misleading.
    Mr. Conaway. Okay. You mentioned several times that the lab 
at H.P. White did some R&D testing in the midst of the regular 
scheme of the tests, and that bothers you. Did it distort the 
results in your mind? I mean what bothers you about that?
    Mr. Neal. The research and development testing that went on 
was under the discretion of either Mr. Zheng or Mr. Masters. 
They just were following out orders as given to them. And yes, 
it does bother me, because when you do a First Article Test you 
are there to test the product, not do research and development 
during the test.
    Mr. Conaway. How did it distort the test?
    Mr. Neal. Well----
    Mr. Conaway. Okay. There are First Article Tests, X steps. 
How were those test steps distorted by at the same time doing 
these other R&D tests?
    Mr. Neal. Well, take eight of the penetrations that the 
Army claims where Mr. Zheng shot it through the textile 
component and didn't even impact the Dragon Skin disks. So it 
wouldn't have stopped it anyway.
    Mr. Conaway. So you are saying the lab took R&D tests and 
folded those over into the First Article Tests as if were part 
of that test?
    Mr. Neal. I am not saying the lab, I am saying Mr. Zheng 
did.
    Mr. Conaway. Who is Mr. Zheng?
    Mr. Neal. He is a gentleman that was there with Mr. 
Masters, running the shots and where the shots would go.
    Mr. Conaway. Who does he work for?
    Mr. Neal. Natick.
    Mr. Conaway. Who?
    Mr. Neal. Natick.
    Mr. Conaway. Who is that?
    Mr. Neal. That is a research and development body in 
Natick, Massachusetts.
    Mr. Conaway. Who are they affiliated with?
    Mr. Neal. The Army.
    Mr. Conaway. So the Army owns them?
    Mr. Neal. As far as I know, they do.
    Mr. Conaway. Okay. With respect to the makeup of your 
market, how much of your body armor levels II and III--help me 
understand. You sell to law enforcement agencies and CIA and 
other kinds of folks who don't need a combat field version of 
your body armor. What is the breakup in your market between--if 
you know off the top of your head?
    Mr. Neal. Well, we sell--if I could do a clump, if you 
will, if I can go----
    Mr. Conaway. What is a clump?
    Mr. Neal. Clump them together. It is probably easier for me 
that way to do, like military, Federal entities and law 
enforcement, and then like State and local, that kind of a 
deal.
    Mr. Conaway. Okay.
    Mr. Neal. Right now I would say we probably have about a 45 
percent share would be DOD, probably 30, 35 percent of it, 
roughly, would be Federal, and then the balance would be State, 
local law enforcement, SWAT entities, that type of thing.
    Mr. Conaway. You are selling 45 percent of your gear to 
DOD?
    Mr. Neal. To people who order it for use over in Iraq or 
Afghanistan, yes.
    Mr. Conaway. So the DOD is ordering it for use in Iraq 
right now?
    Mr. Neal. Individuals are.
    Mr. Conaway. Individuals?
    Mr. Neal. Individual soldiers.
    Mr. Conaway. The Department of Defense is not doing that?
    Mr. Neal. No, I said clump it together. What I am saying 
is, all right, military related, that sort of thing.
    Mr. Conaway. You said Department of Defense is buying 45 
percent of your stuff. And that is not----
    Mr. Neal. I didn't mean department, I clumped it.
    Mr. Conaway. I understand.
    The Chairman. I am not quite clear. Forty-five percent of 
your market is sold to whom?
    Mr. Neal. To people in the military.
    The Chairman. Who writes the paychecks to you? The 
Department of Defense? Army? Navy? Air Force? Marines?
    Mr. Neal. We have had them from various branches of the 
military as well as DynCorps, Department of State.
    The Chairman. You said DOD.
    Mr. Neal. As I said, I clumped them in.
    The Chairman. Unclump them for me. You are within the 
Department of Defense. If you can say, who in the Department of 
Defense buys your system.
    Mr. Neal. The Army buys from me. I have had the REF buy 
from me. Rapid Equipping Information. REF. I have had the Navy 
buy from me. And I have had the Air Force buy from me. Those 
are the----
    The Chairman. In great quantities?
    Mr. Neal. We have had quantities of about 680, 700 units at 
a time, yes, sir.
    The Chairman. Thank you.
    The gentleman from Georgia, Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Neal, I would suppose that all of the free publicity 
that has been generated about the Dragon Skin----
    The Chairman. Would the gentleman get a little closer to 
the microphone?
    Mr. Johnson. I would imagine that all of the free publicity 
that has been generated about the Dragon Skin armor system has 
been good for the company; isn't that true?
    Mr. Neal. It is a double-edged sword.
    Mr. Johnson. Sales have increased as a result of this; is 
that correct?
    Mr. Neal. Yes, sir.
    Mr. Johnson. Let me ask you this question: Prior to the 
Dateline NBC reports in May, did you or someone known to you or 
someone aided--whom you aided and encouraged provided the tip 
to NBC to investigate this matter?
    Mr. Neal. No, sir. NBC came to me about 6 months into an 
investigation I was doing and asked me if I would be interested 
in doing a side-by-side shoot.
    Mr. Johnson. Do you know how their side-by-side shoot got 
started?
    Mr. Neal. No, sir.
    Mr. Johnson. And you cooperated fully with them?
    Mr. Neal. Yes, sir.
    Mr. Johnson. Let me ask you a question, Mr. Coyle. Have you 
ever worked as a paid consultant to NBC?
    Mr. Coyle. No, sir. You asked me that question in January, 
and the answer was no then and it still is no.
    Mr. Johnson. How about your firm? I asked you that also.
    Mr. Coyle. I don't work for a firm. I work for a think 
tank, and no, they don't either.
    Mr. Johnson. Let me ask you a question, Mr. Coyle.
    In your opinion, were the tests that were conducted by NBC 
news in Germany a fair, objective, and comparable test with 
respect to evaluating the ballistic capability of body armor?
    Mr. Coyle. Yes, sir. I believe that they were. They were 
limited, as has been explained during the day today. They 
didn't include high temperature, low temperature, but as far as 
that went, yes, I thought they were very fair.
    Mr. Johnson. You reports say that you have got 30 years of 
test and test-related experiences related to test and test-
related equipment; is that correct?
    Mr. Coyle. Yes, sir.
    Mr. Johnson. How much experience have you had in terms of 
observing body armor tests and evaluation of protocols and 
procedures on those tests?
    Mr. Coyle. Not very much. When I was in the Pentagon from 
1994 to 2001, body armor was not the issue that it is today.
    Mr. Johnson. So you have answered my question.
    So tell me on what basis can you determine that the tests 
conducted in Germany by NBC were fair and objective?
    Mr. Coyle. The basis for saying that is that both sides, so 
to speak, the Interceptor and Dragon Skin were treated the 
same. The tests were done under the same conditions, the same 
ammunition for both, the same shot patent for both. Everything 
was done identically.
    Mr. Johnson. Do you know if the vendor who provided the IBA 
system was a qualified source of a military body armor for both 
the outer technical vests and ESAPI plates?
    Mr. Coyle. No, sir. I don't.
    Mr. Johnson. Mr. Neal, did you personally observe the NBC 
news ballistic tests conducted in Germany?
    Mr. Neal. Yes, sir.
    Mr. Johnson. How did the test conducted in Germany compare 
to the tests that you observed at the H.P. white test facility?
    Mr. Neal. As far as the ambient shoot that we did, it was 
primarily the same but the main difference is the NBC shoot 
they were aiming to put six rounds on target because they 
wanted to show the multiple repeat hit capability requirement 
that is brought up by NIJ. So that was one of the main things.
    The first three shots that were fired were to the shop 
placement protocols as far as spacing and it was all shot to 
the ESABI specification issue that you asked.
    Mr. Johnson. Did you have any input into the selection of 
that particular location or that particular entity to conduct 
the NBC tests?
    Mr. Neal. No, sir.
    Mr. Johnson. Were you paid for any consultancy by NBC 
regarding the Dateline NBC expose?
    Mr. Neal. The only thing I was to do was to supply my Level 
IV Dragon Skin to have it shot against an ESAPI system.
    Mr. Johnson. Has the Dragon Skin SOV-3000 vest been tested 
at NIJ Level IV threat level?
    Mr. Neal. No, sir. We are due to get tested. We are just 
waiting for the range to give us the appropriate time. There is 
a lot of other armor systems in front of us right now.
    Mr. Johnson. Does that SOV-3000 vest size extra-large 
weigh, I think you said, 46.1 pounds you said?
    Mr. Neal. In the configuration that is shown here and as 
weighed it was 46.1 pounds. Again, that is more than we put in 
our full torso wrap. Our full torso wrap will end up weighing 
in an extra-large about 43.4 pounds, roughly.
    Mr. Johnson. Is that pretty heavy for a serviceman or woman 
walking around or running around on patrol on duty in Iraq?
    Mr. Neal. Yeah, it would be, and again, that is one of the 
reasons why the Dragon Skin offers the capability being mission 
specific tailored as far as the amount of coverage. If you were 
to take same Interceptor Body Armor, the weights of all of the 
added plates come up with a square inch, if you will, aerial 
density and if you were to add that same amount of coverage in 
aerial density weights with the amounts of coverage that are in 
there, so too will the weights go up substantially.
    But the way I look at it from designing and working the 
Dragon Skin body armor, is if an individual needs to add added 
protection to protect themselves from IEDs or projectiles, it 
is better to add flexible uninterrupted, no gap coverage than 
coverage which starts to further restrict your movement as with 
rigid plates and has gaps between all four plates.
    The Chairman. I thank the gentleman from Georgia.
    Dr. Gingrey from Georgia, please.
    Dr. Gingrey. Mr. Chairman, thank you, and to the witnesses, 
I want to apologize that I have not been here for the entire 
hearing. I have missed a lot of the clumping, lumping, dumping 
and slumping that has gone on over the last hour and a half. I 
had to go to a very important press conference on medical 
liability tort reform.
    But I do have a question, and I am glad I didn't miss my 
colleague from Georgia, Representative Johnson, who just asked 
you a question in regard to the company, Pinnacle Armor, in 
regard to all of the publicity, did it actually increase your 
sales, Mr. Neal, and I think you very emphatically said yes. It 
sounds like maybe this is the Stuart Downey Hilton as in 
Martha, Robert and Paris model of success. So it is kind of 
interesting.
    I think the question that all of us probably are thinking, 
and I am going to ask you, what motive do you think the Army 
would have in not doing a good test when lives are at stake? 
And I have had a young first lieutenant, president of the 
student body at my alma matter, Georgia Tech, 26 years old, and 
was transferred from the Demilitarized Zone (DMZ) in Korea to 
Iraq a couple of years ago, and leading his platoon the first 
week on the ground, he was shot and killed below his body armor 
below the level of protection. And, of course, we are 
constantly improving so that the femoral artery area, the groin 
area, as we refer to it medically, is protected.
    So it just astounds me to hear you suggest, now you may say 
well, we didn't say that, but at least the suggestion that for 
some ulterior motive, God knows what, maybe you can explain, 
that our military would rig the system in favor of some favored 
vendor contractor when lives are at stake like First Lieutenant 
Tyler Brown, president of the student body at Georgia Tech 
several years ago who is buried at Arlington.
    So just answer that question for me. Maybe you have already 
answered it. I don't know. I associate myself very much with 
the comments of my chairman, Mr. Skelton, and our ranking 
member, Mr. Hunter, and probably a lot of the others on both 
sides of the aisle.
    But go ahead and explain that to us if you can. Why would 
they do that?
    Mr. Neal. You will have to ask the Army that. We have 
brought a system to them that provides several substantial 
advantages over the current system. You were just talking about 
the femoral artery area in the lower platform in the hip 
section.
    We have been providing, since we started with the body 
armor program in tactical armor, a groin protector that not 
only does it not just hang below like the current system, it 
tucks up underneath so there is no gaps. It is actually wider, 
not as long, so it does actually cover the hip joint areas 
which are the direct paths for the femoral artery rather than 
something narrow.
    So we provided--we provide something that is actually wider 
and takes into consideration the platform as it is called much 
more readily.
    We provided higher up into the armor--up under the arm 
coverage. We have done that since the beginning. Instead of a 
front opening vest, once you load a bunch of gear down on it, 
now the vest has a hard time staying closed, we have always 
done side opening vests with overlapping coverage so when you 
make an adjustment, you still have----
    Dr. Gingrey. Let me interrupt you, because I have limited 
time, and you are taking an opportunity to say how much better 
the body armor that you provided in regard to the femoral 
artery or the axillary area, but that wasn't my question. 
Please answer my question.
    Why do you think that our Army would rig the system in 
regard to this when lives are at stake? What motive would they 
have?
    Mr. Neal. As I said earlier, sir, I don't know what motive 
they would have. You would have to ask them.
    Dr. Gingrey. Go ahead.
    Mr. Coyle. I have not said that the Army rigged the tests. 
I wasn't at the test they did a year ago. Haven't impugned the 
Army in any way. And I wouldn't. The U.S. Army is a noble 
institution, and I defend them regularly.
    Dr. Gingrey. Thank you, Mr. Chairman. I see my time has 
expired.
    The Chairman. Mr. Ross has a unanimous consent request at 
this moment.
    Mr. Ross. Thank you, Mr. Chairman, for recognizing me and 
for allowing me to participate in today's hearing on this 
important topic.
    Let me say quickly this issue was brought to my attention 
by one of my constituents, Mr. John Grant, whose son serves in 
the Arkansas National Guard and has already been to Iraq once 
and is getting ready to go back again.
    And the father's concern and my concern is simply making 
sure that the U.S. Army is providing these young men and women 
with the most technologically advanced body armor available. I 
don't care who makes it. I just want to make sure whatever is 
most advanced on the marketplace is being provided to our men 
and women in uniform as the Arkansas 39 prepares to go back to 
Iraq.
    At this time, Mr. Chairman, I would ask that while Mr. 
Grant wasn't allowed to be on one of the panels today, I would 
ask that we make part of the permanent record of this hearing a 
copy of his written testimony that I can present to you, sir.
    [The prepared statement of Mr. Grant can be found in the 
Appendix on page 92.]
    The Chairman. Thank you. So ordered.
    Mr. Turner, the gentleman from Ohio.
    Mr. Turner. I have a series of questions for Mr. Neal, but 
I have a question also of you, Mr. Chairman, if you would with 
the staff subsequent to this hearing, follow up with Mr. Neal 
on his issue of the actual numbers of the sales of this 
equipment. You began a series of questions that I think this 
committee could benefit from the information because just as we 
want to make certain that we have the best equipment, and 
everyone on this committee is absolutely committed to it.
    We also want to make certain that our men and women and 
their families are not being taken advantage of, and I think 
there are a series of further questions that our staff would be 
best able to ask Mr. Neal that he could answer about the actual 
number of sales, who they are being sold to, how are they being 
marketed to our families.
    If you would please ask the staff to do that, I would 
appreciate that.
    Mr. Neal, I have got to tell you, I have been on this 
committee five years. Your presentation has to be one of the 
least professional I have ever seen in front of this committee. 
I came to the hearing expecting to hear detailed information on 
the success of your product. I think this is one of the 
greatest countries in the world for innovation, and I wanted to 
hear about innovation. I wanted to hear about a commitment to 
our men and women in uniform.
    I am going to read to you and for the people who are 
listening, excerpts of your great testimony on your product.
    ``Some diehard military traditionalists, as one of your 
staff members has put out disinformation, it would seem that 
there is a specific convenience for convenience. Obviously 
being singly sighted. But to selectively choose, body armor 
system was ridiculed. The Army disgustingly took great 
liberties in deliberately stating innuendo:
    ``The Army is going to slander me and derive our product.''
    And I want everybody to know this is your written 
testimony:
    ``it is a sad commentary that the Army's version of the 
truth doesn't always jive with the facts. General Brown 
conveniently failed to tell you. General Brown said he is 
always looking for better body armor, but I question if that is 
true. I am sure some of you are scratching your heads and 
asking yourself, why would the Army lie. General Brown's 
egregious assertions,``--I am going to take a pause at this 
point. Quite a Thesaurus that you had to turn to for negative 
comments to make about individuals that you are giving us 
information about.
    ``I am sorry they just don't understand it. They still have 
a ceramic plate mentality.
    ``So in addition to not giving you all of the data, he then 
tries to confuse you. We did not ask for this war. Did not seek 
it out and did nothing to trigger such an overreaction by the 
Army.''
    And then your press release today:
    ``During the hearing, Pinnacle Armor CEO Murray Neal will 
also respond to what he calls scurrilous lies made by top Army 
officials.''
    And then it includes the other information about what you 
say about other Army scandals.
    Could you please tell me, Mr. Neal, who is Frank--I am 
going to mispronounce this, I am sure--who is Frank Jiminez?
    Mr. Neal. He is an individual that works with us on--
because of this whole issue, works with us to filter the media 
information that comes in to us.
    Mr. Turner. He works for you?
    Mr. Neal. Yes, sir.
    Mr. Turner. This you provided to us for your testimony. In 
the back of it there is a piece of information that has been 
prepared by Frank for us. And it has--it has your logo, and it 
has Pat Tillman's photo. It has Jessica Lynch's photo, and it 
says this: ``Today, sadly these words ring with the hollowness 
that should make the military hang its head in shame. From the 
same people who gave us the Pat Tillman debacle, the Jessica 
Lynch fabrication, the Trovi missile controversy, secret 
Pentagon death study and the Walter Reed scandal, we now 
present Dragon Skin, the latest victim of an Army campaign of 
misinformation and obfuscation.''
    This is prepared by your staff member on behalf of your 
company with your company's logo. And it is outrageous. And I 
am pretty certain, and please tell me if I am wrong, do you 
have the permission of the Tillman family or Jessica Lynch to 
place this in your corporate materials?
    Mr. Neal. You would have to ask----
    Mr. Turner. I would like you to find out for us because my 
guess is going to be no.
    Now let us go to the next thing you say in here.
    You say, ``I am a straight shooter, and I am as forthright 
about that as I will be about every single thing I will tell 
you today.''
    Great. You have got--Mr. Chairman, I have got one quick 
item.
    You say in here that there was a fire at the--your line--
you say I don't want to believe that but H.P. white labs in 
Maryland had an explosion and fire shortly after NBC sought to 
get some Army test data. I do find that interesting.''
    In your straight shooting way, what does that mean?
    Mr. Neal. I was told about the fire and the information 
that was given to me, and like I said, I don't want to believe 
that. It just seems somewhat coincidental. That is exactly what 
I meant by that.
    Mr. Turner. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Courtney. Mr. Klein. Mr. Radanovich, in that order, 
five minutes each. We will not take a recess. We will go 
immediately to the next panel.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    In the NBC story, there was a definite point made that 
other government agencies besides the Army and the Marines have 
U.S. employees that are using Dragon Skin. Congressman Wilson 
and I were over in Afghanistan last week, had escorts of State 
Department personnel as well as some of the civilian security 
guards that were with us, and it was pointed out to me that a 
number of them were actually wearing Dragon Skin,
    And again, you have started a few times during today's 
testimony to talk about your sales to government agencies of 
Level IV Dragon Skin. I guess--I think it would be very helpful 
because having seen it in Afghanistan, I mean, obviously there 
are people out there that are in this theater who are voting 
with their feet. They are buying your product and they work for 
the U.S. Government, and that certainly, at best, or at worst, 
sends a mixed message to our troops who may be wondering about 
whether or not they are, in fact, getting the best body armor.
    So, again, the NBC story indicated that the Central 
Intelligence Agency uses Dragon Skin; is that true?
    Mr. Neal. Yes, sir.
    Mr. Courtney. And again, having seen the State Department 
employee in Afghanistan wearing Dragon Skin, is that another 
agency where employees buy Dragon Skin?
    Mr. Neal. Yes, sir, or the State Department has purchased 
them themselves as well.
    Mr. Courtney. So the State itself, in some instances, has 
purchased your products?
    Mr. Neal. Yes, sir.
    Mr. Courtney. And the Department of Defense clump that you 
referred to earlier, again, those are individual purchases by 
soldiers or their families; is that happening?
    Mr. Neal. Individual soldiers, and we have sold to various 
branches earlier on. The clump was like for use in the military 
operations overseas.
    Mr. Courtney. It sounded like there were high ranking 
officers whose own bodyguards were also using Dragon Skin in 
the story that NBC presented.
    Mr. Neal. Yes, sir. And, in fact, in the packet, there is 
the data that show--it has got the contract for both of those 
times where the commanding general, his personal security 
detail, had procured the Dragon Skin in a concealed variant. 
The Dragon Skin is the only body armor that you can get rifle 
coverage in a concealed vest.
    Mr. Courtney. Are there any other branches, Navy or Air 
Force, that use Dragon Skin?
    Mr. Neal. They have bought and so have individual airmen 
and sailors from the various branches.
    Mr. Courtney. Mr. Chairman, obviously emotions are running 
pretty high in this hearing today and there are certainly 
issues about the testimony, which I agree with the prior member 
could have been presented better, frankly. But to me, again, 
the bottom line, it is not about you or us or the services. It 
is about what the confidence level is of our troops. And the 
fact that, again, the American government is, on the one hand, 
setting up a ban and yet other agencies are purchasing it and 
other individuals are feeling the need to purchase it suggests 
to me that at best or at the minimum, we ought to be getting to 
the bottom of this with a totally purely independent test so 
that people will have their questions answered.
    Like Congressman Ross, I have a constituent in my district, 
ex-Marine, whose son is about to go off on his second 
deployment, a Marine who has been in constant contact with my 
office since the day I got elected last November, demanding 
help so that his son can get Dragon Skin protection. And again, 
it is hard, I believe, for us as Members of Congress or 
government officials, to say that he can't have what other 
people who work for our government feel they need and are able 
to have.
    And that is--to me it is an untenable situation that we 
have got to resolve in a fair and open and transparent process 
and hopefully without some of the over the top finger pointing, 
which, again, I think legitimately has been criticized today. 
So with that, I yield back the balance of my time, Mr. 
Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Minnesota, Mr. Kline.
    Mr. Kline. Thank you. I am anxious to get to the second 
panel and hear from the Army and Marines. I don't have any 
questions for these witnesses. I yield back.
    The Chairman. Let me ask this before I go to Mr. 
Radanovich.
    Are there any present contracts for Dragon Skin ongoing 
between your company and the Department of Defense?
    Mr. Neal. No, sir.
    The Chairman. When was the last time that there was any 
such contract with the Department of Defense or a subsidiary 
thereof?
    Mr. Neal. The last time--I don't have that data here to 
tell you when the last contract----
    The Chairman. Your best recollection.
    Mr. Neal. It would have been last year.
    The Chairman. With whom was that?
    Mr. Neal. We had one--just bear with me one second.
    The Chairman. Can you find the answer, Mr. Neal?
    Mr. Neal. I believe it was with the Army, but I have to 
find it to give you exactly which one it was.
    The Chairman. All right.
    Did you certify as to the level of protection that your 
vest gives to the National Institute of Justice at any time? 
Any member of the Armed Forces or subsidiary thereof?
    Mr. Neal. I am sorry. I don't understand the question.
    The Chairman. Isn't there a Level III protection?
    Mr. Neal. Yes, sir. There is.
    The Chairman. Did you ever state that your vest rises to 
the level of Level III based upon the National Institution of 
Justice test?
    Mr. Neal. Once we received the certification yes, we have. 
Prior to that we tested--we test to the same threat level and 
have it tested at an independent laboratory, but we weren't 
seeking the certification because NIJ had to adopt a new 
protocol and procedure for flexible armor.
    The Chairman. Thank you.
    Mr. Radanovich, please.
    Mr. Radanovich. Thank you for inviting me to the committee. 
It is an honor to be part of this hearing today.
    I want to say, Pinnacle Armor is manufactured in my 
district in California. Back in 2005, myself and some of my 
colleagues had requested that the Army do tests on the vests, 
and I am pleased to know that the Army has.
    I think the idea of the test was to make real clear which 
was the better test, and unfortunately I think that still to me 
remains uncertain.
    But I did, Mr. Coyle, have a couple of questions for you.
    And one is, as I understand these testing standards by the 
FBI, the CIA, the U.S. Marshall and other agencies are 
mentioned in your testimony, that they currently use or 
purchased Dragon Skin, are they more strenuous than the Army 
standards and if so, why, in your opinion, has Dragon Skin 
passed the test of the test of the FBI, CIA and U.S. Marshall 
but not the Army's test?
    Mr. Coyle. Well, in some cases, the National Institute of 
Justice does have higher standards, more difficult standards 
than the Army does. For example, requiring six shots instead of 
three in one case, or just one shot in another case.
    So there are differences. But I wasn't trying to make a 
special point about that.
    Mr. Radanovich. If the U.S. Army test evaluation and 
command conducted a comparable side-by-side test of both the 
Interceptor and the Dragon Skin body armor, which, in your 
expert opinion, do you believe would prove to be the superior 
piece of equipment?
    Mr. Coyle. It would be hard to say because I haven't seen 
the high temperature tests yet, I haven't seen the low 
temperature tests, haven't seen the motor oil and all of those. 
So until you have seen a full suite of tests, which NBC did not 
do, and I dare say you would have a hard time doing in the 
basement of this building, it would be hard to say.
    Mr. Radanovich. While I feel that Pinnacle Armor, and Mr. 
Neal might be advised to get a public relations expert on the 
material that they do pass out, that might be advice well 
taken, I still think the bottom line of the test is to, and 
ought to be of everybody here today, which piece of armor is 
the best to protect the lives of men and women who are on the 
ground in the battlefield. And I don't think that the tests 
that have been conducted has really proven that, and that is 
why I support an independent study going out so we can answer 
that question.
    I don't fault the military, and I don't think this ought to 
be any insult toward the military. I think what is lacking is 
an apples-to-apples comparison which may be difficult to do by 
the nature of the vests and the plates versus the scales and 
getting something that is an equal comparison. I don't think I 
have seen, by what has been presented today, that there is that 
comparison made.
    And I really think that we owe it to our troops and the men 
and women on the ground to go back and make sure that we know 
that these are--that there is an apples-to-apples comparison 
test here that does prove which is the better vest, because our 
troops on the ground ought to be wearing that better vest.
    Again, I make no slight toward the military. I think some 
of the material that Pinnacle has submitted is inappropriate. 
But you know, this isn't a debate about whether, you know, they 
are insulting the military. This is a debate on which is the 
best vest to protect the troops on the ground. And I think we 
need to make the extra effort to guarantee that.
    And with that, again, I thank the chairman for allowing me 
to be a part of this committee and yield back the balance of my 
time.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman, and pardon me for 
stepping out for a minute and we are all Jacks of many trades; 
we have got other stuff we have got to do, and I think this has 
been a very good hearing.
    Let me follow on with my friend with this statement.
    Mr. Neal, when we walked through this thing, you did say 
that the first penetration that was made you didn't--you didn't 
see--you were standing there, you don't think that was done 
unfairly or at a bad angle or was somehow a trick, but that 
that appeared, in fact, to be a penetration, and you sometimes 
have those, and you have to keep testing, and that may be just 
a defective one-in-a-million piece of equipment you have.
    Is that fairly accurate?
    Mr. Neal. Yes, sir.
    Mr. Hunter. Okay. Having said that, Mr. Coyle, you have a 
long reputation of very fastidious testing where you would come 
to this committee after something had been shot 15, 20, 30, 40, 
50 times and you would say no, it is not ready for prime time. 
We had a failure.
    Now here is what we had. Mr. Neal had a test with the U.S. 
Army for practical purposes in a lab with integrity, a 
recognized certified, et cetera, laboratory. They had a test 
with him standing there and did a penetration. They then went 
to you and NBC and you guys did a separate test.
    Did he tell you about the first test where they had the 
penetration?
    Mr. Coyle. I saw from, as I say, materials that I saw in 
the press and other places, I saw that that had happened. So I 
knew that the history from the tests a year ago was different. 
I didn't know what to expect----
    The Chairman. Let me interrupt. Answer the question. Did he 
tell you?
    Mr. Coyle. He didn't, but he didn't need to because I 
already knew it.
    Mr. Hunter. You knew there had been a total frontal 
penetration in this.
    Mr. Coyle. I knew that before the tests in Germany began.
    Mr. Hunter. I thought you told me earlier on in this 
testimony, I asked you after you had done the 12 shots or the 
18 shots that were done in Germany, if you knew about the shot 
that went all the way through that was done in the Army lab, 
would you have then said that this was superior to the Army 
product and you said no. At least, that is what I got back 
about half an hour ago.
    Mr. Coyle. If the results in Germany had been like the 
results that are----
    Mr. Hunter. That wasn't my question. My question was if you 
had known about those results at a government lab like the ones 
you relied on for years when you take data from one of those 
government labs and say, Armed Services Committee, this is what 
we just got. The missile failed. I would not recommend going 
ahead. You did not say I think that this is duplicitous or we 
should do another test with a non-governmental lab. You said 
they failed. Don't go ahead.
    Now you had a shoot there that would have been fatal to a 
soldier wearing that vest, right?
    Mr. Coyle. Yes, sir.
    Mr. Hunter. Okay. Now if you had known that and you 
presumed that it was done under good conditions, and in this 
case they are unique conditions because your client or clients 
or the gentleman who owns the company was allowed by the Army 
was allowed to stand there and watch the shot and boom, the 
shot went through, would you have then said without further 
testing that this appeared to be a superior product to the Army 
product?
    Mr. Neal. If I hadn't seen the results from the tests in 
Germany, no, sir. The Army has, I think, a very important 
position here. The Army says that one penetration is too many. 
And I agree with that. I think they are just right when they 
emphasize that point of view.
    Mr. Hunter. So here is my question. You took how many shots 
in Germany?
    Mr. Coyle. All in all, of all of the different types, 31.
    Mr. Hunter. But the ones that you had, your primary ones 
you talked to us about, that was 18: Three sets of 6; is that 
right?
    Mr. Coyle. Yes.
    Mr. Hunter. So you took three sets of six and you had no 
penetrations, right?
    Mr. Coyle. Yes, sir.
    Mr. Hunter. Mr. Neal, before that, had his product which he 
selected, took down to the Army lab and they shot it and no 
complaints from Mr. Neal and boom, it went through with a 
killing shot, right?
    Mr. Coyle. Yes, sir.
    Mr. Hunter. So for practical purposes there you have at 
least one killing shot, and then you did 18 that were defeated.
    Now I have known you for a long time testifying before this 
committee. Would you think that you could make that conclusive 
statement that it was superior to the Army product without 
shooting it a lot more times? This is the operational and test 
guy who tells us that thoroughness is so important?
    Mr. Coyle. All I said was based on the test that I saw in 
Germany, Pinnacle performed better.
    Mr. Hunter. We are getting to my point, and Mr. Chairman, I 
hope you would suffer me here because this is an important 
point.
    Based on your statement, because you have a--you have an 
outstanding reputation. You are charged not only with the tests 
that you stood and watched, you are also charged with the 
information that comes from an officially certified military 
lab, like the ones you relied on for 20 years in your 
profession.
    Now having known that fact, and Mr. Neal does not dispute 
it, that was a killing shot through that vest, would you then 
say that this lab--that this vest was ready for prime time?
    Mr. Coyle. No, sir, and I do not say that today. What I say 
is the tests in Germany, which were limited, and which I say in 
my testimony were limited, based on those, as far as they went, 
which wasn't far enough, the Dragon Skin did better.
    Mr. Hunter. So you are saying today, and I hope somebody 
from NBC is in the audience, you are saying today that based on 
those 18 shots and the shot that you now know about that was a 
killing shot, you can't say it is ready for prime time; is that 
your testimony?
    Mr. Coyle. Yes, sir.
    Mr. Hunter. Okay. Now having said that, Mr. Neal, you have 
thousands of parents reading articles who are going to go out 
now and pay five grand a piece for this thing, don't you think 
it is important for them to know not only about the successful 
test that NBC did, but the killing shot that was made, the 
unsuccessful defending of that vest which you would call a 
defeat of the vest rather than a defeat of the bullet, that 
that killing shot was made in a test that you personally 
watched.
    I mean, if you are going to look a parent in the eye, you 
talk about looking parents in the eye, I have got a kid in 
theater who has done three tours. He reads the same newspaper 
articles that say this appears to be better than anything else. 
Don't you think you have an obligation to tell those parents, 
you know, I have watched one shot that went right through the 
heart, and I have got to tell you that to be honest.
    Don't you think you have that obligation?
    Mr. Neal. Yes, sir. I do. But----
    Mr. Hunter. Have you ever made it available in any of your 
literature?
    Mr. Neal. May I finish the rest of my thought here, please?
    Having said that, the test protocol and procedures has 
requirements in it and a lot of people know, as well as I do, 
that there have been a lot of people killed from one shots 
through the SAPI plates. The Dragon Skin Interceptor--sorry 
about that--the Dragon Skin body armor system does far superior 
in performance on a regular basis. It is far more superior 
against fragmentation than anything out there. But this is a 
science that is not 100 percent. And nobody, I don't know the 
Army or anyone else, that will state that body armor can 100 
percent of the time defeat a round.
    Mr. Hunter. Okay. Mr. Neal, having said that then, don't 
you think it is your obligation to tell the mothers and dads of 
this country when they read these articles that imply that 
Dragon Skin is a supreme type of a protection system, that you, 
in fact, did the test, the test that you did, that you don't 
disagree with, when you were standing there you were personally 
there, a killing shot went through that. Don't you think they 
need to know that as a caveat before they go down and spend 
their $5,000? And Mr. Coyle, your tester, now says it is not 
ready for prime time.
    Now don't you think that you at least owe that--if you are 
going to have these statements circulating in the press that 
are going to upset parents and make them think that there is a 
super system out there, and it may overall, in fact, I think 
some of the aspects of this system, the flexibility of the 
system, the possibility being able to use this where you can 
put more weight on it where you are using armored vehicles, et 
cetera, where you are not having to carry stuff in a squad 
formation, I think there is a lot of possibilities here.
    But I think the idea that you circulate this implication 
without telling them that you stood there and watched a killing 
shot go through this, I think that is not full disclosure. I 
think you owed full disclosure to Mr. Coyle, and I hope Mr. 
Coyle says it is not ready for prime time. That is not the 
headline that goes out over Dragon Skin. The headline that goes 
out over Dragon Skin is that it is fantastic.
    One last point here that I think needs to be made is this:
    I saw this thing, and I told my guys to have you come in, 
or whoever your team is and show us because I wanted to get 
good stuff out to the field. About a year before NBC showed it.
    Your guys came in, they briefed up our team. We called the 
Army, told them to test it. They said we are testing it, and 
they subsequently tested it, and those are the results that we 
have been discussing in that handout. That they did test it. 
And it may be better than they have advertised. It may be worse 
than they have advertised, and I want to see a test. In fact, I 
am ready to go down with an M-14 and some 7.62 stuff to the 
Marine Corps lab and try to get some shots off in the next week 
or so.
    But everywhere you go, you leave the implication that 
everybody is a devil. I have got great professional staff 
members who called your guys in at my request, not NBC's, long 
before they discovered this because we heard about it. A few 
days later, their names pop up on Web sites saying that staff 
members of the Armed Services Committee are the devil, that 
somehow they are in a conspiracy to thwart you from trying to 
get good stuff to the troops.
    Every place you go you get these apocalyptic letters 
describing anybody who has questions about this as a devil and 
when you are asked about this about these letters in the 
hearing, you say you know, I was just passing along the 
concerns of the families.
    I think it might be interesting for the families to know, 
in fact I would like to hear from them, how many got the 
information from you when you stood there and had your test, 
your vest shot, and the bullet went all the way through it, and 
you didn't report that to anybody. You didn't think those 
families needed to be burdened with that knowledge, did you?
    Mr. Neal. I didn't say that, sir. And as far as the comment 
to what goes on on the Web sites, I don't have any control----
    Mr. Hunter. Wait one second. Your team came in and--the 
Armed Services guys said hey, we want to see this and test it. 
Within days, comments about them that weren't very laudatory 
appeared on Web sites. Now the only people in here talking with 
them were your representatives.
    And so I think--I think you need to acknowledge to this 
committee do you think any of the Armed Services staff members 
have tried to thwart you or have a conspiracy against you any 
way? I think you need to acknowledge that for the cameras so if 
there is a problem, we know about that.
    Mr. Neal. I didn't say that, and I am not here to insinuate 
that.
    What I want to tell you is a, whatever goes out over the 
Web site and the blogs, I have no control over. I will 
respectively make a statement to the chairman and the honorable 
members here that this is my first time here, and I might not 
be one that articulates very well some of the information that 
goes out. And for that, you know, I will apologize to you, and 
I will apologize to the American public. I am not a great 
writer. But when I am quoting and providing information that 
has been given to me, I have no control over that.
    Mr. Hunter. Let me ask you to do one thing.
    You have got these Web sites out there that obviously 
follow every statement that you make. And in some cases, you 
are saying they expand them or they turn them in some way that 
is far beyond what you have said.
    I think you have an obligation to go to them after this 
hearing and tell them if there hasn't been a conspiracy on the 
part of the members of our staff to somehow thwart you or have 
some kind of a campaign to keep your product from being seen or 
tested or heard, I think you need to make that statement to 
them so that that--so that that matter is cleared up because 
obviously an impression has been given by these things that go 
out on the Internet. And if you are saying you have nothing to 
do with that and you have no information that would back that 
up, I think it is important to clear that up.
    Do you think that is a fair thing?
    Mr. Neal. I can do that if I knew which Web sites.
    Mr. Hunter. I think one that immediately reported after 
your trip down here that said that you had been conspired 
against was, I think the Web site called Soldiers For the 
Truth. Now somebody from your team obviously talked to them and 
even while they were criticizing the staff members, the staff 
members were calling the Army saying let us do this test.
    Mr. Neal. I don't know, sir. I don't write for Soldiers For 
the Truth.
    Mr. Hunter. Your people obviously talked to them because 
your folks were the only guys here in the meeting.
    Mr. Neal. We get called by a lot of people all the time 
about stuff and asking questions.
    Mr. Hunter. In that case, why don't you make it clear that 
the staff members treated you in a professional way and that 
you did get a test from the Army following or subsequent to the 
meeting that your folks had here even if you don't agree with 
the tests.
    Mr. Neal. And I never said that we didn't. No, sir. I 
didn't.
    Mr. Hunter. If you would make that affirmatively clear, I 
think that is important to us.
    Having said that, I think we need a test. So I think we 
have got all of the information that we need to put this stuff 
side by side, get those M-14s ready to go and if we can get 
better equipment to the troops, let us do it.
    The Chairman. I thank the gentleman from California.
    I am troubled, Mr. Neal. In front of me is a photograph of 
an apparent attachment to the body armor itself. At the top it 
says Pinnacle Armor and your address, the Web site number, 
personal body armor. It has the size and the model and the 
serial number. Then it says this: The manufacturer certifies 
that this model of armor has been tested through NLECTC and has 
been found to comply with Type 3, performance in accordance 
with NIJ standard 0101.04.
    Warning: This garment is rated only for the ballistic 
threat level stated above where the plates or composite disks 
are in place. Areas outside the zone are designed for Level 
IIIA ballistic protection only.
    This is dated April 14, 2006.
    I have in front of me a letter from the Department of 
Justice dated December 20, 2006, a letter to you. Dear, Mr. 
Neal, it is notice of compliance with NIJ 2005 interim 
requirements body armor model Level III.
    And what I found to be interesting is that this attachment 
to the body armor is dated April 14th, 2006 and the actual 
certification is December 20, 2006.
    I will not ask you to explain that. But I merely point this 
out that this is a serious discrepancy of making an ascertain 
months before it actually came to pass.
    We will now go to our second panel.
    [Recess.]
    Dr. Snyder [presiding]. I am going to go ahead and 
introduce you here.
    We will now move to the second panel. With us today are 
representatives of each of the military services, the 
Government Accountability Office, the National Institute of 
Justice, H.P. White Laboratory. We really appreciate you being 
here and we appreciate the fact that you have stuck with us 
this long, and he heading into this afternoon.
    Representing the Army is Lieutenant General Ross Thompson, 
III, Military Deputy/Director of the Army Acquisition Corps, 
Office of the Assistant Secretary of the Army.
    Representing the Department of the Navy Mr. Roger Smith, 
the Deputy Assistant, Secretary of the Navy, Littoral and Mine 
Warfare.
    Representing the Marine Corps, Colonel Ed Smith, Product 
Group Director, Combat Equipment and Support Systems.
    Representing the Air Force, Mr. Douglas Thomas, Executive 
Director for the Air Force Office of Special Investigations.
    Representing the Special Operation Forces Command Colonel 
Kevin Noonan, Program of Executive Office, Special Operations 
Forces.
    Representing the Government Accountability Office is Mr. 
Bill Solis, Director of Defense Capabilities and Management 
Team.
    Representing the National Institute of Justice is Dr. John 
Morgan, assistant director.
    The Chairman. General Thompson, it is my understanding that 
you will be the lead witness and the other services may join in 
as you all deem fit, and if you want us to wait, you begin 
wherever you want to wait. You may know that the noise level is 
going to continue here so you fire away whenever you are ready.

STATEMENT OF LT. GEN. N. ROSS THOMPSON, III, MILITARY DEPUTY TO 
THE ASSISTANT SECRETARY OF THE ARMY FOR ACQUISITION, LOGISTICS 
                         AND TECHNOLOGY

    General Thompson. Thank you. I think I will go ahead and 
start. I am prone to be heard----
    Good afternoon. Chairman Skelton, Congressman Hunter and 
distinguished committee members, we thank you for this 
opportunity to discuss the Interceptor Body Armor system.
    With me today is Brigadier General Mark Brown, who is our 
program executive officer soldier and members of his 
organization, and you have already introduced the other panel 
members.
    We have a joint written statement that I respectfully 
request be made part of the record for today's hearing, but let 
me say at the outset that it is a distinct honor to appear 
before you and to have this opportunity on behalf the Army's 
senior leadership to assure you and your fellow Members of 
Congress, the American people, our service members, and the 
loved ones of our brave men and women in uniform, that we in 
the Department of Defense have no higher priority than force 
protection.
    Cost and affordability are not the deciding issues. The 
pertinent issues for us are whether lives will be saved, the 
lives of our service members and those who lead them.
    Interceptor Body Armor saves lives. It is the most 
effective body armor available anywhere on earth. And that is 
why our men and women in uniform wear it and have confidence in 
it. It is passed rigorous live fire and environmental testing, 
and most importantly, has been proven in combat time and again.
    Although no body armor will be fielded to our troops until 
it has passed rigorous testing, there is another key factor 
when determining a system's operational suitability and that is 
the weight of the system.
    The Army continues to look at ways to reduce the weight of 
body armor and all other soldier equipment and to better 
distribute that weight. In this case, there have been eight 
improvements to the Interceptor Body Armor system, including 
four vest weight reductions, enhancements to the ballistic 
plates, the introduction of supplemental protection for the 
sides, arms, neck, and groin areas, and improvements to the 
overall design of the outer vest.
    Our men and women in uniform wear body armor that offers 
the best protection available.
    To demonstrate its life saving capabilities, we have today 
Specialist Gregory Miller. He is originally from Peoria, 
Illinois. On December 18, 2006, he and his fellow soldiers in C 
Company, Second Battalion 327th Infantry 101st Airborne 
Division were in Kirkut, Iraq. Specialist Miller was dismounted 
pulling security at a busy intersection while his unit 
conducted weapons inventories at a political party 
headquarters. Suddenly and without warning, he was hit by a 
sniper with a 7.62 mm round. Fortunately he was wearing 
Interceptor Body Armor, and he sustained the hit in the back 
plate top right corner. Specialist Miller was able to continue 
his mission because of the protection he received, and I will 
note, and he can discuss this later, that he put this body 
armor on one hour before he was hit with the 7.62 mm round.
    He will stay after the hearing to demonstrate and discuss 
the Interceptor Body Armor he is wearing.
    He is one of America's finest, and I would like him to 
stand up and, and I would like to thank him publicly for his 
outstanding service to our nation.
    [Applause.]
    Every soldier has at least one set of body armor, and when 
improvements are made, we quickly field the new equipment with 
priority to those in combat or those deploying to combat. We 
continually seek improvements to our body armor, and when we 
are presented with the potential improvement, we test it to the 
highest standards, and when and only when those standards are 
met, production in fielding begin.
    The safety of our soldiers is paramount. In March of 2006, 
the Army issued a Safety of Use Message prohibiting the use of 
any commercially available body armor products to include 
Dragon Skin that are not Army approved and issued.
    This Safety of Use Message was issued as a result of 
several previous tests that took place from May 2004 to 
February of 2006 on Dragon Skin. These tests indicated that 
Dragon Skin did not meet the Army requirements. So we are 
talking about five previous tests, not just the test in May of 
2006 that was referred to in the panel one testimony today.
    As a result of the Safety of Use Message Pinnacle Dragon 
Skin 2000 Body Armor purchased by an Army unit was turned into 
the PEO and as indicated during the previous panel's testimony, 
it contained a fraudulent National Institute of Justice 
certification statement that was fully 8 months before the 
National Institute of Justice certified that version of the 
body armor.
    Each vest contained the Pinnacle Armor's manufacture label 
with the compliance statement that was read by Chairman 
Skelton.
    Army coordination with the National Institute of Justice 
revealed that this statement was not true. As of April 2006, 
the 2000 Dragon Skin armor had not been tested by NIJ and was 
not certified to defeat the Level III threat.
    In my opinion, this is a serious fraudulent claim, and it 
is my hope that the investigative process results in the 
appropriate consequences.
    In the interest of fairness and because of intense media 
interest in Dragon Skin, the Army chose to run a full test of 
Dragon Skin last spring. In May 2006, H.P. White Laboratory, an 
independent test facility, certified by the National Institute 
of Justice for ballistic testing, tested Pinnacle's 3000 Level 
IV Dragon Skin vest using the same test protocols that we use 
with the Interceptor Body Armor. Before the testing was halted, 
the Dragon Skin vest suffered 13 of 48 first- or second-round 
shot complete penetrations failing four of eight initial 
subtests.
    The bottom line is that the Dragon Skin vest did not stop 
the bullets.
    And we can get into this in the questions and answers 
later, but Congressman Snyder and others asked a key question 
on who provided that body armor for the test that was conducted 
by NBC in Germany, and we have indicated from talking to NBC 
that PPI provided that body armor but that body armor that was 
provided for the NBC test was not from one of the six certified 
and tested producers of the body armor that is used by the 
military.
    Before I conclude my remarks, I would like to highlight an 
issue of grave concern to me and that is the role of a 
responsible press, and in that term, I include the print media 
and the broadcasting industry. The press is an important 
guarantor of our freedom, and with that right, comes the 
responsibility to get the facts right and the stories straight.
    The Army did not go public with our test results from last 
year because we are dealing with the very media-savvy enemy. 
The airing of the NBC news story prompted the Army to release 
information to assure service members and their families that 
the Army is providing the best body armor available. In this 
case, credible and factual evidence provided by the Army was 
cast aside for a sensational story that just was not true. It 
created needless worry among our men and women in uniform and 
their families and provided an adaptable enemy with additional 
information about how we equip our solders for the important 
missions they perform. It is a most unfortunate situation, and 
in my view, brings NBC's credibility into serious question.
    This concludes my opening marks. I want to thank you, the 
members of the committee, for this opportunity to assure the 
families of our courageous men and women in uniform that they 
receive the best equipment including the finest body armor in 
the world so they can accomplish their mission successfully and 
return home safely, and we look forward to your questions.
    [The joint prepared statement of General Thompson and 
General Brown can be found in the Appendix on page 134.]
    Dr. Snyder [presiding]. Who else has an oral statement they 
want to make.
    Mr. Smith.

STATEMENT OF ROGER M. SMITH, DEPUTY ASSISTANT SECRETARY OF THE 
                 NAVY, (EXPEDITIONARY WARFARE)

    Mr. Roger Smith. Yes, sir. Mr. Snyder, other distinguished 
members of the committee. Thank you for the opportunity to be 
back here today and appear to discuss the Navy's body armor 
programs. I would like to ask that my statement be submitted 
for the record.
    The Navy procures and fields various body armor 
configurations based upon our ashore and maritime mission 
requirements as defined by the combat commanders. These systems 
all provide a minimum of defense level IIIa ballistic 
protection, while enhanced systems that are scalable provide 
level IV protection to meet the most stressing mission 
requirements.
    Today, we have 13,000 Navy personnel deployed on the ground 
in the Central Command (CENTCOM) area of responsibility. About 
90 percent of those personnel are deployed in support of ground 
forces in their traditional military roles or core competencies 
ashore, such as base and port operations, medical services, 
explosive ordnance disposal, construction and engineer 
battalions, or the Seabees, detainee operations, and 
traditional joint intelligence and staff support roles. Navy 
personnel are equipped with the appropriate body armor required 
for the mission that the individual or the unit they are 
assigned to will perform.
    We acquire body armor for three main mission requirements: 
Navy Expeditionary Forces, like I had mentioned earlier, 
explosive ordnance disposal teams, Seabees, mobile security 
forces; individual augmentees assigned to joint forces; and 
shipboard antiterrorism roles.
    We leverage the Army and Marine Corps research and 
development of individual ballistic protection material and 
equipment programs, both of which are extensive efforts to 
maintain a high level of ballistic protection. We capitalize on 
these investments by using the most recent approved 
specifications and test procedures from the Army's Natick 
Soldier RDT&E Center and procure body armor that meets these 
requirements, while incorporating features dictated by our 
operating requirements.
    The Navy also adopts Marine Corps body armor solutions when 
they support the mission needs and the fielding goals. In the 
interest of time, and I will conclude my remarks by saying the 
Navy procures and equips its forces with the best available 
body armor tailored to our maritime and joint mission 
requirements, and continues to seek improvements in equipment, 
while leveraging Army and Marine Corps research and development 
initiatives.
    Thank you, and I look forward to any questions you may 
have.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 129.]
    Dr. Snyder. Colonel Smith.

  STATEMENT OF COL. EDWARD J. SMITH, PRODUCT GROUP DIRECTOR, 
    COMBAT EQUIPMENT AND SUPPORT SYSTEMS, U.S. MARINE CORPS

    Colonel Smith. Dr. Snyder, Congressman Hunter, and 
distinguished members of the committee, I am honored to appear 
before you today and this opportunity to discuss Marine Corps 
body armor. But first, on behalf of all marines and their 
families, I want to thank you for your continued support to 
meet the needs of our marines as they continue to fight the war 
on terror.
    Force protection is a top priority for the Marine Corps. We 
are committed to providing body armor and other personal 
protection equipment to save marines' lives, reduce casualties, 
and limit the severity of those casualties. Our warfighters 
have the best body armor available. According to the Armed 
Forces Institute of Pathology, there have been no deaths 
attributed to the penetration of an Enhanced Small Arms 
Protective Insert, or ESAPI, by a threat round that it is 
designed to defeat. Our body armor works.
    All of our protection equipment is certified through 
rigorous ballistic testing that must withstand fluctuating 
temperatures and extreme environmental conditions. The Army and 
the Marine Corps use the same test protocols. In addition to 
testing by the government, testing is also conducted at an 
independent ballistic laboratory. I am confident in the 
unbiased results.
    In addition, after a system is fielded, we continue to look 
for ways to further improve those systems. We collaborate with 
industry, our sister services, Office of Naval Research, and 
the joint science and technology community on future 
technologies. We also turn to our medical community for their 
expertise to evaluate and make our systems the safest they can 
be for our warfighters. The wartime environment constantly 
changes, and no one is better suited to determine what would be 
most effective in any given situation than the warfighter.
    With our modular ballistic body armoring system, we provide 
body armor solutions that can be configured to meet varying 
threat levels and mission requirements. Working with the Army, 
the technology base and industry, we are doing everything we 
can to ensure the safety of our marines by providing them with 
the best and most effective force protection equipment at the 
lowest possible weight. The lives of our marines and sailors 
are precious.
    In conclusion, on behalf of your marines, I extend great 
appreciation for your support today, and thank you in advance 
for your ongoing efforts to support our brave servicemen and 
women in harm's way. I would be happy to answer any questions 
you may have. Thank you.
    Mr. Snyder. Thank you, Colonel.
    [The prepared statement of Colonel Smith can be found in 
the Appendix on page 122.]
    Dr. Snyder. Mr. Thomas.

STATEMENT OF DOUGLAS D. THOMAS, EXECUTIVE DIRECTOR FOR THE AIR 
     FORCE OFFICE OF SPECIAL INVESTIGATIONS, U.S. AIR FORCE

    Mr. Thomas. Good afternoon, Dr. Snyder, Ranking Member 
Hunter, distinguished members of this committee. On behalf of 
General Simmons, who is the commander of Air Force Office of 
Special Investigations, and the men and women of OSI, and the 
entire Air Force, I want to thank you for your support in war 
against terrorism.
    Briefly, I would like to talk about our timeline with our 
association--short association with Pinnacle Armor. On 31 
August 2005, based on Pinnacle literature and Pinnacle claims, 
OSI contracted to purchase 590 vests from Pinnacle Armor. 
Between October 2005 and 1 January 2006, Dragon Skin vests were 
delivered to OSI and fielded for our deployed agents and our 
deploying agents. On 26 January 2006, the United States Air 
Force Battle Lab notified us that the vests failed.
    On 16 February 2006, OSI, working with Aberdeen Test 
Center, tested vests, and they failed. On 11 May 2006, we 
received verification from the National Law Enforcement and 
Corrections Technology Center that the SOV 2000 Dragon Skin, 
which is what we purchased, had not been tested or certified to 
NIJ standards. That is what Chairman Skelton read earlier. That 
was a big surprise to us, because that is one of the reasons we 
purchased the vests.
    In May, 2006, OSI opened a joint criminal investigation 
with DCIS against Pinnacle Armor for false NIJ certification on 
the vests and false representation of its capabilities. In 
June, 2006, we tested the vests again with H.P. White, and 
failed.
    In closing, sirs, ma'am, I can assure this distinguished 
committee we are committed to providing our men and women the 
best protective gear and equipment. Safety is our number one 
concern for our deploying agents. Yesterday morning we lost two 
more OSI agents. We do not take safety and security and force 
protection lightly.
    Again, please accept my sincerest gratitude for your 
continued support and efforts. Thank you.
    [The prepared statement of Mr. Thomas can be found in the 
Appendix on page 116.]
    The Chairman. Colonel Noonan.

 STATEMENT OF COL. KEVIN S. NOONAN, PROGRAM EXECUTIVE OFFICER, 
   SPECIAL OPERATIONS FORCES WARRIOR PROGRAMS, UNITED STATES 
             SPECIAL OPERATIONS COMMAND, U.S. ARMY

    Colonel Noonan. Mr. Chairman, Mr. Hunter, and distinguished 
members of the committee, it is an honor to appear here before 
this committee today to report on the United States Special 
Operations Command body armor requirement and material 
solution.
    I am Colonel Kevin Noonan, the USSOCOM Program Executive 
Officer for Special Operations Forces Warrior Programs within 
the Command's Acquisitions and Logistics Center. I am in charge 
of acquiring SOF-peculiar solutions for a variety of items, 
including weapons, ammunition, ground mobility, visual 
augmentation systems, and personal survivability equipment that 
are not provided by service-common solutions.
    To achieve this, we use utilize a process that directly 
teams with our component users from the Army, Navy, Air Force, 
and Marine Corps Special Operations Commands. Our goal is to 
maximize the use of service-common solutions, and we are 
actively engaged with service program offices to test the 
equipment that can meet SOF requirements.
    The USSOCOM ballistic protection solution is known as the 
SOF Personnel Equipment Advance Requirement, or SPEAR, body 
armor system. The USSOCOM requirement is one to provide a level 
of protection to defeat two-strike armor-piercing munitions. We 
do this by rapidly fielding successive lightweight and advanced 
SOF-unique components of clothing and individual equipment 
while integrating them into a tailorable system.
    This tailorable system is called the SPEAR Body Armor Load 
Carriage System, or BALCS. It is a family of integrated armor 
and load carriage systems which provides SOF operators with the 
modularity required to meet the various mission profiles and 
environment extremes. Specifically, USSOCOM requires the 
ability for individual operators to tailor his protection and 
load to meet various mission profiles while maintaining the 
necessary agility, mobility, and range of motion required to 
meet SOF mission standards.
    In accordance with USSOCOM requirement for modularity and 
tailorability, the SPEAR body armor system employs a variety of 
pockets, pouches, harnesses, and an additional plate carrier to 
meet various SOF mission scenarios.
    USSOCOM uses the SPEAR body armor system because it has 
been successfully tested and has been proven in combat to meet 
the two-strike armor-piercing munitions. The SPEAR body armor 
system has proven an effective ballistic system in SOF combat 
operations throughout the world since 2002. There are many 
documented cases in which the SPEAR body armor system has saved 
the lives of SOF operators in combat. These results have 
produced an enormous confidence in SOF operators with regard to 
their ballistic protection.
    USSOCOM continually researches--correction, searches--for 
new technology and support for its SOF missions. We test our 
SPEAR armor system against current, emerging, and future 
battlefield threats.
    We recognize that in order to meet the need of our SOF 
Warrior, we must constantly strive to reduce the weight of our 
body armor, while increasing the ballistic protection. We have 
challenged industry to meet this requirement in our current 
solicitation for the SPEAR family of ballistic plates, which 
was released this month. Responses to this solicitation are due 
August 7th, and we expect to award a contract no later than the 
second quarter of fiscal year 2008 for this improvement.
    Mr. Chairman, I want to thank you and the members of the 
House Armed Services Committee for your continued support of 
the SOF soldiers, sailors, airmen, and marines, and our 
dedicated USSOCOM families. In particular, I would like to 
thank you for your support of SPEAR, the SPEAR program, and 
request your continued support in the future for all SOF 
operators.
    Sir, I am available to take of any of your questions.
    [The prepared statement of Colonel Noonan can be found in 
the Appendix on page 111.]
    Dr. Snyder. Mr. Solis, welcome back.

   STATEMENT OF WILLIAM ``BILL'' M. SOLIS, DIRECTOR, DEFENSE 
               CAPABILITIES AND MANAGEMENT ISSUES

    Mr. Solis. Thank you, sir. Chairman Skelton, Ranking Member 
Hunter, and members of the subcommittee, thank you for the 
opportunity to appear before the committee to discuss our 
recently issued report on Interceptor Body Armor, which is 
currently used by our military. I will briefly summarize two 
key aspects of that report as relate to today's hearing.
    Since 2003, U.S. Central Command has required service 
members and DOD civilians in its area of operations to be 
issued Interceptor Body Armor. Because of the broad 
congressional interest in the adequacy of body armor for U.S. 
ground forces, we reviewed the extent to which Army and Marine 
Corps are, one, meeting ballistic and inventory requirements 
for body armor; and two, have controls in place to assure that 
manufacturing and fielding of body armor meet requirements.
    With regard to the adequacy of ballistic protection and 
inventory requirements, the Army and Marine Corps Interceptor 
Body Armor is currently meeting theater ballistic requirements 
and the required amount needed for personnel in theater, 
including the amounts needed for the surge of troops into Iraq. 
The outer tactical vest currently provides protection from 9mm 
rounds, while the plate inserts provide an additional 
protection against 7.62 armor-piercing rounds. Additional 
protection can be provided for the shoulder, throat, and groin 
areas. In December, 2006, and January, 2007, Army and Marine 
Corps classified readiness reports for deployed and nondeployed 
units did not identify body armor as a critical equipment item 
affecting unit readiness.
    With regards to testing, the Army and Marine Corps have 
controls in place during manufacturing and after fielding to 
assure that body armor meets requirements. Those services 
conduct quality and ballistic testing prior to fielding, and 
lots are rejected if standards are not met.
    Samples of body armor are sent to the National Institute of 
Justice-certified lab for live ballistic testing, and to the 
Defense Contract Management Agency for quality testing, which 
includes testing for size, weight, and stitching, prior to 
issuance to the troops. After the body armor systems have been 
fielded, both the Army and Marine Corps conduct limited tests 
to determine if there had been any degradation to the outer 
tactical vest or the inserts.
    Mr. Chairman, this concludes my oral statement, and I will 
be happy to answer any questions that you or the committee may 
have.
    [The prepared statement of Mr. Solis can be found in the 
Appendix on page 157.]
    The Chairman. Dr. John Morgan, please.

  STATEMENT OF DR. JONATHAN MORGAN, DEPUTY DIRECTOR, NATIONAL 
                     INSTITUTE OF JUSTICE.

    Dr. Morgan. Thank you. Mr. Chairman, members of the 
committee, I am pleased to testify today on behalf of the 
Department of Justice's Office of Justice Programs' National 
Institute of Justice concerning NIJ's body armor compliance 
testing program. NIJ is the research, development and 
evaluation agency of the Department of Justice, and our mission 
is to advance scientific research, development and evaluation 
to enhance the administration of justice and public safety.
    For 30 years, NIJ has administered a body armor compliance 
program. During that time, over 3,000 officers' lives have been 
saved by NIJ-compliant body armor. The program is administered 
through the National Law Enforcement and Corrections Technology 
Center, NLECTC, in Rockville, Maryland; and scientific research 
and technical support for the body armor program are provided 
by the Office of Law Enforcement Standards within the 
Department of Commerce's National Institute of Standards and 
Technology.
    The purpose of the Body Armor Compliance Testing Program is 
to enhance the confidence of public safety agencies and 
officers that body armor used for public safety applications is 
safe and reliable and meets minimum performance requirements 
throughout the manufacturer-declared warranty period. Like 
NIJ's other performance standards, the body armor standard is a 
collaborative effort among Federal, State, and local public 
safety agencies, the scientific community, and the commercial 
sector.
    It is important to emphasize that NIJ's standards 
development process focuses on the operational needs and 
requirements of civilian law enforcement officers and the 
threats they commonly face in the performance of their duties, 
which are significantly different than threats faced in the 
military combat environment. While NIJ and military agencies 
routinely exchange technical information about body armor, the 
two test programs are very different from one another because 
the operational requirements of police officers and soldiers 
are very different.
    Although NIJ's compliance testing programs rely on 
voluntary participation by suppliers, most police departments 
require that equipment be tested and then evaluated and found 
in conformance with NIJ standards before they purchase the 
equipment. As a result, most manufacturers for law enforcement 
body armor design their equipment to comply with the standards 
and have each model tested for conformance with NIJ.
    Since May of 2006, Pinnacle Armor has submitted seven 
models of Dragon Skin-based armor to NIJ's Body Armor 
Compliance Program. NIJ and its partners, NITS and OLES, have 
developed a flexible armor protocol which was specifically 
designed to test the perceived vulnerabilities to angled shots 
of Dragon Skin and similar armor consisting of multiple or 
tiled plate systems. Two of the seven models were resubmitted 
after inconclusive results, resulting in a total of nine 
submissions by the company of Dragon Skin-based models. The 
results for these nine submissions are five failed to comply 
with the NIJ standard, one passed NIJ compliance testing and 
was issued a letter of compliance, two were found to be 
inconclusive and were not found compliant, and one is pending.
    Pinnacle Armor has submitted two different armor 
configurations. The first configuration of armor uses an 
existing 3a-compliant model and has a 10-by-12 hard armor plate 
insert which is intended to bring the level of protection up to 
the level III requirements. We call this the In Conjunction 
Model. That In Conjunction Model--one In Conjunction Model has 
passed compliance testing and is listed on NIJ's list of armor 
models that comply with the standard; that is referred to as 
the SOV 2000.1/MIL 3AF01 model.
    Pinnacle Armor has also submitted two models of In 
Conjunction Dragon Skin armor with the SOV 3000 level IV plate. 
The SOV 3000 level IV system failed to comply with the NIJ 
standard on its first submission. The second submission of the 
level IV In Conjunction System, the SOV 3000.1 is currently 
pending.
    The second configuration Pinnacle Armor submitted for level 
III protection utilized the Dragon Skin technology throughout 
the armor panel and looks more like the traditional level 3a 
vest that provides full front, back, and side armor protection 
for the upper torso. Pinnacle Armor has given this type of 
system a model designation that ended in MIL, for example, SOV 
2000-MIL or SOV 2000.1/MIL. These models appear to be similar 
in construction to models that have been subjected to military 
testing such as you see on the table, but NIJ and its technical 
partners have not compared the models directly. No Dragon Skin-
based armor in this configuration, the second configuration, 
has passed NIJ compliance.
    We have submitted to the committee a complete and detailed 
timeline and description of NIJ's testing on Dragon Skin-based 
armor. And I thank you for your time and attention and welcome 
your questions.
    The Chairman. Dr. Morgan, thank you.
    I am going to ask the staff to pass down to you two 
documents, Dr. Morgan. One, dated April 14, 2006, is apparently 
an attachment to Dragon Skin body armor, entitled Pinnacle 
Armor, stating that the manufacturer certifies that this model 
of armor has been tested through NLECTC and has been found to 
comply with type III performance in accordance with NIJ 
standard 0101.4.
    I will also pass down to you a letter dated December 20, 
2006, signed by you, that is a notice of compliance with NIJ 
2005 interim requirements level III; and I will ask you if 
these two documents are accurately and correctly stated by me.
    Dr. Morgan. Yes.
    The Chairman. I ask unanimous consent that both be placed 
in the record. Without objection.
    Doctor, thank you.
    Mr. Hunter.
    [The information referred to can be found in the Appendix 
on page 173.]
    Mr. Hunter. Thank you, Mr. Chairman. And thank you, 
gentlemen, for the composite presentation that you have made 
here. Let me just make an observation.
    I think it is clear that we need to have another test. I 
think there are about three cross-currents working in this 
hearing. One is that there is lots of, I think, mishandling of 
this issue by the contractor. And I related that to him, 
especially in terms of communication, in terms of statements 
made about the professionalism of the United States Army, 
statements made about the professionalism of our staff members 
and people who have been connected with this program in any 
way. And I think that is clearly, you know, disturbing.
    It happens in this show business that we call the function 
of government, where you have lots of agencies and you have got 
a big--we have got a big military bureaucracy, a big 
congressional bureaucracy, and folks on the outside selling 
their products. And often we have clashes of personalities and 
people. And all those things go into the mix through which we 
ultimately derive our weapons systems.
    This is an interesting case because, underneath all of 
this, the inconsistencies--and I think the statement made by 
Phil Coyle, one of the most respected guys in this business, 
who was our top tester for many years, that the Dragon Skin is, 
quote, ``not ready for prime time,'' I think is a very telling 
statement that should go out to everybody who is considering 
purchasing it.
    Nonetheless, in my estimation, Mr. Chairman, I think we 
need to sweep all of the underbrush aside and look directly at 
the key question, which is, does this technology have some 
value? And is it, in fact--if we test it with a straight-up, 
side-by-side test, will it demonstrate values that either now 
or, if changed somewhat, if adapted, would save more lives of 
our folks in theater? And I am thinking about not only bullet 
penetration, but also frag penetration.
    It is unclear as to what the coverage is. The contractor 
says you have got more coverage than you have with the 
Interceptor Body Armor. He said that his systems were 24 
pounds. I know you have got--you have done a weigh-in here in 
which one set is over 40. So there are lots of things that need 
to be cleared up, but here is what I think we need do.
    I think we need to straight away, in an expeditious way, 
find out if there is value to this system; and there may well 
be. And if there is value, I think we need to extract it as 
quickly as possible and get it to the troops in field. And we 
have the 1-page document that this committee put into the law 
that the Secretary of Defense can sign; if he is taking 
casualties on the battlefield, he can sign that and he can 
bypass acquisition regulations. And certainly we are taking 
casualties, and we are taking them from small arms fire.
    Although it is clear that the Interceptor Body Armor has a 
good record that has been laid out here. So this is one of 
those unusual cases in which I know the Army has got its back 
up, probably justifiably so; we have kind of got our backs up, 
and justifiably so. On the other hand, you have a technology 
which may have some value, and none of these things come 
wrapped in neat packages.
    So, Mr. Chairman, my recommendation is--I know there are a 
few unanswered questions. One should be on that complete 
penetration versus noncomplete penetration that showed up on 
this test. And I think the Army has some answering to do on 
that. I think that was a valid point that was raised by the 
contractor. But assuming that that can be--that there is a 
rationale for that that is justifiable, I think we need to have 
the complete test and get it done quickly, expeditiously. And 
if there is value to this system either in this form or a 
modified form, utilize it. Let's get it to the field and let's 
get it to our troops.
    So, Mr. Chairman, it has been a very interesting hearing, 
with lots and lots of dimensions. And maybe, General Thompson, 
you could speak briefly--or whoever is expert in this area--as 
to this penetration versus nonpenetration, because I thought 
the contractor had a good point on that one. It looked like--I 
think I could see those bullets embedded, and it didn't look 
like there was complete penetration.
    What is the story there?
    General Thompson. Sir, I would like to address that, and 
are you all prepared to show the----
    The Chairman. We can't hear you, General.
    General Thompson. I am prepared to address that, but what I 
would like to show you is the actual footage of the shot where 
Mr. Neal observed the shot, and show you that penetration. And 
then I will ask either General Brown or Karl Masters, who 
observed that test, to explain this difference.
    Now this is the shot that was referred to as the penetrator 
being left on top of the plates. And what we are going to show 
you here is that the penetrator was not left on top of the 
plates, and it was a complete penetration, because of the 
penetration of the ballistic clay behind there.
    And that was Mr. Neal in the footage.
    Mr. Hunter. I don't understand. What are you saying? I 
thought Mr. Neal's claim was--he said it didn't go all the way 
through because you can see it still lodged in the plate.
    General Thompson. The x-ray shows residual metal that is 
there, and that could be part of the jacket. But the penetrator 
went all the way through the vest. And we are going to see it.
    Mr. Hunter. So you are saying the bullet came apart and 
part of it went through the vest?
    General Thompson. Yes, sir.
    Mr. Hunter. So there was a complete penetration?
    General Thompson. There was a complete penetration.
    Mr. Hunter. How much of that bullet got through?
    General Thompson. I am going to show you that.
    Mr. Hunter. Okay.
    General Thompson. There was the shot.
    Dr. Snyder. Mr. Hunter, would you yield for just a follow-
up?
    Mr. Hunter. Absolutely.
    Dr. Snyder. General, when the x-rays are done, you have got 
a portable x-ray machine that is rolled out there and they just 
x-ray it right there? Is that how that works?
    When are the x-rays done? After the shot?
    General Thompson. No, the x-rays are done right there.
    Dr. Snyder. While they are still hung up there?
    General Thompson. Okay. Mr. Masters is showing me. He is 
going to show you the penetration through the thing into the 
ballistic clay.
    And then we actually pull the vest off and x ray it with an 
x ray machine which is right on site, right there.
    And so this is the shot where Mr. Neal said it did not go 
all the way through; and you saw his head in the picture as he 
observed that, and then you can see here the penetration in the 
ballistic clay. And the H.P. White Laboratory representative is 
measuring that penetration into the ballistic clay.
    The Chairman. The record shows there was a hole behind the 
vest; is that correct?
    General Thompson. That is correct, sir. And that is Mr. 
Neal right there observing the complete penetration.
    General Brown. You see there they are trying to dig out the 
round. And that is Mr. Neal observing them digging out the 
round. And they are having some difficulty. The clock up in the 
upper center is real time.
    The Chairman. So when Mr. Neal----
    General Brown. He is going around the back now to see if it 
went all the way through the ballistic clay.
    The Chairman. When Mr. Neal told us a few moments ago he 
could see the bullet, that wasn't a bullet in that hole.
    General Brown. No, sir. The impact physics of a round 
hitting the target is a very violent act, by design. And a 
slug, a round, sometimes it is a misnomer, it is not actually a 
slug of solid, formal material.
    The Chairman. So Mr. Neal's testimony is incorrect.
    General Brown. Correct, sir. It is a full metal jacket. And 
what you saw in that x-ray is residue of the metal jacket and 
some of the interior material of the round.
    Mr. Conaway. Can we explain the two different clocks 
running? There are two different dates at the top of the 
screen.
    General Brown. I believe one is actual time and one is test 
time. The time that we made the video.
    The Chairman. Mr. Taylor has a follow-up question, too, 
then, if Mr. Hunter will yield.
    Go ahead.
    Mr. Taylor. Thank you.
    I asked Mr. Neal just a few minutes ago regarding that 
shot, if he was wearing that vest, would he have lived. And he 
said ``yes.''
    General Thompson. Yes, he did say that. I listened to the 
testimony and----
    Mr. Taylor. What would be your response to that, General?
    General Brown. I would say he may have lived, but he would 
have also been penetrated by a round.
    Mr. Saxton. Mr. Chairman.
    The Chairman. Mr. Saxton.
    Mr. Saxton. Just to tie this down, the test that we saw the 
film of was the so-called, quote, ``motor oil test''; is that 
right?
    General Brown. Yes, sir, that was the motor oil test.
    The Chairman. Okay.
    Now, as to the 5-minute rule, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    And I very much appreciate you being here, because I would 
like you on a point-by-point basis to walk through some of the 
statements that were made. If I understand Mr. Neal, he said 
that there was no penetration, that if he was wearing that 
vest, he would have lived. And so my question to you is, after 
what you have shown us, was there penetration? Was it of an 
amount that a medical professional, such as Dr. Snyder, would 
have considered a critical wound? Was this a one-time event or 
did this happen on several occasions?
    And just for the heck of it, when you talk about motor oil 
exposure, was this vest soaked in motor oil for a period of 
days? Was some splashed on it? Just for my information, and 
same thing with the diesel fuel test, was it a matter of 
splashing some on there? Was it immersed in the substance?
    Walk us through that, please.
    General Brown. Okay, sir, I will try to get to every one of 
the points.
    Number one, it was a complete penetration.
    Number two, it would have entered the human body. Whether 
the subject, test subject, would have lived or not, if it had 
severed an aortic arch or spine, clearly the individual would 
have died. If it had gone into another part of the body, the 
individual may have lived.
    The subject test item is soaked in diesel for 2 hours and 
then allowed to drip dry and then tested at that point.
    And your other questions were, sir?
    Same with the motor oil and the diesel. They are both 
soaked for two hours and then allowed to drip dry and then 
fired.
    Mr. Taylor. General, in your opinion, do you feel like Mr. 
Neal lied to this committee?
    General Brown. Sir----
    Mr. Taylor. He made a blanket statement that that round did 
not penetrate that vest.
    General Brown. Sir, in my personal opinion, Mr. Neal was 
not correct. Now, whether he intentionally misrepresented what 
he knew to be the truth or not, I can't say. But he--in my 
personal opinion, he was incorrect.
    Mr. Taylor. General Thompson.
    General Thompson. Sir, what I would like to say is one of 
the things we did in this test--Mr. Neal observed all these 
tests--we taped, videotaped the entire procedure, and Mr. Neal 
was present during the entire test. And of the eight vests that 
we tested, four failed. Forty-eight shots for the record. 
Thirteen of those shots were first- or second-round 
penetrations, and those are complete failures by our test 
standard for level IV armor, which is the armor protection we 
provide to our men and women.
    Mr. Taylor. In the time I have remaining, a matter of 
curiosity: I see a few gray hairs there, and obviously a lot of 
combat experience based upon the ribbons on your chest. So I am 
not going to ask about yourselves, but if you have, or if the 
scenario would be you had a son or daughter in uniform, which 
set of armor would you want for your son or daughter in 
uniform?
    Is it what we are presently buying? Is it the Dragon Skin? 
Or is there another brand out there that our Nation should be 
looking at?
    General Brown. Sir, I do have a daughter; she is not in the 
military service. But today, as we speak, I do have 160 of my 
personal employees in theater today in Afghanistan, in Iraq and 
Kuwait. Also, my direct reports have sons and daughters over 
there. My director of the Rapid Fielding Initiative, Colonel 
Mike Bonheim's son is over there. My director of Personnel 
Administration, her son is over there. My sergeant major, who 
is with us today, Sergeant Major Coleman, his brother is headed 
there. And for all of them, and myself--I am going over there 
very soon--I intend to wear Interceptor Body Armor. And for all 
of them I would recommend Interceptor Body Armor.
    Mr. Taylor. Does anyone have an answer contrary to that? 
Could we say for the record that this panel, if given the 
opportunity of placing one set of armor or the other on their 
child going into combat--let's just, while we are here, each 
one of you say it.
    Mr. Roger Smith. Sir, I don't any children, but I 
personally wore an Interceptor armor in Iraq, probably like 
many of you have on your Congressional Delegations (CODELS) 
over there, and I would prefer that over any other because it 
is tested and evaluated.
    Mr. Taylor. Colonel Smith.
    Colonel Smith. Sir, I do have a son, and if he were to go 
to Iraq or Afghanistan, he would wear the Interceptor Body 
Armor without a question.
    Mr. Taylor. And that would be your preference?
    Colonel Smith. Yes, sir, it would.
    Mr. Taylor. Mr. Thomas.
    Mr. Thomas. Fortunately, I am too young to have a son in 
the Air Force or the military, but if I did I would want them 
to wear the Interceptor as opposed to the Dragon Skin.
    Mr. Taylor. Colonel Noonan.
    Colonel Noonan. Sir, I have three sons, none currently in 
service. However, if they were in service and did deploy, I 
would require them and want them to wear--and let me use the 
terminology a little bit differently. We all in our briefings 
talked about the name of a product. In reality, we are using a 
technology, and that technology is a monolithic, solid-plate 
technology, which is currently tested and evaluated to meet the 
AP2 armor requirement.
    That is what we all in the services currently utilize under 
some different name; and that would be the product that I would 
have my son go to deploy with, sir.
    Mr. Taylor. Mr. Solis. Dr. Morgan.
    Mr. Solis. I have a son who is in the military. And if I 
had--I would prefer that he would go with the IBA, since that 
has been tested and evaluated to this point.
    Dr. Morgan. I have three small children, and should they 
ever serve in the military, I think that they would be best 
served by using the Interceptor armor. There is no question.
    Mr. Taylor. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    General Thompson, let me make an official request of you. I 
wish to ask the Army to provide the H.P. White Laboratory test 
reports to this committee so we can make them part of this 
hearing.
    [The information referred to is retained in the committee 
files and can be viewed upon request.]
    The Chairman. Let the record show the two scales in front 
of us. The Dragon Skin scale shows what, General Thompson, on 
weight? Can you see it?
    Mr. Saxton. It shows close to 50.
    General Thompson. It should show 47, 47.5 versus 28 pounds.
    The Chairman. Thank you. And the currently used Interceptor 
weight, as shown, by what on the scales?
    Voice. Sir, what I am looking at is about 27.8 pounds, sir.
    The Chairman. Twenty-seven point eight pounds. Let the 
record show that.
    We have a total of four votes coming up, one 15-minute, 
three 5-minutes. If we don't finish, gentlemen, we are going to 
ask you to stick around, but we will see how far we can go.
    Mr. Saxton.
    Mr. Saxton. Thank you, Mr. Chairman. Let me just follow up 
on your mention of the scales and the equipment in front of us.
    Mr. Neal, when I asked Mr. Neal about the weight 
differential, Mr. Neal said it was like comparing apples and 
oranges. And as I look at the information that was provided to 
us by you in a previous hearing, I noticed that on this sheet 
the Interceptor Body Armor was size large and the Pinnacle 
Armor was size extra large. And I believe you explained why 
that was, previously, to us.
    Would you tell us why this is not like comparing apples and 
oranges, if indeed it isn't?
    General Thompson. Sir, I will kick it to General Brown here 
if I don't get this quite right, but it is the difference in 
sizing based on the manufacturer. Just like you go to a 
clothing sales store and buy clothes for you, some 
manufacturers manufacture things a little bit differently.
    For a soldier that would need to wear either the Pinnacle 
or the IBA body armor, these are the two sizes that would give 
a soldier of a certain body size the comparable level of vest 
to be able to put on. And so that is why there is a large and 
an extra large.
    Mr. Saxton. Can you explain why Mr. Neal believes that the 
appropriate level of protection can be provided with his system 
with 27 pounds, which is what he indicated earlier?
    General Brown. We asked him to provide a system that would 
simulate the front and back plates and the side plates. And 
when you put all those disks in--as you see, there are side-
plate equivalents in there--when you have that triple, 
overlapping disk, it tends to start to drive the weight up.
    But what we sought to achieve was a similar, comparable 
area of coverage, area of protection. And it actually in this 
test case for area of coverage, we actually advantaged Pinnacle 
by giving them--I believe the number was about 20 square inches 
more in area of coverage by going with this methodology.
    But it is simply a matter that the Pinnacle vests generally 
run a size small compared to the Interceptor Body Armor, and we 
wanted to get as close as we could in area of coverage.
    Mr. Saxton. And is it true that--as it says here on your 
sheet, that the Interceptor Body Armor that we see here 
provides 720 square inches of coverage and the Pinnacle body 
armor that see we has 743 square inches of coverage? Is that 
about right?
    General Brown. Yes, sir, that is our assertion.
    Mr. Saxton. I did some math, and my math says it is 3 
percent more with the Pinnacle Armor than it is with the 
Interceptor armor.
    General Brown. Yes, sir. As I stated, we actually 
advantaged Pinnacle in this test in area of coverage.
    Mr. Saxton. But the three percent is a marginal advantage, 
isn't it?
    General Brown. Yes, sir. Had we gone with a large Pinnacle 
rather than an extra large, it would have been marginally 
smaller.
    Mr. Saxton. So providing the same body--roughly the same 
body coverage, 3 percent more for Pinnacle, we see a 47.5-pound 
Pinnacle Armor system and a 28-pound Interceptor system; is 
that correct?
    General Brown. Yes, sir.
    Mr. Conaway. Mr. Saxton, is the definition of coverage the 
same for both vests in terms of ballistic coverage?
    General Brown. Yes, sir.
    The Chairman. Thank you, gentlemen.
    Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    General Thompson, I want to quibble with you a little bit. 
I don't think this is NBC's problem; I think this is our 
problem. We have got a lot of military families out there and 
people in the public that have questions about this. And for 
whatever reason it has been generated, we all need to do a 
better job of answering it. And the reality is, the NBC show, 
there are some questions to be asked about what NBC showed.
    I want to know why the, what they are calling the 
Interceptor in that NBC show, why it did not perform better, 
why it did not perform comparable to what General Brown has 
showed us in the closed briefings before. It may be because it 
didn't come from one of the vendors. It may be that there are 
some other questions to be answered.
    Have you all reached any conclusions about why the 
Interceptor didn't--what did you call it, the fixed, the 
generic term for it--why the IBA did not perform on the NBC 
show as you would have expected?
    General Thompson. I will kick it off, and I will let 
General Brown pick it up, but the reality is, I don't know. I 
know they tested from one manufacturer. And like I said in my 
testimony, that was not one of the six manufacturers of the 
plates for us.
    Dr. Snyder. Right.
    General Thompson. I don't know what their test protocol is. 
I don't know exactly the product that they tested. So it is 
very difficult, without factual information, to evaluate the 
results that they are claiming on the test that was done in 
Germany.
    And so for them to have the same test protocol as we do, I 
don't know that, because they have not been forthcoming with 
that information although they have been asked.
    Dr. Snyder. General Brown, you have anything to add?
    General Brown. Yes, sir. As General Thompson alluded to, we 
have six primary producers of body armor plate ESAPI. The 
quantities and the quality assurance procedures and the test 
procedures are very tightly controlled with those plate 
suppliers.
    And we also mentioned in the early part of our statement 
that we see the press as a key pillar to our democracy, and 
therefore we must keep the American public informed. For that 
reason, we cooperated fully with NBC on this interview. We gave 
NBC everything we had, showed them everything; and what we were 
concerned about was that, when the report came out, they had 
done serious damage to the confidence of soldiers, but more 
importantly, the confidence of soldiers' families in their 
equipment.
    As I watched the show unfold, many questions were raised in 
my head about the quality and the effectiveness and objectivity 
of that test. The first part was, we have different colors that 
constitute what calls an ESAPI plate or a SAPI plate or some 
other kind of plate. And as I saw the flashes across the 
screen, the plates that I saw did not appear to be ESAPI plates 
based on the color coding that we know.
    Dr. Snyder. I think those are the kinds of questions that 
are raised.
    I want to ask another question. We are running out of time 
here.
    One of the things Mr. Neal talked about was, in one of the 
tests that you all conducted he had an adhesive tape problem.
    General Brown. Right.
    Dr. Snyder. And that it went through an area that didn't 
have plates. Essentially, what he was asking--it seemed to me 
that he was implying that he should get a do-over. How does 
that work out? Doesn't that create some--I mean, he is going to 
say that he has corrected the problem, and I am sure he has, 
but it does create some issues. How do you handle that when you 
have tested other things and there clearly was some technical 
problem?
    You were trying to test the plates themselves, but the 
plates weren't there because they had dropped away. Do you get 
do-overs in these things?
    General Brown. Before I get to the do-over aspect, the 
second major flaw in the test was that the Pinnacle body armor 
was tested in a flat mode rather than a curvature mode. Because 
the human body is a curved shape----
    Dr. Snyder. You mean, it was hanging flat against----
    General Brown. Right. And that would have caused the 
Pinnacle body armor to perform better. And then Honorable Mr. 
Coyle's testimony, he said they were using the 7.62 x 54 round, 
which is not the test round. The 7.62 x 63 APM2 is the test 
round which we specifically selected to put in a wider margin 
of safety into the plates. So that may also account for why the 
plate performed better.
    Dr. Snyder. A do-over.
    General Thompson. And just to make it clear, what General 
Brown is referring to is, when it was tested flat--it was the 
test run by NBC in Germany where it was tested flat; when we 
tested the body armor in our test, it was tested in a curved 
configuration, which is the way it is worn by soldiers. And you 
saw that in the picture of the curve of the Pinnacle Armor 
around the ballistic clay.
    Dr. Snyder. And the question on do-overs?
    General Brown. When you go into the test, it is like an 
examination, the GRE, the GMAT, the LSAT. You go in and that is 
the test. You take the test, and the standard for passing the 
test is zero penetrations; at the first penetration, that test 
was failed. There are no do-overs.
    However, we have made it clear that should they make a 
product improvement, we are willing to relook at their system 
again, do appropriate procedures.
    The Chairman. We have less than 2 minutes to make the vote. 
Mr. Saxton has a question.
    Mr. Saxton. Thank you, Mr. Chairman. I am told by some of 
our smart staff here behind me that I need to ask this 
question, and we have to go vote, so perhaps you can answer 
this for us in writing.
    The question is, how much armor-piercing round coverage is 
there in IBA versus Pinnacle? And I ask this question because 
we want to make sure we get all the facts out on the table and 
be fair to both Pinnacle as well as the currently used 
Interceptor Body Armor.
    [The information referred to can be found in the Appendix 
beginning on page 217.]
    The Chairman. We will be in recess until after the votes. 
And thank you for waiting.
    [Recess.]
    Dr. Snyder [presiding]. I wanted to--we will come back to 
order.
    General Thompson--I had two or three questions that came up 
during the break. General Thompson, is there currently an RFP 
out? You are seeking proposals now; is that correct?
    Now, Mr. Neal in his testimony said earlier that by the 
nature of past RFPs he thought there were several that, because 
his is considered a flexible system, would not even be eligible 
to be considered. If he were to submit--has he submitted a 
proposal? And if he does, will he be considered, or by the 
nature of the disk versus the monolithic form, would he not be 
eligible for that RFP?
    General Thompson. I think that is a great question. Right 
now there is a request for proposal on the street that was 
issued on 25 May. That request for proposal is for continuation 
of ESAPI, or if somebody has got a solution that is better 
protection beyond ESAPI, they have the opportunity to bring 
that in.
    And so, I heard what the committee said today and I have 
heard the discussion about side by side. But let me say this 
about side-by-side. Side-by-side doesn't have to be at the same 
time. Side-by-side, to me, is testing to the same standard, 
which we have done with the six producers of the plates today. 
And we used that same standard to test the Pinnacle product not 
just in May, 2006, but on five previous--four previous 
occasions before that.
    Dr. Snyder. Will your current six vendors, will they have 
to reapply for this RFP?
    General Thompson. Anybody that wants to continue to produce 
for us has got to respond to this RFP.
    Dr. Snyder. Okay.
    General Thompson. So I think the way ahead here very 
clearly is not an individual side-by-side between IBA and 
Pinnacle.
    I heard what Mr. Neal said about responding to our RFPs. I 
checked with the program office here. He has not responded to 
our RFPs for body armor level IV. But we have the RFP on the 
street; 60 days from 25 May, which is the end of July, anybody 
that has got a product that can be put forward to be 
considered, to include Pinnacle--if Pinnacle puts forward their 
product to this RFP, we will test it along with every other 
competitor that comes forward out there.
    And I think that is a fair and reasonable way ahead, 
because then they will get the time to respond to the RFP. But 
if they don't respond to the RFP, as an acquisition 
professional, I think it would be unfair to the other 
competitors to test them individually.
    So I think the way ahead here is, 60 days from now, whoever 
responds to that RFP--and I hope Pinnacle does respond--we will 
test to that standard. We will test by the Army Test and 
Evaluation Command. We will pick an objective site; and I will 
tell you right now we won't pick H.P. White for this one.
    In the audience today, and I talked to him yesterday, and I 
just talked to him a few minutes ago, is the current head of 
live fire testing for DOD, Mr. Rick Sayers, and we will have 
DOT&E, Director of Operational Test and Evaluation, the 
organization that Mr. Coyle used to head, oversee the ATEC 
testing of whoever responds to that RFP by the end of July.
    And I think that is a reasonable way ahead here for the 
committee, for the Army, and for Pinnacle, should they choose 
to respond to the RFP.
    Dr. Snyder. One more question and then we will go to Mr. 
Jones.
    In the discussion just before we broke, we were talking 
about the do-over, where they had the, I think it was--as Mr. 
Neal described it, I think it was an adhesive tape problem, 
that they dealt with with their producer and changed their 
process, and he believes he has got it corrected.
    Now that was in the May 2006 testing; is that correct? My 
question is, are you aware, did the Dragon Skin--did Mr. Neal's 
company do any kind of notification to those people who bought 
the Dragon Skin prior to the discovery of that adhesive tape 
problem? Do we have people in Iraq and Afghanistan today 
wearing that body armor that was purchased prior to that date 
that may not be aware that they have got an adhesive tape that 
has come apart and some of their disks have fallen down?
    General Brown. Sir, if I can rephrase your question, I 
believe it is, has there been a retrofit or a look back at 
systems that may already be in service to make sure those 
people are not as risk?
    Dr. Snyder. That is exactly what I meant to say, General.
    General Brown. The CENTCOM AOR Safety of Use Message 
applies to all personnel in CENTCOM that says Interceptor Body 
Armor is the armor. So if they are CENTCOM personnel and they 
are wearing Dragon Skin, they are doing so without the graces, 
good graces of CENTCOM.
    To my knowledge, there has been no retrofit or relook 
actions on systems.
    Dr. Snyder. Or a recall?
    General Thompson, that may be something that you all would 
want to look into if you have significant numbers of your 
personnel that are wearing something that, in your testing, you 
discovered had a manufacturing flaw that the manufacturer has 
since corrected.
    But I will leave that--if you would, get back to us on that 
and let us know.
    General Thompson. There was some sets out there that were 
bought by protective services details, for example. Since we 
issued the Safety of Use Message, all of those have been 
recalled and turned in, and to our knowledge, nobody is wearing 
the Dragon Skin in theater today.
    Dr. Snyder. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you.
    Dr. Snyder. Mr. Jones, could we let Mr. Taylor do a 
unanimous consent, and then I will get back to you?
    Mr. Jones. Is that my friend from Mississippi? I will 
yield.
    Mr. Taylor. I thank the gentleman from North Carolina.
    Mr. Chairman and gentlemen, I would like to ask unanimous 
consent that the Seapower Subcommittee be allowed to meet and 
have a hearing on waterside protection of our naval vessels 
while this committee meets.
    Dr. Snyder. Without objection.
    Mr. Jones. Excuse me, Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you.
    General Thompson, I was watching the tests on the film that 
you showed the committee, and I don't know Mr. Neal. I am sure 
he is a fine gentleman, just like everybody on the panel today, 
but I am amazed--I was amazed to see the size of the hole from 
the firing from the test, and I was wondering if anyone was 
around him when you were, you know, showing him just how severe 
the hole of the shot was.
    Was there any comments from him? Were you present, or any 
of your assistants present; or does anybody remember any 
comment that he might have made?
    General Brown. Sir, my test director, Lieutenant Colonel 
(Retired) Karl Masters is present, and he was the test 
director, and was present at the test site. I will let him 
answer that.
    Mr. Jones. If it is permissible, Mr. Chairman. To me, I 
would--as a man wanting to sell this to the military to protect 
their lives, I would be so--excuse the expression--but shell-
shocked, I would probably say some things that I would be--was 
anything said?
    General Brown. Mr. Chairman, with permission, would you 
like to hear from Lieutenant Colonel (Retired) Masters?
    The Chairman. Certainly.
    Colonel Masters. Mr. Chairman----
    The Chairman. Would you identify yourself, please.
    Colonel Masters. My name is Lieutenant Colonel Karl 
Masters, Retired, United States Army.
    I currently--as the lead engineer for PEO Soldier Equipment 
on all body armor, I ran and supervised the test at H.P. White 
in May of 2006, and was present on the range with Mr. Murray 
Neal. And as a matter of fact, I escorted Mr. Neal to the 
various locations within the range and had some discussions 
with him.
    Dr. Snyder. Pull that mike in a little closer, if you 
would.
    Colonel Masters. Sir, to answer your direct questions in 
terms of what Mr. Neal's observations were, basically we had 
very professional exchanges about the happenings with regard to 
particular shots in terms of complete penetrations or partial 
penetrations. But there was no outward expression of emotion by 
anyone on the range that day. It was just observation of the 
test results as they transpired, sir.
    Mr. Jones. Well, I know that you, on both sides, are 
professionals, and I wouldn't expect the same reaction that--
maybe if I was there and I had made the body armor, I would 
certainly be--but then I am not being critical.
    Mr. Chairman, you picked up on something that I was going 
to do myself. I wonder and am concerned that if so much of what 
is happening in the theater today is on the Internet, one way 
or the other--people can e-mail their families in a matter of 
seconds, and there can be a product advertised, and so those 
troops in the theater can see it. And maybe, you know, your 
point was, I think, and what my point would have been is, are 
the troops so--do you feel that many of the troops feel that 
the Dragon Skin is the right vest to have? Or is it--is there 
any concern on your part that their families are wanting to buy 
the $5,000 vest because they believe it is better than the vest 
that has been issued by the military?
    This is somewhat along the lines of what the chairman 
asked.
    General Brown. Sir, you are asking about my feelings. And 
what I have is some experience with soldiers recently back from 
theater.
    There are about 230,000 soldiers deployed around the world 
in 120 different countries today, and with that number of 
people deployed, you are going to have a few that probably feel 
differently than others. But my general reception from soldiers 
is that they are very happy with the Interceptor Body Armor. 
Many testimonials about lives saved, and as a matter of fact, 
we have given the committee those testimonials. And that is why 
we brought Specialist Miller from the 101st Screaming Eagles 
here today.
    With the chairman's permission, if you would like to ask 
him, I think it would probably be a better--you would get a 
better, more accurate response than from myself.
    Dr. Snyder. It is your time, Mr. Jones.
    Mr. Jones. Mr. Chairman, I am sure that if they are here, 
they should certainly speak. And maybe one.
    My question is, do you think that there is an agreement 
with those whom you serve with? The majority say that we accept 
this as the best protection out, and they are not questioning 
whether it should be the Dragon Skin.
    One individual, just say it or speak would be fine, and 
then I will close.
    Major Coleman. Sir, I will step up with the soldiers that I 
brought here. I think our body armor----
    Dr. Snyder. Let's have you use the microphone, please. 
Identify yourself, and please use the mike.
    Major Coleman. Sir, I am Sergeant Major Tom Coleman. I am 
the PEO Sergeant Major, been there 5 months right now. I came 
out of theater with the 101st with the specialist.
    The body armor that we have right now is the right body 
armor. The feeling in the force is that it is doing what it is 
supposed to be doing. Everyone will tell you that they want it 
lighter; that is a fact. And they want something that always 
fits better, is lighter, they can move faster with.
    So there is no discontent that I see out there right now. 
There is a lot of concern, I am getting it from my peers in the 
field that are questioning me on the body armor just because of 
the news media. And as a sergeant major, that is my number one 
concern, the soldiers and soldiers' families, and the 
perception of our current equipment.
    But we believe it is good.
    Mr. Jones. Mr. Chairman, I know my timehas expired. If I 
could make just one quick statement, I would hope from this 
hearing today--and I have been here most of the time, not all, 
as other members have. To me, the sadness of all this, first of 
all, is the troops have to have the best. But when shows--and I 
am not going to criticize any TV network. If they think they 
are doing the right thing, and they have done all the checks 
and balances that they should have done before they go to air, 
then that is fine; I will accept that.
    But when I think about the parents who have these kids and 
loved ones in the theater, and they are seeing a show that 
says, well, this isn't the best body armor, this is, to me--I 
am not--I don't what the law is; I am not a lawyer, and I don't 
apologize for that, but I will tell you one thing.
    When you are talking about selling a product to the 
military, and that product is not what it is advertised to be 
to save a life, then to me, as far as I am concerned, that 
borders on violating some type of law.
    And with that, I will yield back the balance of my time.
    Dr. Snyder. Mrs. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman. I would like to 
thank you for calling this hearing today. I feel it is very 
important, and I thank all of the witnesses for testifying 
today.
    The recent NBC report on body armor was very troubling to 
many of us, and we owe it to the men and women in uniform to 
get this right. However, today I have a little different 
question to ask. I hope it hasn't been asked already, but I 
want to address a larger question about funding for the 
research and development, testing and evaluation that count, 
specifically funding for research for new technologies.
    In the fiscal year 2008 budget, the Department of Defense 
invested $11 billion in science and technology funding. This 
represents a 20 percent decrease over the previous fiscal year. 
In particular, the Army research budget dropped 39 percent and 
the Navy and Marine research budget dropped 18 percent. On the 
other hand, overall development accounts increased by $765 
million, suggesting that we are spending a considerable amount 
more on development rather than research.
    General Thompson, my question is to you. I am concerned 
that we spend a lot of money on development of products, but we 
do not spend enough on research of new technologies that will 
directly benefit our service members. So I am wondering if this 
situation is present in the case about body armor.
    General Thompson. Ma'am, I think there is the right balance 
between the money that we spend on research and the money that 
we spend on development, because it is the early research that 
leads to the products that we develop, test, and then put into 
production.
    Looking at a snapshot in one fiscal year, it is the trend 
over time that I would be more concerned about if there was a 
negative trend there.
    I am confident, and I think General Brown would say the 
same thing, that we have the resources we need to do the 
research, to do the testing, and to find the best products out 
there for body armor.
    Ms. Bordallo. Let me just follow up on that.
    In your testimony, I think that you insinuated that 
additional funding is necessary for research and development. 
Did you not say that in your testimony, General?
    General Thompson. Ma'am, I did not say that today in my 
written testimony.
    Ms. Bordallo. No one mentioned that there needed to be more 
money? So you feel that the funding is balanced; is that your 
answer?
    General Thompson. Yes, ma'am, I do. And if I go back to one 
of the statements that I did make, that force protection----
    Dr. Snyder. We have got to have you pull that microphone 
closer.
    General Thompson. One of the things I did say is that force 
protection for our servicemen and women is our number one 
priority. And if it is a question of priorities, if we need to 
put more money into force protection, specifically body armor, 
we would reprioritize from other places to put money against 
that because it is the number one priority.
    Ms. Bordallo. All right. I just, again--maybe I 
misunderstood when I read your testimony, but I did think that 
the development was up to par, but it is the new technology and 
the research where the money was short.
    But perhaps--does anybody else want to answer that on the 
panel.
    General Brown. Ma'am? General Brown.
    One of my responsibilities is also I am the commanding 
general of Natick Soldier System Center, which is 2,000 great 
Americans up in Massachusetts doing research and development on 
soldier items, everything from food to kitchens to uniforms, 
boots, body armor, helmets. We have $1 billion of research 
going on per year up at Natick Soldier System Center, and that 
research transitions over into my other organization, Program 
Executive Office Soldier, where we have about $4.4 billion a 
year to buy 400 separate programs of record.
    As General Thompson mentioned, as a matter of priorities, 
the Hill has been very generous with us on force protection. I 
have all the force protection R&D that I need at this time. Of 
course, I would always like more money, but not necessarily for 
force protection.
    You have got to be able to have a plan and a program to 
spend it, and we are spending quite a bit on force protection, 
in the billions, across the Army. So I think we are quite well 
funded in that particular priority.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Dr. Snyder. I share your concern about the decrease in 
research dollars.
    Mr. LoBiondo for 5 minutes.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    General Brown, a couple of minutes ago did you offer for 
Specialist Miller--I hope I got the rank correct--to say 
something, and Sergeant Major, not to take anything away from 
you, but I would like to hear from Specialist Miller, Mr. 
Chairman, if that is okay.
    Dr. Snyder. If you could use the microphone, please. Show 
these generals how to use the microphone.
    Specialist Miller. Sir, I can only speak for myself, and I 
think I can take the liberty of speaking for the guys that I 
directly work with; and that is that we trust our gear, sir.
    Mr. LoBiondo. Thank you very much. Thank you for your 
service.
    Dr. Snyder. Ms. Davis, do you have any further questions?
    Ms. Davis of California. Yes. Thank you, Mr. Chairman, and 
I am sorry I missed some of the earlier discussion.
    I think I heard everyone testify formally, but I wanted to 
go back very quickly to this side-by-side issue.
    And has it been determined that, in fact, we are going to 
do that kind of--that you are going to do that kind of a test; 
is that correct? And when and what problems do you see with 
that?
    General Thompson. Ma'am, I don't think you were in the room 
when I was asked that question. And my response was, there is a 
request for a proposal on the street today for any and all 
offers to bring in their products, to continue the ESAPI 
production or to produce something that has got greater 
capability than the ESAPI plates that we have today. Sixty days 
from May 25th, which is at the end of July, anybody that comes 
in with a product, we will evaluate that product, we will 
evaluate it by the Army Test and Evaluation Command.
    We will have the director of Operational Test and 
Evaluation for OSD oversee that test. We will not conduct it at 
H.P. White because that was the concern raised earlier today.
    But if Pinnacle wants to be evaluated, they have to respond 
to the RFP that is out there on the street today because if 
they don't, it is unfair to the other commercial competitors 
out there, that why would we test Pinnacle when they don't 
respond to the RFP.
    So that would be my position. I think the Competition in 
Contracting Act and all of the acquisition acts we have got----
    Ms. Davis of California. I understand that. There was a 
concern over the criteria or some of the elements that had to 
be assessed, and is that going to prohibit any companies who 
have something that is protective and yet perhaps doesn't 
adhere to this criteria that you set forth?
    General Brown. I believe that Pinnacle body armor was 
concerned that their particular technical solution, which are 
flexible disks, would not qualify under the current 
solicitation. They can produce a qualifying proposal under the 
current solicitation.
    In the final analysis, what we are worried about is, does 
the solution stop the threat round? And if it stops the threat 
round, then next, is it suitable and effective? You know, can 
the soldier wear it and move, shoot, communicate, carry his 
other gear.
    So we are not sold on any particular one technical 
solution. We want all commerce.
    Ms. Davis of California. And was that a problem in the past 
that the technical solution was restricted in some way?
    General Brown. Clearly, in Mr. Neal's mind, it was, but in 
ours, it wasn't.
    Ms. Davis of California. Thank you. That is helpful.
    Is this the same body armor that the Iraqi troops are 
using?
    General Brown. No, ma'am. The only troops that have the 
Interceptor Body Armor are U.S. Army, U.S. Marines and other 
Department of Defense personnel.
    Ms. Davis of California. How would you describe their body 
armor.
    General Brown. I would say it is effective to a certain 
level. It is not as effective as Interceptor Body Armor.
    Ms. Davis of California. If I could follow up because the 
Oversight and Investigations Subcommittee is looking at the 
Iraqi army, is that body armor that we had used before; or 
where is that made and what do you know about that.
    General Brown. Ma'am, I am rapidly outside of my lane. The 
equipping of the new Iraqi army belongs to another general, and 
I believe his name is Brigadier General Clinton Anderson. I 
could be wrong about that.
    General Thompson. Ma'am, I think we would take that one for 
the record and get back to you.
    [The information referred to can be found in the Appendix 
beginning on page 223.]
    Ms. Davis of California. And if in fact you were to find 
that one or several body armors met the standard and was 
equally efficacious, I don't know where you draw that line.
    Once something meets the standard and then goes beyond 
that, what is the procedure for basically choosing something 
different and have we done that before? Is that something 
commonly done?
    General Thompson. Yes, ma'am. Once you have one--if you 
have two or more that meet the standard, that is when we would 
do a true side-by-side against the standard and against the 
operational requirement, and we would pick the best one to go 
forward. And so--but you have got to meet the initial standard, 
and then we would do a true side-by-side.
    General Brown. There is the initial hurdle you have got to 
get over: Do you stop the threat round? And if you have 
multiple players or multiple solutions that stop the threat 
round, then you go out and put them side by side and go after 
the best solution, which is the best combination of area 
covered, flexibility, weight, ballistic protection.
    General Thompson. General Brown makes a good point. It is 
not just the best ballistic protection. It is the total 
requirement. It is the modularity, it is the weights, it is to 
be able to wear that piece of equipment with all of the other 
gear that a soldier or service member has to carry. So it is 
not just ballistic protection----
    Ms. Davis of California. I would actually include in 
motion, too, because I think that is an issue.
    But I appreciate that, and I wanted to be certain that in 
fact, if we found that to be the case, that you move forward in 
a fashion to try and evaluate that so that we could have the 
best.
    General Thompson. And one of the reminders that I was just 
given is, we make multiple awards to people. We don't have just 
one supplier; we have six current suppliers that have met the 
standard. And obviously the reason we do that is because you 
get the benefit of the competition when you have more than one 
supplier for a particular product.
    Ms. Davis of California. Thank you, Mr. Chairman.
    Dr. Snyder. Thank you, gentlemen. Thank you, Ms. Davis.
    Gentlemen, I wanted you to know that I learned some years 
ago when Mrs. Bordallo says something that is correct, that you 
better be careful to question her.
    I want to read, General Thompson, from your written 
statement, quote, ``We have all of the funding support we need 
to make sure that every soldier has the protection he or she 
needs. However, the Army is continually evaluating new 
technology, and additional funding for research and development 
would expedite that work,'' and that was from your statement.
    So I think a number of us have concerns that maybe you all 
want to do more research than you can and the budget has not 
been so good.
    Just one final comment with regard to this May 25th versus 
July 25th date.
    Neither the chairman nor Ranking Member Hunter was here to 
hear your discussion as a way to resolve this testing. I know 
Mr. Neal did say he thought the middle of July was the soonest 
he could have the vests to test. That may work out well, but 
the chairman and ranking member may have some thoughts about 
this plan, too.
    We appreciate you all being here. I think a lot of 
questions were answered. I am sure in the minds of a lot of 
people there were some questions that still need to be 
answered, and we appreciate your patience and being with us 
here today.
    General Thompson. Before you wrap up, and I know you are 
dying to do that, but can I make two more points that I think 
are very important, and they need to be said for the record.
    There was a question raised about the R&D going on amidst 
the shot raised by Mr. Neal. And the reference shots that were 
part of the testing were part of the first article test 
protocol. So there was no research and development activity 
going on when we tested Pinnacle's product in May of 2006.
    And the other point I would make, we showed you the picture 
of one of the full penetrations where we looked at the x-ray, 
and Mr. Neal said that he didn't think that was a full 
penetration. If I showed you the other x-ray pictures where he 
made that same claim, you would also see full penetrations into 
the ballistic clay all the way through into the Pinnacle 
product. So it wasn't just that one; it was all of the x-ray 
pictures where there was something showing on the screen. It 
wasn't sitting on top of the plate. It was through the plate, 
and it was the residue that was left, but not the bullet 
itself.
    I know we took the question for the record, but I would 
like General Brown to cover one more thing and that is the 
square foot coverage.
    General Brown. Yes, sir. Thank you.
    The question is, how do you get to the large differential 
in weight, the 47.5 pounds versus the 28 pounds? Well, it is 
one of these situations where you can't have it both ways. On 
the one hand, Pinnacle Dragon Skin claims that they have 3.6 
feet--square feet area rifle coverage for the SOV-3000. That 
very thing--as compared to the IBA, which has 2.6 square feet 
of rifle coverage, it is that very difference in rifle coverage 
weight that drives that weight up.
    So, on the one hand, he would claim that we got 3.6 square 
feet of rifle coverage, but on the other hand, you would say we 
are only 27 pounds. Well, they are either/or; you can't have 
both. You either have to drive down your area of rifle coverage 
to get to 27 pounds or drive up your weight to get to 3.6 
square feet. So it is a law of physics.
    Dr. Snyder. This has been a large panel. Some of you may 
have had some comments you wanted to make. You may submit those 
answers as statements for the record. Members may also have 
questions for the record that we hope you will respond to in a 
timely fashion so that may best utilize the information.
    We appreciate you all being here. The committee is 
adjourned.
    [Whereupon, at 3:05 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                              June 6, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              June 6, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7812.001
    
    [GRAPHIC] [TIFF OMITTED] T7812.002
    
    [GRAPHIC] [TIFF OMITTED] T7812.003
    
    [GRAPHIC] [TIFF OMITTED] T7812.004
    
    [GRAPHIC] [TIFF OMITTED] T7812.005
    
    [GRAPHIC] [TIFF OMITTED] T7812.006
    
    [GRAPHIC] [TIFF OMITTED] T7812.007
    
    [GRAPHIC] [TIFF OMITTED] T7812.008
    
    [GRAPHIC] [TIFF OMITTED] T7812.009
    
    [GRAPHIC] [TIFF OMITTED] T7812.010
    
    [GRAPHIC] [TIFF OMITTED] T7812.011
    
    [GRAPHIC] [TIFF OMITTED] T7812.012
    
    [GRAPHIC] [TIFF OMITTED] T7812.013
    
    [GRAPHIC] [TIFF OMITTED] T7812.014
    
    [GRAPHIC] [TIFF OMITTED] T7812.015
    
    [GRAPHIC] [TIFF OMITTED] T7812.016
    
    [GRAPHIC] [TIFF OMITTED] T7812.017
    
    [GRAPHIC] [TIFF OMITTED] T7812.018
    
    [GRAPHIC] [TIFF OMITTED] T7812.019
    
    [GRAPHIC] [TIFF OMITTED] T7812.020
    
    [GRAPHIC] [TIFF OMITTED] T7812.021
    
    [GRAPHIC] [TIFF OMITTED] T7812.022
    
    [GRAPHIC] [TIFF OMITTED] T7812.023
    
    [GRAPHIC] [TIFF OMITTED] T7812.024
    
    [GRAPHIC] [TIFF OMITTED] T7812.025
    
    [GRAPHIC] [TIFF OMITTED] T7812.026
    
    [GRAPHIC] [TIFF OMITTED] T7812.027
    
    [GRAPHIC] [TIFF OMITTED] T7812.028
    
    [GRAPHIC] [TIFF OMITTED] T7812.029
    
    [GRAPHIC] [TIFF OMITTED] T7812.030
    
    [GRAPHIC] [TIFF OMITTED] T7812.031
    
    [GRAPHIC] [TIFF OMITTED] T7812.032
    
    [GRAPHIC] [TIFF OMITTED] T7812.033
    
    [GRAPHIC] [TIFF OMITTED] T7812.034
    
    [GRAPHIC] [TIFF OMITTED] T7812.035
    
    [GRAPHIC] [TIFF OMITTED] T7812.036
    
    [GRAPHIC] [TIFF OMITTED] T7812.037
    
    [GRAPHIC] [TIFF OMITTED] T7812.038
    
    [GRAPHIC] [TIFF OMITTED] T7812.039
    
    [GRAPHIC] [TIFF OMITTED] T7812.040
    
    [GRAPHIC] [TIFF OMITTED] T7812.041
    
    [GRAPHIC] [TIFF OMITTED] T7812.042
    
    [GRAPHIC] [TIFF OMITTED] T7812.043
    
    [GRAPHIC] [TIFF OMITTED] T7812.044
    
    [GRAPHIC] [TIFF OMITTED] T7812.045
    
    [GRAPHIC] [TIFF OMITTED] T7812.046
    
    [GRAPHIC] [TIFF OMITTED] T7812.047
    
    [GRAPHIC] [TIFF OMITTED] T7812.048
    
    [GRAPHIC] [TIFF OMITTED] T7812.049
    
    [GRAPHIC] [TIFF OMITTED] T7812.050
    
    [GRAPHIC] [TIFF OMITTED] T7812.051
    
    [GRAPHIC] [TIFF OMITTED] T7812.052
    
    [GRAPHIC] [TIFF OMITTED] T7812.053
    
    [GRAPHIC] [TIFF OMITTED] T7812.054
    
    [GRAPHIC] [TIFF OMITTED] T7812.055
    
    [GRAPHIC] [TIFF OMITTED] T7812.056
    
    [GRAPHIC] [TIFF OMITTED] T7812.057
    
    [GRAPHIC] [TIFF OMITTED] T7812.058
    
    [GRAPHIC] [TIFF OMITTED] T7812.059
    
    [GRAPHIC] [TIFF OMITTED] T7812.060
    
    [GRAPHIC] [TIFF OMITTED] T7812.061
    
    [GRAPHIC] [TIFF OMITTED] T7812.062
    
    [GRAPHIC] [TIFF OMITTED] T7812.063
    
    [GRAPHIC] [TIFF OMITTED] T7812.064
    
    [GRAPHIC] [TIFF OMITTED] T7812.065
    
    [GRAPHIC] [TIFF OMITTED] T7812.066
    
    [GRAPHIC] [TIFF OMITTED] T7812.067
    
    [GRAPHIC] [TIFF OMITTED] T7812.068
    
    [GRAPHIC] [TIFF OMITTED] T7812.069
    
    [GRAPHIC] [TIFF OMITTED] T7812.070
    
    [GRAPHIC] [TIFF OMITTED] T7812.071
    
    [GRAPHIC] [TIFF OMITTED] T7812.072
    
    [GRAPHIC] [TIFF OMITTED] T7812.073
    
    [GRAPHIC] [TIFF OMITTED] T7812.074
    
    [GRAPHIC] [TIFF OMITTED] T7812.075
    
    [GRAPHIC] [TIFF OMITTED] T7812.076
    
    [GRAPHIC] [TIFF OMITTED] T7812.077
    
    [GRAPHIC] [TIFF OMITTED] T7812.078
    
    [GRAPHIC] [TIFF OMITTED] T7812.079
    
    [GRAPHIC] [TIFF OMITTED] T7812.080
    
    [GRAPHIC] [TIFF OMITTED] T7812.081
    
    [GRAPHIC] [TIFF OMITTED] T7812.082
    
    [GRAPHIC] [TIFF OMITTED] T7812.083
    
    [GRAPHIC] [TIFF OMITTED] T7812.084
    
    [GRAPHIC] [TIFF OMITTED] T7812.085
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                              June 6, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7812.086
    
    [GRAPHIC] [TIFF OMITTED] T7812.087
    
    [GRAPHIC] [TIFF OMITTED] T7812.088
    
    [GRAPHIC] [TIFF OMITTED] T7812.089
    
    [GRAPHIC] [TIFF OMITTED] T7812.090
    
    [GRAPHIC] [TIFF OMITTED] T7812.091
    
    [GRAPHIC] [TIFF OMITTED] T7812.092
    
    [GRAPHIC] [TIFF OMITTED] T7812.093
    
    [GRAPHIC] [TIFF OMITTED] T7812.094
    
    [GRAPHIC] [TIFF OMITTED] T7812.095
    
    [GRAPHIC] [TIFF OMITTED] T7812.096
    
    [GRAPHIC] [TIFF OMITTED] T7812.097
    
    [GRAPHIC] [TIFF OMITTED] T7812.098
    
    [GRAPHIC] [TIFF OMITTED] T7812.099
    
    [GRAPHIC] [TIFF OMITTED] T7812.100
    
    [GRAPHIC] [TIFF OMITTED] T7812.101
    
    [GRAPHIC] [TIFF OMITTED] T7812.102
    
    [GRAPHIC] [TIFF OMITTED] T7812.103
    
    [GRAPHIC] [TIFF OMITTED] T7812.104
    
    [GRAPHIC] [TIFF OMITTED] T7812.105
    
    [GRAPHIC] [TIFF OMITTED] T7812.106
    
    [GRAPHIC] [TIFF OMITTED] T7812.107
    
    [GRAPHIC] [TIFF OMITTED] T7812.108
    
    [GRAPHIC] [TIFF OMITTED] T7812.109
    
    [GRAPHIC] [TIFF OMITTED] T7812.110
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                              June 6, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SKELTON

    The Chairman. The Army indicates you personally observed each test 
conducted on Dragon Skin in May of 2006. Do you agree with this 
statement?

        i.  In your opinion, did the Army's tests from May of 2006 
        violate testing protocol? In what way and did you raise your 
        issues during the tests? If not, why not?
    Mr. Neal. Yes. Yes the testing conducted by the Army did violate 
testing protocol.
    On the first day I did start out in disagreement when both Karl 
Masters the Test Director and James Zheng from Natick, who was 
conducting the tests could not even define a ``Hard Edge'' to the 
flexible system, and could not understand the overlap configurations or 
how to define the areal densities of the flexible armor system.
    On the second day I did complain about James Zheng taking R&D shots 
and deviating from the test protocol and procedures, especially by 
shooting into an area that did not have rifle defeating discs in place 
and then shooting discs by themselves. That was the time when James and 
Karl began a heated argument on the testing procedures and the Karl 
threw down his clipboard and told James Zheng that he would be 
responsible for the testing that he was conducting and walked out of 
the range. I also complained about not being able to view all of the 
events such as the post x-rays, etc.
    The Chairman. When and how did Pinnacle receive notice of 
compliance with NIJ Level 3 performance for SOV2000.1/MIL3AF01?
    Mr. Neal. That was received via Email on December 20, 2006 three 
months after passing the ballistic testing on September 19, 2006. The 
first test to validate the protocol and procedures, shot requirements 
and obliquity shots for the NIJ to adopt a flexible armor system 
protocol did not even take place until August 3, 2006. Please see 
documents #3, 4, & 5. [The information referred to is retained in the 
committee files and can be viewed upon request.]
    The Chairman. When did Pinnacle Armor first contact NIJ about 
submitting any Dragon Skin product for Level III or Level IV compliance 
testing?
    Mr. Neal. I started this process for a flexible rifle certification 
with NIJ back in February of 2002.
    The Chairman. NIJ revised its Level III and Level IV testing 
protocols to test for the unique failure modes that are possible with 
flexible armor systems such as Dragon Skin, which are composed of 
overlapping ceramic disks. Do you think that these revisions were 
reasonable?
    Mr. Neal. Yes, as it will fit multiple designs for various overlap 
conditions.
    The Chairman. Has any Dragon Skin product been tested for 
compliance with the NIJ level 4 performance? Did any pass?
    Mr. Neal. No, not yet. We are preparing for the side-by-side FAT 
test first and foremost, as you had requested during the hearing.
    The Chairman. Have you made any improvements to the Dragon Skin SOV 
level 3000 vest since the Army's tests from May of 2006? If so, what 
were they and did you notify the Army of these improvements?
    Mr. Neal. We improved the QC process for us as well as the adhesive 
laminator on the application process of the adhesives to the aramid 
textiles to preclude a gap in the adhesive. As I testified they now 
produce a 1"/25mm overlap at the joint rather than a butt joint. 
Additionally, they mark the joint locations on each side of the roll 
for easy visual inspection as the material is rolled off of the main 
roll. Yes, the Army was notified of the changes that were decided on by 
the laminating company and myself before the end of the test. I told 
Karl Masters the Test Director, personally.
    The Chairman. If another round of comprehensive first article tests 
were mandated how quickly could you provide the necessary 30 test 
articles?
    Mr. Neal. We are currently manufacturing the vests and they will be 
ready by the first week of August 2007.
    The Chairman. Has Pinnacle chosen to compete in any of the Army's 
recent competitions or solicitations for body armor? If not, why?
    Mr. Neal. Yes. You will also see in the documents package provided 
at the hearing six from the last year that we attempted to compete in, 
despite the allegations of the Army.
    [The information referred to is retained in the committee files and 
can be viewed upon request.]
    The Chairman. Please detail for the committee your concerns of the 
Army's May 06 tests? For example do you believe they calculated the 
comparison of areal density accurately?
    Mr. Neal. No. The Army did not calculate it correctly at all. I 
tried to explain this during the hearing but it seemed as if no one 
tried to understand the differences. In fact, he weight vs.ballistic 
performance are so light that the Army classified it ``SECRET'' due to 
its mass efficiency as per the Security Classification Guide at the 
U.S. Army Research Laboratory.
    The document package from the hearing also has the data to refute 
it. The XL vest that the Army showed you had 5.6 square feet of rifle 
defeating coverage. The Interceptor that they showed had 2.8 square 
feet of rifle defeating coverage. That is not an ``apples-to-apples'' 
comparison. The Dragon Skin<Register> vest had twice the amount of 
rifle defeating coverage. If you double the weight of the Army's 28 
pound vest you will then see the real difference. By the way, the 
actual weights of every vest as weighed and written down by the Army is 
also in the documents package. You can validate the weights by the 
serial number on the vest. It weighs less than what the scale showed, 
and that is their document.
    The additional concerns were the R&D shoots taken during the FAT 
test. This was to be a First Article test and the protocols and 
procedures should not have been deviated from. They could have 
conducted their R&D subsequent to the testing, to help them understand 
the system.
    [The information referred to is retained in the committee files and 
can be viewed upon request.]
    The Chairman. Why does it appear that there are varying results of 
Dragon Skin (Flexible Body Armor) when tested at different facilities?
    Mr. Neal. That is a concern not only of our company but others as 
well. The only place and testing control where the Dragon 
Skin<Register> seems to fail is where the FAT test was conducted, and 
under the Army's testing control. We have tested it for numerous 
federal, state and local agencies with them doing the testing without 
failures.
    For the record, I do have a 620+ page classified ``SECRET'' report 
that validates the data on the level 4 and 5 Dragon Skin<Register> body 
armor system, if you have someone with the clearance capability to 
receive it. It proves what I attempted to explain about the holes in 
the clay and the x-rays discrepancies that the Army told to Mr. Duncan 
Hunter and specifically defines the flexible armor and it attributes, 
especially its capabilities to defeat IED threats, substantially higher 
than the current armor systems issued today. All of the testing was 
conducted at the U.S. Army Test Laboratory and ATC in Aberdeen 
Maryland.
    The Chairman. Did you personally observe the NBC News ballistic 
tests conducted in Germany? How did the tests in Germany compare to the 
tests that you observed at HP White test facility? What test protocol 
was followed for the tests conducted in Germany?
    Mr. Neal. Yes, I personally attended and hand carried the body 
armor to be tested. The tests were extremely strict and a substantial 
amount of precedence was set to insure that no deviations or deviation 
from the protocol would happen, as they were video recorded the entire 
time by multiple camera personnel.
    The projectiles shot and their velocities were from the ESAPI 
specification except the level 5 rounds that are not covered by that 
specification, which are much more difficult to stop. The total number 
of shots was set to the NIJ requirement of 6 rounds. The first three 
shots were to the ESAPI spacing requirements.
    The Chairman. Was the model of Dragon Skin vest used by NBC News 
the same model used by the Army in May of 2006? Describe any 
differences such as weight, area of rifle-defeating armor coverage, 
level of protection, and configuration.
    Mr. Neal. Yes. The only difference was that I supplied a 10"x12" 
dimensioned panel to be the same size as the 10"x12" ESAPI green 
colored plates that were provided by Mr. Magee.
    The Chairman. Please describe your involvement and timeline with 
the NBC testing of Dragon skin. Did NBC contact you?
    Mr. Neal. My involvement with NBC was for them to interview me 
regarding the Dragon Skin<Register> body armor, how well it defeats the 
threats and to provide a vest to do a side-by-side limited test. Yes, 
they contacted me.
    The Chairman. Why do you think NBC chose to use a German test 
facility instead of one of the two NIJ certified laboratories here in 
the United States?
    Mr. Neal. I do not know that information. You would have to ask NBC 
that.
    The Chairman. The Army indicates an SOV 3000 vest size XL weighs 
47.5 lbs. Do you agree with this statement?
    Mr. Neal. No absolutely not. I tried to explain this during the 
hearing but it seemed as if no one tried to understand the differences. 
The weight vs. ballistic performance are so light that the Army 
classified it ``SECRET'' due to its mass efficiency as per the Security 
Classification Guide.
    The document package from the hearing also has the data to refute 
it. The XL vest that the Army showed you had 5.6 square feet of rifle 
coverage. The Interceptor that they showed had 2.8 square feet of 
coverage. That is not an ``apples-to-apples'' comparison. The Dragon 
Skin<Register> vest had twice the amount of rifle defeating coverage. 
If you double the weight of the Army's 28 pound vest you will then see 
the real difference. By the way, the actual weights of every vest as 
weighed and written down by the Army is also in the documents package. 
You can validate the weights by the serial number on the vest. It 
weighs less than what the scale showed, and that is their document.
    That is only part of the issue. The Dragon Skin<Register> body 
armor system can vary in weights depending upon the amount of rifle 
defeating coverage a user wants. That is the great element, in that 
this is the first body armor system available for the military that can 
truly be tailored for mission specific requirements and fit both male 
and females to the 97 percentile, these capabilities cannot be done 
with current plated body armor technologies.
    The Chairman. The Army also indicates an SOV 3000 vest size XL is 
comparable to an IBA ESAPI size large. Do you agree with this 
comparison?
    Mr. Neal. No, I do not. Again, you have no way of knowing what 
coverage option of the Dragon Skin<Register> body armor that could be 
compared. Just as there are various sizes of vests the Dragon 
Skins<Register> flexible body armor provides numerous high powered 
rifle defeating coverage options for each size of vest.
    The Chairman. The Air Force stated it is pursuing debarment action 
against your company. Have you been notified of this action? Do you 
plan to appeal if the Air Force debarment action is approved?
    Mr. Neal. We have been officially notified as of July 5, 2007. Yes.
    The Chairman. How many Department of Defense (DOD) body armor 
contracts has your company been awarded since 2001? How many Dragon 
Skin vests were sold to DOD organizations and/or other government 
agencies (not individuals in DOD) under those contracts? Are you 
presently under contract with DOD for body armor? Would you require 
relief from those contracts in order to provide the necessary 30 test 
articles for another round of performance tests?
    Mr. Neal. [The information referred to was not available at the 
time of printing.]
    The Chairman. If the Army were to conduct another round of first 
article tests how would you prefer to see those tests carried out?
    Mr. Neal. I would like to see an independent third party test as 
you have requested (side-by-side) for the First Article Test (FAT) with 
OSD and DOT&E oversight. This could be conducted at ATC as they have 
those oversight personnel currently in place and the equipment to 
conduct the testing. I would like to attend as an observer only. This 
should be conducted without any direct control of the Army and only by 
the ATC personnel. When the testing is completed you will see that the 
Dragon Skin<Register> body armor system is truly ready for use within 
the military, and provides substantial trauma reduction in addition to 
the other 9 attributes of the system. Please see Document #6.
    [The information referred to is retained in the committee files and 
can be viewed upon request.]
    The Chairman. Do you feel the body armor your service is procuring 
to meet your operational requirements is the best available? Why? How 
did you reach that decision?
    General Thompson and General Brown. Yes, the body armor provided to 
Soldiers today meets operational requirements and is proven both in 
rigorous testing and in combat to be the best body armor in the world. 
Since the inception of the U.S. Army's Body Armor program, the 
commercial marketplace has been afforded the opportunity, through full 
and open competition, to demonstrate their body armor products to the 
U.S. Army. Extensive testing of all body armor products provided to the 
Army has shown there is nothing more effective on the market today than 
the Army's Interceptor Body Armor.
    The Chairman. What is your opinion of the body armor test and 
evaluation procedures utilized today? What assurances can you give that 
they are open, fair, and effective?
    General Thompson and General Brown. All body armor testing is 
conducted at an independent National Institute of Justice (NIJ) 
certified ballistic laboratory to ensure there is no perception of bias 
in evaluation. NIJ laboratories follow stringent ballistic test 
guidelines that are recognized throughout the body armor industry and 
the government as fair and effective. Additionally on April 26, 2007 
the Government Accountability Office published their report titled, 
``Defense Logistics: Army and Marine Corps's Individual Body Armor 
System Issues,'' which stated that ``The Army and Marine Corps have 
controls in place during manufacturing and after fielding to assure 
that body armor meets requirements. Both services conduct quality and 
ballistic testing prior to fielding and lots are rejected if the 
standards are not met. They both also conduct formal testing on every 
lot of body armor (vests and protective inserts) prior to acceptance 
and issuance to troops.''
    The Chairman. What is your service's current safety of use policy 
with regard to operationally deployed forces using non-mil-spec, 
privately procured body armor? When did you make this decision? a. 
Please explain the rationale behind this decision?
    General Thompson and General Brown. The U.S. Army has a current 
Safety of Use Message (SOUM) dated March 17, 2006 specifying that 
Soldiers are only authorized to wear Interceptor Body Armor (IBA). The 
rationale for the SOUM is based on a series of tests conducted on 
commercial body armor that failed to meet U.S. Army ballistic and 
weight requirements. Therefore, the decision to publish the SOUM was to 
inform Soldiers that commercial body armor products, not certified by 
the U.S. Army, are unsafe and could cause death or serious injury.
    The Chairman. What are your body armor requirements? When do you 
expect to meet these requirements?
    General Thompson and General Brown. Current requirements are for 
966,000 sets of IBA. The Army expects to meet the requirement for 
Enhanced/Small Arms Protective Inserts by September 2008.
    The Chairman. Please list all the qualified vendors that supply 
your service with body armor, by body armor component, to your branch 
of service.
    General Thompson and General Brown. U.S. Army Body Armor Suppliers:

    Improved Outer Tactical Vest (IOTV) & Deltoid Axillary Protector 
(DAP)

    Point Blank Body Armor (Deerfield Beach, FL)
    Specialty Defense Systems (Dunmore, PA)

    Enhanced Small Arms Protective Insert (ESAPI)

    Ceradyne (Costa Mesa, CA)
    BAE (Formally CERCOM - Vista, CA)
    Simula (Phoenix, AZ)
    Armor Works (Tempe, AZ)
    Protective Materials (Miami Lakes, FL)
    Armacell - (Camarillo, CA)

    Enhanced Side Ballistic Inserts

    Ceradyne (Costa Mesa, CA)
    Armor Works (Tempe, AZ)

    The Chairman. How critical is the weight requirement for the 
overall body armor system?
    General Thompson and General Brown. The entire IBA ensemble weighs 
31 pounds for size medium. The weight requirement is absolutely 
critical to the overall body armor requirement. The current weight of a 
Core Soldier today is approximately 75 pounds. Doctrinally, a Core 
Soldier weight should be less then 60 pounds. The Soldier's load, both 
weight and cube, must not degrade the mobility of the dismounted 
Soldier and the momentum of small unit operations in close combat in 
close, complex terrain. The dismounted Soldier will maneuver through 
upper floor windows, underground sewers, holes in walls, over walls, 
and over rubble in all environments. He will have to roll left and 
right and then sprint three to five seconds through varied terrain to 
the next covered and concealed position while under hostile enemy fire. 
The Soldier and small unit need the mobility to pursue and defeat a 
fleeting enemy in complex terrain. Reducing the collective weight of 
items carried by the Soldier improves his mobility and survivability in 
difficult terrain. Any increase in weight will reduce the Soldier's 
mobility, survivability, and may negatively impact mission 
accomplishment (e.g. capture of a fleeing high value target). Secondary 
effects of increased weight are a reduction in Soldier endurance, 
increased susceptibility to heat injury, and potential hindrance of 
buddy evacuation of wounded Soldiers. As a result, the Army is 
continuously working to reduce the weight carried by the Soldiers.
    The Chairman. Please explain the Army's history with the Pinnacle 
Dragon Skin body armor system.
    General Thompson and General Brown. Below is a summary of the 
Army's history with Pinnacle Dragon Skin body armor:


                         Developmental Efforts:

               Test Date    Agency/Test
                               Site                   R&D

               -  Jan     ARL - Aberdeen  Flexible Armor
                2001-      Test Center
                 Jan      (Phase 1)       Evaluation (Small
                2003
                                          Business Initiative
                 July     ARL - Aberdeen  Research) Contract
                2003-      Test Center
                 July     (Phase 2)       with the Army
                2006


    The information below shows testing at H.P. White an independent 
NIJ certified test facility and at the Army Test and Evaluation 
Command, Aberdeen Test Center:


                                                                                       Result

                       -  May 2004           Army/HP White             Failed
                       -  Sep 2005           Marine Corps/HP White     Failed
                       -  Dec 2005           Army/Aberdeen Test        Inconclusive
                                              Center
                       -  Jan 2006           Army/HP White             Failed
                       -  Feb 2006           Air Force/Aberdeen Test   Failed
                                              Center



    The U.S. Army issued a Safety of Use Message (SOUM) dated March 17, 
2006 specifying that Soldiers are only authorized to wear Interceptor 
Body Armor (IBA). The decision to publish the SOUM was to inform 
Soldiers that commercial body armor products, not certified by the U.S. 
Army, are unsafe and could cause death or serious injury.
    The Chairman. Are you going to conduct another first article test 
on the Pinnacle Dragon Skin system? What if Dragon Skin passes 
ballistic testing? Would you allow Soldiers to wear Dragon Skin? If no, 
why?
    General Thompson and General Brown. The U.S. Army has a current 
body armor solicitation, number W91CRB07R0041, posted on Federal 
Business Opportunities (FedBizOpps) May 27, 2007 with a closing date of 
July 27, 2007. If Pinnacle Armor submits a proposal and the requisite 
number of Preliminary Design Models (PDMs), the U.S. Army will conduct 
first article test protocols of Dragon Skin during source selection. If 
Pinnacle Armor Dragon Skin is selected for contract award, a first 
article test will be conducted. While ballistic testing is important, 
any body armor system must meet all Army requirements, to include 
weight, area coverage, modularity, etc. The decision to allow Soldiers 
to wear Dragon Skin is not based on ballistics alone. The weight 
requirement is absolutely critical to the overall body armor 
requirement. The Soldier's load, both weight and cube, must not degrade 
the mobility of the dismounted Soldier and the momentum of small unit 
operations in close combat in close, complex terrain. Any increase in 
weight will reduce the Soldier's mobility and endurance while 
simultaneously increasing their risk of becoming a heat casualty. 
Additionally, the modularity of today's IBA affords the Commander on 
the ground the ability to determine configuration based on mission 
requirements.
    The Chairman. Has NBC News provided the Army with their official 
test results? Did the Army confirm that the IBA system used in the NBC 
News test was a product representative of current body armor?
    General Thompson. Lisa Myers (NBC correspondent) told Brigadier 
General Brown she would provide the government with NBC's test results 
during her May 8, 2007 interview. To date, NBC has not provided the 
test results. The U.S. Army has not been able to determine how 
ballistic plates ended up in Germany or been able to confirm that the 
plates used in the NBC news report were representative of the current 
Interceptor Body Armor.
    The Chairman. Are you aware of any request made by NBC to any 
individual in the DOD for a qualified IBA test article?
    General Thompson. The U.S. Army is not aware of any such request.
    The Chairman. Do you use the same test standards and protocols for 
all body armor vendors?
    General Thompson. Yes, by performance specification.
    The Chairman.  How often have you had full and open competitions or 
solicitations for body armor? How many vendors usually participate in 
these competitions? How many vendors are currently used to produce the 
E-SAPI plates?
    General Thompson. The U.S. Army publicly announces body armor 
solicitations to meet U.S. Army requirements. Since the start of 
Operation Iraqi Freedom, the U.S. Army has publicly announced three 
body armor solicitations. The U.S. Army has six contractors currently 
under contract to produce ESAPI plates.
    The Chairman. During the May 2006 tests did you deviate from first 
article test protocol procedures? If so why did you deviate?
    General Thompson. The Army did not deviate from any first article 
test protocol procedure during the May 2006 testing of the Pinnacle 
Armor Dragon Skin SOV 3000.
    The Chairman. Explain how you arrived at the calculation of areal 
density of the two systems tested at H.P. White Laboratories in May 
2006 to show that Dragon Skin is 50% heavier than IBA (12.53 pounds per 
square foot for Dragon Skin versus 8.05 pounds per square foot for 
IBA)?
    General Thompson. There are three subcomponents of the Dragon Skin 
SOV 3000 armor that the Army tested in May 2006 at HP White. These 
subcomponents are shown below:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Army performed the areal density calculation by weighing and 
measuring the area of each of the three layers of the Dragon Skin. The 
weight of each layer was divided by its area to determine the areal 
density of each layer in pounds per square foot (PSF). The three areal 
densities were added together with the areal density of the spall cover 
to determine the areal density of the front and rear armor panels. An 
example calculation for the Dragon Skin SOV 3000 in size large is shown 
below:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    ESAPI areal density is calculated by dividing the weight of each 
size of ESAPI by the area of the respective size plate. The areal 
density of the ESAPI plate alone works out to 7.0 pounds per square 
foot. The areal density of the soft armor of the Outer Tactical Vest is 
nominally 1.05 pounds per square foot. Therefore, the total areal 
density of the complete Interceptor Body Armor package (hard and soft 
armor) equates to 8.05 pounds per square foot and can be compared to 
the complete Dragon Skin armor areal density.
    The Chairman. We understand you just awarded a new contract for an 
improved outer tactical vest. Was this contract awarded under full and 
open competition? How many vendors competed? Did you consider Dragon 
Skin or any other system that was not of a rigid plate standard design?
    General Thompson. No, the Improved Outer Tactical Vest (IOTV) 
contract was awarded on a sole source basis to meet urgent and 
compelling requirements of the theater commander. The contract was 
awarded to two vendors. The IOTV has three primary improvements: a 
quick release, less weight and more area coverage. Dragon Skin could 
not fulfill the role of the IOTV, because the IOTV is a body armor 
carrier only. Dragon Skin is an integrated carrier/plate system that is 
not modular. Dragon Skin significantly weighs more than IBA. If the 
U.S. Army determines that there is an additional requirement for IOTV, 
beyond the theater need, a full and open competition will occur.
    The Chairman. How do you encourage the development of next 
generation body armor by the industrial and R&D communities and what is 
the Army's process for evaluating these potential advances?
    General Thompson. As with all systems, to include the next 
generation body armor, the U.S. Army continually collaborates with the 
industrial base for technology to meet U.S. Army requirements. In the 
area of body armor, the U.S. Army encourages industry with the 
opportunities to show and demonstrate their products. For example, the 
U.S. Army sponsors open industry days and holds Soldier Protection 
Demonstrations to allow industrial base vendors to demonstrate their 
body armor products. The U.S. Army also has a program called the 
Soldier Enhancement Program (SEP) on the PEO Soldier public web site 
for any vendor to post ideas for subsequent evaluation by U.S. Army 
subject matter experts. Additionally, the U.S. Army has research and 
development funds programmed in the Program Objective Memorandum (POM) 
to fund future developments of the next generation body armor.
    The Chairman. Isn't ESAPI export controlled? How did ESAPI plates 
end up in a German test lab?
    General Thompson. Yes, ESAPI is export controlled. To our 
knowledge, armor plates supplied to NBC for their tests in Germany were 
not provided by one of the current or past ballistic plate suppliers to 
the U.S. Army or by the U.S. Army.
    The Chairman. We understand that the Army has been interested in 
flexible armor systems for several years and has supported the 
development of Pinnacle Armor Dragon Skin technology through the Small 
Business Innovation Research program with the Army Research Laboratory. 
Please summarize this program.
    General Thompson. USA Armoring (since renamed to Pinnacle Armor) 
was awarded a $120,000 Phase I Small Business Innovation Research 
(SBIR) contract with a period of performance from January 10, 2001 to 
January 12, 2003. The overall objective of the Phase I effort was to 
develop a flexible, lighter, thinner body armor capable of defeating 
multiple and repeated high power rifle threats. Upon successful 
completion of the Phase I effort, USA Armoring was awarded a 
$717,479.55 Phase II contract with a period of performance from July 7, 
2003 to July 6, 2006. The overall objective of the Phase II effort was 
to develop flexible body armor that was capable of providing National 
Institute of Justice Level IV protection.
    The Chairman. On page 8 of the recent XSAPI/ESAPI product 
description, section 3.9.1 Area of Coverage indicates that ``. . . any 
cuts with open gap and/or slits on any materials used in XSAPI are not 
allowed.'' Does this statement preclude vendors who may submit flexible 
armor designs or mosaic tile designs from competing in this 
solicitation?
    General Thompson. No. This restriction applies only to a specific 
type of technology used with hard ceramic inserts. Gaps or slits in the 
ceramic tile are not allowed under the referenced paragraph. Flexible 
designs will be submitted under the Flexible Small Arms Protective Vest 
purchase description, not under the XSAPI/ESAPI purchase description, 
so the statement contained in paragraph 3.9.1 does not apply to 
flexible armor designs. Rigid mosaic tile designs may be submitted 
under the ESAPI or XSAPI portion of the solicitation.
    The Chairman. Do you feel the body armor your service is procuring 
to meet your operational requirements is the best available? Why? How 
did you reach that decision?
    Colonel Smith. The body armor the United States Navy is procuring 
to meet its operational requirements is the very best available. For 
our Naval Expeditionary Combat ground forces attached to Marine Forces 
in theater, the Navy procures the same body armor protection used by 
the Marine Corps. The Navy is procuring the newer Modular tactical 
vests with all of the required ballistic protection as determined by 
the combatant commander. Our maritime forces in theater (such as Naval 
Coastal Warfare and Riverine) use ballistic vests that are designed for 
use in a maritime environment. All of the body armor procured has 
undergone stringent and rigorous testing to provide the maximum 
protection for our sailors in harm's way. The Navy will continue to 
leverage the Army and Marine Corps research and development initiatives 
to ensure that it has the best equipment available.
    The Chairman. What is your opinion of the body armor test and 
evaluation procedures utilized today? What assurances can you give that 
they are open, fair, and effective?
    Colonel Smith. The Department of the Navy's body armor test and 
evaluation procedures utilized today are fair and reasonable 
representatives of what may occur on the battlefield and provide an 
excellent insight of the capabilities of each vest. The services 
identify their requirements and solicit proposals for any and all 
qualified vendors to produce a ballistic vest that would meet their 
requirements. The Department of Justice, with representatives from the 
government, DoD, and industry, conduct the testing of all submitted 
vests and records all of the results. The very best equipment, which 
meets our requirements, is selected and fielded. After fielding and 
deployment, the Department of the Navy conducts additional testing of 
those ballistic vests exposed in theater to measure any potential 
degradation of performance.
    The Chairman. What is your service's current safety of use policy 
with regard to operationally deployed forces using non-mil-spec, 
privately procured body armor? When did you make this decision? a. 
Please explain the rationale behind this decision?
    Colonel Smith. The following excerpt is taken from NAVADMIN 149/07, 
Navy Policy on the Wear and Purchase of Body Armor and Personal 
Protective Equipment (PPE), released June 08, 2007:

    ``INDIVIDUAL SAILORS SHALL NOT USE COMMERCIAL PPE IN LIEU OF 
DEPARTMENT OF DEFENSE TESTED, APPROVED AND ISSUED PPE. COMMANDERS MAY 
AUTHORIZE MEMBERS OF THEIR COMMANDS TO USE COMMERCIALLY PURCHASED PPE 
ITEMS IN ADDITION TO THOSE ISSUED BY THE GOVERNMENT, AS LONG AS 
ADDITIONS DO NOT REPLACE OR INTERFERE WITH THE FUNCTIONALITY OF 
APPROVED PPE.''

    This NAVADMIN reiterated existing Navy policy that has been in 
place for several years. There has been no alteration or change to the 
policy following the NBC News story on Pinnacle Armor's ``Dragon 
Skin.'' However, the controversial story did create the circumstances 
where we felt it was necessary to restate existing policy to protect 
our sailors from substandard equipment.
    The Chairman. What are your body armor requirements? When do you 
expect to meet these requirements?
    Colonel Smith. Operationally, Navy personnel in harm's way are 
completely outfitted with the appropriate body armor authorized for 
their mission as dictated by theater COCOM guidance.
    The Navy acquires body armor for three main mission requirements: 
Navy expeditionary forces, individual augmentees assigned to joint 
forces, and shipboard anti-terrorism.
    Navy expeditionary forces comprise of Naval Construction, airlift 
support, cargo handling, maritime security, Explosive Ordnance 
Disposal, Riverine, and medical/Marine Corps support forces. Navy 
expeditionary forces that operate over land, such as the Seabees and 
EOD forces, require enhanced ballistic and fragmentation protection for 
the torso and extremities. The Naval Construction Force's requirements 
are being met with the procurement and fielding of the Modular Tactical 
Vest throughout the end of July 2007. Naval expeditionary forces that 
operate on the water, such as Naval Coastal Warfare (NCW) and the 
Riverine forces, require a lightweight, Tactical Maritime Body Armor 
System that includes a single pull release mechanism allowing for the 
vest to fall away and the employment of float packs to maintain 
positive buoyancy.
    Individual Augmentees who operate exclusively on land with joint 
forces will continue to use the Outer Tactical Vest (OTV) with level IV 
ballistic protection, as provided by the Army.
    Shipboard Anti-Terrorism personnel require a concealable body armor 
that provides extended level III ballistic coverage of the front, 
sides, and back of the torso. The vest must also be neutrally buoyant 
for enhanced safety during water operations.
    The FY07 Supplemental request included $33M for individual 
protection equipment. This includes not only body armor, but also 
helmets, ballistic eyewear, protective clothing, etc. The body armor 
portion was $15M to include initial outfitting for Riverine forces with 
the Tactical Maritime Body Armor System, and outfitting Naval 
Construction Forces scheduled to deploy in September with Modular 
Tactical Vests.
    The Navy has requested additional body armor with the FY08 budget 
request to continue supporting body armor upgrades and refurbishment. 
The body armor requirement for FY08 is still under review and will 
evolve as a result of operational tempo.
    The Chairman. Please list all the qualified vendors that supply 
your service with body armor, by body armor component, to your branch 
of service.
    Colonel Smith. See below:

    OTV

    Specialty Defense (Dunmore, PA)

    MTV

    PPI (Sunrise, FL)

    E-SAPI
    Armor Works (Tempe, AZ)
    ArmorHoldings (Phoenix, AZ)
    Ceradyne (Costa Mesa, CA)

    Side SAPI

    Integrator - Source One (Wellington, FL)
    Carrier - MED-ENG (Ontario, Canada)
    Carrier - PPI (Sunrise, FL)
    Carrier - Specialty Defense (Dunmore, PA)
    Plate - Ceradyne (Costa Mesa, CA)
    Plate - Diamondback Tactical (Glendale, AZ)
    Plate - Armor Holdings (Phoenix, AZ)
    Plate - Armor Works (Tempe, AZ)
    Plate - ArmorHoldings (Phoenix, AZ)

    QuadGard

    FS Technology (Alexandria, VA)
    CoverCraft (Pauls Valley, OK and Wichita Falls, TX)

    LWH

    Gentex Corp (Simpson, PA)

    Goggles and Spectacles

    ESS Inc. (Sun Valley, ID)

    Combat Ear Plug

    Aearo Company (Indianapolis, IN)

    The Chairman. Do you feel the body armor your service is procuring 
to meet your operational requirements is the best available? Why? How 
did you reach that decision?
    Colonel Smith. I am confident that our current body armor is the 
best available to meet our mission requirements in defeating small arms 
rifle fire threats at an acceptable weight. Maintaining flexibility and 
agility is key to battlefield success. There have been countless 
examples of our body armor saving lives. To date, we have not had any 
deaths due to a complete penetration of the Enhanced Small Arms 
Protective Insert by a threat round it is designed to defeat.
    The Chairman. What is your opinion of the body armor test and 
evaluation procedures utilized today? What assurances can you give that 
they are open, fair, and effective?
    Colonel Smith. Our body armor test protocols are constantly 
evaluated to ensure that they thoroughly and properly test the plates 
in all potential operational environments. The test protocols are made 
available to all manufacturers and most of the manufacturers have a 
representative witnessing ballistic testing at the approved test 
laboratories.
    The Chairman. What is your service's current safety of use policy 
with regard to operationally deployed forces using non-mil-spec, 
privately procured body armor? When did you make this decision? a. 
Please explain the rationale behind this decision?
    Colonel Smith. MARADMIN 262/07, which the Marine Corps published in 
Apr 07, articulates the Marine Corps' policy on the wear and purchase 
of body armor and personal protective equipment (PPE). Purchasing 
additional PPE is not recommended because (1) the Marine Corps is 
providing, at no cost to them, the best PPE available and (2) current 
policy prohibits utilizing commercially purchased PPE in place of 
government tested, approved and issued PPE. While commanders may 
authorize their Marines to wear commercially purchased PPE items in 
addition to their issued PPE, it cannot be done if it interferes with 
functionality. The PPE that the Marine Corps issues has met government 
test standards. In many cases these standards exceed civilian test 
standards (as is the case for body armor). PPE that Marines can 
purchase commercially is not required to meet government test standards 
and therefore does not necessarily provide the same level of protection 
to the Marine.
    The Chairman. What are your body armor requirements? When do you 
expect to meet these requirements?
    Colonel Smith. Our requirement is to provide deploying Marines with 
the best body armor available to protect from ballistic projectiles, 
blast, and fire, while balancing the need to keep the equipment light 
enough to permit Marines to carry out their missions under physical and 
environmentally demanding conditions. In that regard, we have fielded 
the Lightweight Helmet (fragmentation and 9mm ballistic protection, 
3.45 lbs), and the Outer Tactical Vest (OTV) with Enhanced Small Arms 
Protective Inserts (E-SAPI; 7.62 ballistic protection, 5.5 lbs each) 
and Side Small Arms Protective Inserts (Side SAPI; 7.62 ballistic 
protection, 2.5 lbs each) to all Marines who deploy outside the 
continental United States. We have built up stockpiles to ensure that 
Marines are equipped during predeployment training in the same manner 
that they will be when they deploy. We are currently fielding the 
Modular Tactical Vest (MTV) to replace the OTV. The MTV uses the E-SAPI 
and Side SAPI plates but provides improved mobility and better comfort. 
This fielding will continue into the first quarter of FY08, but this 
will not represent the completion of our efforts. While considering the 
ever changing tactical environment, we are constantly conducting 
aggressive research and development to increase protection, increase 
climate consideration, and decrease equipment weight.
    The Chairman. Please list all the qualified vendors that supply 
your service with body armor, by body armor component, to your branch 
of service.
    Colonel Smith. 

    OTV

    Specialty Defense (Dunmore, PA)

    MTV

    PPI (Sunrise, FL)

    E-SAPI
    Armor Works (Tempe, AZ)
    ArmorHoldings (Phoenix, AZ)
    Ceradyne (Costa Mesa, CA)

    Side SAPI

    Integrator - Source One (Wellington, FL)
    Carrier - MED-ENG (Ontario, Canada)
    Carrier - PPI (Sunrise, FL)
    Carrier - Specialty Defense (Dunmore, PA)
    Plate - Ceradyne (Costa Mesa, CA)
    Plate - Diamondback Tactical (Glendale, AZ)
    Plate - Armor Holdings (Phoenix, AZ)
    Plate - Armor Works (Tempe, AZ)
    Plate - ArmorHoldings (Phoenix, AZ)

    QuadGard

    FS Technology (Alexandria, VA)
    CoverCraft (Pauls Valley, OK and Wichita Falls, TX)

    LWH

    Gentex Corp (Simpson, PA)

    Goggles and Spectacles

    ESS Inc. (Sun Valley, ID)

    Combat Ear Plug

    Aearo Company (Indianapolis, IN)

    The Chairman. Do you feel the body armor your service is procuring 
to meet your operational requirements is the best available? Why? How 
did you reach that decision?
    Mr. Thomas. Yes. The Interceptor Vest, with the Enhanced Small Arms 
Protective Inserts (ESAPI), is the AF standard body armor and meets AF 
operational requirements. We rely on the Army Program Executive Office 
(PEO) Soldier for defining the specifications and testing of the ESAPI 
plates. We purchase our Interceptor Vests and ESAPI plates from the 
Defense Logistics Agency as the DoD standard issue item. This standard 
does not apply to AF Battlefield Airmen units (Tactical Air Control 
Party TAC P), Combat Controllers (CCT), Para Rescue (PJ), Combat 
Weather (CW), Explosive Ordnance Disposal (EOD) and Security Forces 
(SF). They are exempt from wearing the Interceptor Vest due to specific 
mission requirements, however their vests use the ESAPI plates for body 
armor.
    AF Special Operations Forces Support Activity (SOFSA) researched 
the available options for their unique mission and selected the Special 
Operations Forces Equipment Advanced Requirements (SPEAR) as their 
choice of tactical vest that also uses the ESAPI plate for armor 
protection.
    The Interceptor Vest consists of two components; the Outer Tactical 
Vest (OTV) and the ESAPI plates. The OTV is made of a Kevlar weave, 
which protects the individual against 9mm rounds and is compatible with 
mission specific attachments, such as the Modular Lightweight Load-
carrying Equipment (MOLLE) and All-purpose Lightweight Individual 
Carrying Equipment (ALICE) systems. In addition, there are two ESAPI 
plates, which are made of boron carbide ceramic and provide protection 
for vital organs. The plates weigh 10.9 pounds each and protect against 
multiple hits of 7.62 armor piercing rounds. In February 2004, after 
researching U.S. Army-tested body armor, the AF Security Forces Center 
accepted the Interceptor as their standard and suitable replacement for 
the dated Personal Armor Systems, Ground Troops (PASGT) flak vest.
    EOD has identified a need for enhancements to the existing 
Interceptor, for Battlefield Airmen, to meet the demands of the 
numerous joint-sourced taskings. Their research has found that the Army 
Program Executive Office (PEO) Soldier is currently fielding new body 
armor to US Army forces called the Improved Outer Tactical Vest (IOTV). 
The IOTV is 3 pounds lighter than the AF standard body armor, offers an 
overhead opening; an internal waistband, providing a snug fit moving 
much of the weight from the shoulders to your waist; a single stage 
quick release for immediate doffing; a higher cut in the under arms to 
reduce the need for the Deltoid Auxiliary Protective System (DAPS); and 
can accommodate longer sizes.
    The Chairman. What is your opinion of the body armor test and 
evaluation procedures utilized today? What assurances can you give that 
they are open, fair, and effective?
    Mr. Thomas. The procedures currently utilized for testing and 
evaluating individual body armor are both thorough and effective in 
providing the best technology to the warfighter. It is important to 
note that military requirements are more robust than those to which 
commercial law enforcement body armor is designed and certified. A 
description of the performance required by the military to be 
considered successful is included in the Purchase Description (PD) for 
each article to include the Small Arms Protective Insert (SAPI), 
Enhanced Small Arms Protective Insert (ESAPI), and Outer Tactical Vest 
(OTV). The PD fully describes the performance test requirements and 
threats each sample will be tested against. In addition, the PD 
describes the tests that need to be completed for both First Article 
Testing (FAT) and Lot Acceptance Testing (LAT).
    The shot pattern for multiple shot testing is stated within the PD. 
There are many limiting factors to what is considered a ``fair'' shot 
for testing purposes, including distance between shots and distance 
from the edge. All testing to include environmental, durability, etc. 
is conducted with samples from the same production lot from each 
competitor. Testing occurs at independent test labs outside of the U.S. 
Army Test Center--these labs are available for testing by any 
competitor. Test results are given to both the company and to the 
Program Executive Office (PEO) Soldier--the Army's body armor 
acquisition authority.
    A competitor cannot receive a contract for production until their 
samples pass the battery of tests included in FAT. After a contract has 
been awarded, each lot produced is subjected to LAT. A number of 
production samples are taken at random to be tested according to the 
LAT stated in each PD. If any test is failed, the lot is rejected by 
the Army. This ensures that failed lots do not make it into the field.
    The Chairman. What is your service's current safety of use policy 
with regard to operationally deployed forces using non-mil-spec, 
privately procured body armor? When did you make this decision? a. 
Please explain the rationale behind this decision?
    Mr. Thomas. The Air Force does not currently handle testing and 
qualification of armor vests. Testing and qualification is done by the 
Program Manager for Soldier Equipment in the Headquarters, Department 
of the Army.
    In general, the Combatant Commander for the deployed Area of 
Responsibility has set policy for ``approved'' armor. The policy 
prohibits the use of non-DoD armor.
    The Air Force purchases armor for the deploying personnel through 
the Defense Logistics Agency using National Stock Number for the US 
Army Interceptor Body Armor. The Army's Program Executive Office, 
Soldier Equipment approves suppliers and updates/upgrades the armor.
    As with all things, there may be exceptions, but the USAF policy is 
to allow use of only the armor approved by the Combatant Command for 
the deployed Area of Responsibility.
    The Chairman. What are your body armor requirements? When do you 
expect to meet these requirements?
    Mr. Thomas. The AF requested $400M to purchase 177K sets of 
standard body armor to meet requirements. The AF Individual Body Armor 
(IBA) Fielding Plan is based on the maximum surge potential for 
contingencies (4 AEFs pairs). To date, the AF has received 163K IBA 
sets valued at $372M. After the FY07 spending is complete, the AF will 
still require 13K sets to complete the AF fielding plan (177K sets). 
The AF will request $28M for the remaining 13K sets in the FY09 
Supplemental funding. When the Service Member's Safety Act of 2006 was 
created, it defined ``complete sets'' as including side armor plates, 
therefore the AF had to request $122M in FY08 GWOT funding to ensure 
compliance. Another requirement of $53M is still needed to replace the 
Desert Camouflage Uniform (DCU) pattern outer tactical vests with the 
Airman Combat Uniform (ACU) pattern. Assuming approval of FY09 
Supplemental funding, the AF expects to meet its requirements upon 
completion of FY09 spending.
    AF Special Operations Command (AFSOC) utilizes the Special 
Operations Forces Equipment Advanced Requirements (SPEAR). Although 
AFSOC has not identified additional requirements for AFSOC Battlefield 
Airmen, shortages encountered for AEF taskings are supported through 
the Expeditionary Theater Distribution Centers (ETDCs). There are 
requirements for 4,042 Small Arms Protective Inserts (SAPI) plates for 
2,021 vests for support personnel. These AFSOC AEF support personnel 
requirements remain unfunded.
    Explosive Ordnance Disposal (EOD) requirements are outlined in the 
Civil Engineering Equipment and Supply Listing for a total of 1,361 
sets. Currently there are no additional fielding requirements at this 
time; however, EOD forces have expressed a desire to blend in better 
with the supported maneuver elements utilizing the Army Combat Uniform 
or ABU tactical patterned gear.
    The Chairman. Please list all the qualified vendors that supply 
your service with body armor, by body armor component, to your branch 
of service.
    Mr. Thomas. The Defense Logistics Agency (DLA) defines ``qualified 
suppliers/vendors'' as contractors from whom DLA has received 
acceptable shipments and who remain actively in business. There are two 
qualified suppliers for the Outer Tactical Vest: Specialty Defense 
System and Point Blank Body Armor; two qualified suppliers for the 
Enhanced Small Arms Protective Inserts (ESAPI): Ceradyne and Simula; 
and three qualified suppliers for the Heavy ESAPI: Ceradyne, Simula and 
Armorworks.
    Because Battlefield Airmen are supplied body armor to meet their 
unique missions, the following has been submitted: AF Special 
Operations Command identifies Special Operations Forces Support 
Activity from Natick Soldier Center, Natick, MA as the preferred vendor 
for the Special Operations Forces Equipment Advanced Requirements. 
Explosive Ordnance Disposal (EOD) technicians identify Paraclete RMV 
019 for their Deltoid Auxiliary Protective System (DAPS) and Point 
Blank Interceptor for Outer Tactical Vests (OTV) with DAPS.
    The Chairman. Did Pinnacle Dragon Skin fail ballistic tests 
commissioned by the Air Force Office of Special Investigations in 
February 2006? Please provide details regarding this situation.
    Mr. Thomas. According to the contract specifications, the Pinnacle 
Armor SOV 2000 Level III ``Plus'' Dragon Skin vests did not fail the 
single Level III threat tested by AFOSI on 16 Feb 06, however, they did 
fail to protect against the threats Pinnacle promised they would 
defeat. It's important to note the 16 Feb 06 test was not a 
standardized and certified NIJ Level III test. The 16 Feb 06 tests were 
performed to reveal the capabilities of Dragon Skin Level III ``Plus'' 
vests discussed verbally and by email correspondence between Pinnacle 
Armor and HQ AFOSI personnel. It failed to protect against those 
threats.
    Based upon the promises made by Pinnacle in the e-mail attached 
below, AFOSI requested the Aberdeen Test Center fire the following 
Level IV rounds into the vests on 16 Feb 06 to confirm Pinnacle's 
claims.

    1.) 7.62 x 54mm 147 GR, (LPS - light-ball ammo w/mild steel core) - 
PENETRATION despite Pinnacle Armor verbal and email correspondence 
assurances it would stop this threat.

    2.) 7.62 x 39mm 120 GR, (BZ - armor piercing incendiary (API)) - 
PENETRATION despite Pinnacle Armor verbal and email correspondence 
assurances it would stop this threat.

    3.) 7.62 x 39 mm 122 GR, (PS - steel case mild steel core) - PASSED 
as advertised on Pinnacle Armor website.

    Two additional Level IV threats that Pinnacle representatives 
stated the SOV 2000 Level III ``Plus'' Dragon Skin Armor could stop 
were not tested. These threats were the SS-109 Green Tip 5.56mm (M-855) 
and 7.62x51mm M-80 ball.
    The Chairman. What is the current position of the Air Force with 
respect to procuring Pinnacle Dragon Skin?
    Mr. Thomas. We can only answer for our organization and not the 
entire Air Force. Due to the test failure during an official NIJ Level 
III test on 13 Jun 06, AFOSI currently does not plan to procure 
Pinnacle Dragon Skin Body Armor. In addition, the Air Force issued a 
debarment notice to Pinnacle Armor on 21 Jun 07. This would preclude 
any government agency from procuring products from Pinnacle Armor 
absent a specific exception.
    The Chairman. Your testimony indicates the Air Force is in the 
process of pursuing official debarment action against Pinnacle Armor, 
Inc. Where in the process is the Air Force?
    Mr. Thomas. Pinnacle Armor, Inc. and two of its officers, Neal 
Murray and Paul Chopra are listed on the General Services 
Administration (GSA) Excluded Parties List System (EPLS). The content 
of the GSA EPLS listing is shown below. EPLS shows all government 
contractors who are debarred from contracting with the federal 
government, or, as in this case, proposed for debarment. SAF/GCR is the 
debarment official who made the decision to propose debarment in this 
case.

                                                   EPLS Record
                                                as of 17-Jul-2007



Name                                        Pinnacle Armor, Inc.
Classification                                              Firm
Exclusion Type                                        Reciprocal
Description                                                 none








Address(es) --

  Address                                  5425 E. Home Ste 104, Fresno, CA,
                                                                       92727
  DUNS                                                             105869213

CT Action(s) --

  Action Date                                                    21-Jun-2007
  Termination Date                                                    Indef.
  CT Code                                                                 A1
  Agency                                                                  AF
  Action Status                                       Modified (02-Jul-2007)








Cross Reference(s) --

    Name                                                  Action Date     Term Date              CT Code
1. Neal Murray                                            20-Jun-2007        Indef.            A1

2. Paul Chopra                                                                Indef            A1



    The Chairman. Has the Air Force sent formal notification of 
debarment action to Pinnacle Armor, Inc?
    Mr. Thomas. Pinnacle Armor, Incorporated, was proposed for 
debarment by the Air Force on June 21, 2007. Pinnacle has not as yet 
provided us with any submission or argument in opposition to the 
proposed debarment, and has not requested a hearing.
    The Chairman. Does the Defense Federal Acquisition Regulations 
System (DFARS) specify a timeline for the Service to make a decision on 
whether or not to proceed with proposed debarment? How long could it 
take before the AF decides on the issue?
    Mr. Thomas. Pinnacle Armor, Incorporated, was proposed for 
debarment by the Air Force on June 21, 2007. Pinnacle has not as yet 
provided us with any submission or argument in opposition to the 
proposed debarment, and has not requested a hearing.
    The Chairman. Do you feel the body armor your service is procuring 
to meet your operational requirements is the best available? Why? How 
did you reach that decision?
    Colonel Noonan. Yes, the Body Armor we procure for Special 
Operations Forces (SOF) is the best armor to meet our SOF-peculiar 
requirements. The SOF Personnel Equipment Advanced Requirements (SPEAR) 
Body Armor/Load Carriage System (BALCS) offers the best optimization 
for our SOF operators for ballistic protection, modularity, 
tailorability for mission, range of motion, weight, and bulk.
    We have been fielding SPEAR BALCS since 1999, with significant 
upgrades in 2001 (ballistic plates), 2003 (vest modularity, weight, 
bulk), and 2006 (Modular Supplemental Armor Protection). We receive 
continuous feedback from our operators on the performance of the BALCS 
systems through quarterly SPEAR Integrated Product Teams (IPTs) 
involving our Service Component Representatives, the U.S. Special 
Operations Command headquarters staff, and the Program Manager. We have 
had numerous occasions to re-test and improve the BALCS systems, based 
on deficiencies noted in combat since 2001 and have taken many 
opportunities to do so in support of SOF operators.
    The Chairman. What is your opinion of the body armor test and 
evaluation procedures utilized today? What assurances can you give that 
they are open, fair, and effective?
    Colonel Noonan. The Special Operations Forces (SOF) test and 
evaluation procedures used today are better than they have ever been, 
especially with the developmental work and improved methodologies 
developed over the past ten years. The ability to discriminate between 
performing and non-performing materials and end items against current 
and emerging ballistic requirements is excellent.
    The ballistic methodologies do not discriminate by type of armor 
technology, size, shape, or system bulk; they objectively determine the 
ability of the specific system being tested to stop a specific type of 
threat projectile in all environmental conditions required by SOF. The 
current standards replicate the worst case scenario seen on the 
battlefield by our Service men and women.
    The Chairman. What is your service's current safety of use policy 
with regard to operationally deployed forces using non-mil-spec, 
privately procured body armor? When did you make this decision? a. 
Please explain the rationale behind this decision?
    Colonel Noonan. The U.S. Special Operations Command (USSOCOM) does 
not authorize individuals to purchase body armor of any type, military 
specifications or otherwise. In accordance with a December 2004 
memorandum, it is USSOCOM command policy that the SOF Personnel 
Equipment Advanced Requirements (SPEAR) Body Armor/Load Carriage System 
(BALCS) components are the only USSOCOM approved body armor components 
for SOF Personnel. In June 2007, that message was amended to allow the 
use of Service provided armor for training.
    The Chairman. What are your body armor requirements? When do you 
expect to meet these requirements?
    Colonel Noonan. The required basis of issue for the standard SOF 
Personnel Equipment Advanced Requirements (SPEAR) Body Armor is 32,507. 
Sufficient funding is in place to meet this requirement by the end of 
Fiscal Year 2008.
    The Chairman. Please list all the qualified vendors that supply 
your service with body armor, by body armor component, to your branch 
of service.
    Colonel Noonan. Tactical Plates (side, front, Modular Supplemental 
Armor Protection) are produced by Ceredyne in Costa Mesa, California. 
The U.S. Special Operations Command (USSOCOM) is in the process of 
conducting a full and open competition for completion of fielding and 
sustainment of the plates. Contract award is anticipated for the second 
quarter of Fiscal Year (FY) 2008.
    Soft Armor Inserts (front and back) and the Low Visibility Body 
Armor Vest are produced by Armor Holdings (Safariland) in Jacksonville, 
Florida and Ontario, California. They currently hold a five year 
Indefinite Delivery/Indefinite Quantity contract.
    The Releasable Body Armor Vest is produced by Eagle Industries in 
Fenton, Missouri. A full and open solicitation will be released in July 
2007 for completion of the fielding and sustainment of the vest. 
Contract award is anticipated for the first Quarter of FY 2008.
    Special Operations Forces Personnel Equipment Advanced Requirements 
(SPEAR) Body Armor Load Carriage System are produced by the National 
Institute of the Severely Handicapped (NISH) (The Resource Center). 
This system's components (harnesses, pockets, and pouches) are 
primarily made by Eagle Industries and packaged by NISH. A full and 
open solicitation will be released in July 2007. Contract award is 
anticipated for the first Quarter of FY 2008.
    The Chairman. From your team's perspective is the current body 
armor issued today effective in addressing current threats in Iraq and 
Afghanistan? On what evidence do you make that conclusion?
    The GAO. In our April 2007 review\1\, we reported that the Army and 
Marine Corps have taken several actions to meet theater inventory and 
ballistic requirements. Army and Marine Corps body armor is currently 
meeting theater ballistic requirements and the required amount needed 
for personnel in theater. Our audit work primarily focused on Army and 
Marine Corps body armor systems for U.S. service members deployed 
within the U.S Central Command (CENTCOM) area of operations, including 
Iraq and Afghanistan. CENTCOM requires that all U.S. military forces 
and all DOD civilians in the area of operations receive the body armor 
system. Currently, service members receive all service-specific 
standard components of the body armor system prior to deploying.
---------------------------------------------------------------------------
    \1\ GAO, Defense Logistics: Army and Marine Corps' Individual Body 
Armor Systems Issues, GAO-07-662R (Washington, D.C.: April 26, 2007)
---------------------------------------------------------------------------
    Our conclusions are based on our audit work conducted between 
November 2006 and March 2007. To determine whether the Army and Marine 
Corps are meeting the theater ballistic and inventory requirements for 
body armor, we reviewed documentation and interviewed officials from 
key DOD, Army, and Marine Corps organizations, such as the Office of 
the Under Secretary of Defense, Acquisition, Technology and Logistics; 
the Defense Logistics Agency; and CENTCOM, which are responsible for 
managing theater ballistic and inventory requirements. We visited the 
Army and Marine Corps body armor program offices to obtain and analyze 
overall development and management of their systems. We analyzed the 
ballistic requirements and compared these requirements to the body 
armor systems provided to personnel. The DOD operations officials and 
the Army and Marine Corps body armor program officials provided us with 
information about both theater requirements and body armor systems 
available worldwide for the Army and the Marine Corps. We analyzed this 
information to determine if the amount of body armor available would 
meet the amounts needed in theater. Their information included the 
quantities of the outer tactical vests and its subparts provided to 
military personnel. We also visited the following sites--Fort Stewart, 
Georgia; Fort Lewis, Washington; the Naval Station and the Amphibious 
Base in Norfolk, Virginia, and the Marine Corps Base in Quantico, 
Virginia. At Fort Stewart and Fort Lewis, we interviewed Army officials 
to determine if body armor was being distributed to service members. To 
determine the inventory/distribution practices for those preparing to 
deploy, we reviewed documentation and interviewed officials at these 
sites in addition to CENTCOM officials. We analyzed the distribution 
practices to assure that personnel were receiving body armor systems 
that met ballistic theater requirements and that these systems were 
available for those preparing to deploy. We also met with DOD Inspector 
General staff who have worked on body armor issues, and obtained and 
reviewed reports they have issued. We selected and analyzed Army 
classified readiness reports from December 2006 to February 2007 and 
two months of Marine Corps reports from December 2006 to January 2007 
for deploying and deployed combat units. Our analysis was to determine 
whether commanders were reporting problems with body armor, such as 
shortages, or whether the Army identified it as a critical item 
affecting readiness.
    The Chairman. To what extent does the Department of Defense's 
bureaucracy foster an environment in the research and development 
community that values development over research? Is there a way to re-
structure the Department of Defense's research and development 
community so that more emphasis is placed on research?
    The GAO. The scope of our completed work on body armor, issued last 
April, did not address these issues, and, thus, we are not in a 
position to answer this question at this time.
    The Chairman. The Government solicits proposals from potential 
offerors through issuance of a solicitation. Can you please explain why 
the Request for Proposal in dealing with body armour was strictly 
narrowed as to disqualify flexible vests? To your knowledge did 
Research and Development tests distort or contaminate the first article 
test?
    The GAO. As with the previous question, the scope of our completed 
work on body armor, did not address these issues, and, thus, we are not 
in a position to answer this question at this time.
    The Chairman. Please describe how you classify body armor 
protection levels? When was your criteria established? Are you in the 
process of updating these criteria? If so, will it include 
environmental considerations?
    Dr. Morgan. The threat levels as identified in the National 
Institute of Justice (NIJ) Standard were originally established 
following a reiew of the statistics concerning weapons confiscated 
nationwide during the period from 1964 to 1974. The criteria are 
periodically updated to account for changes in threats faced by law 
enforcement officers as identified in the ongoing review of ammunition 
threats conducted by the Office of Law Enforcement Standards (OLES) at 
the National Institute of Standards and Technology (NIST), a review of 
the Federal Bureau of Investigation (FBI) Uniform Crime Reports (UCR) 
Law Enforcement Officers Killed and Assaulted (LEOKA) data, and input 
from the law enforcement community concerning emerging threats. 
Specific information on the six threat levels is detailed in the 
standard itself, which can be accessed at http://www.nlectc.org/
pdffiles/0101.04RevA.pdf.
    NIJ is currently in the process of revising these criteria. This 
next revision to the NIJ Standard will include modifications to the 
existing threat levels and will also include peerformance requirements 
for armor that has been subjected to environmental conditioning.
    The Chairman. How many different U.S. standards exist that govern 
the performance and effectiveness of body armor products?
    Dr. Morgan. Most law enforcement agencies in the United States 
require that the armor they purchase meet the current NIJ standard (NIJ 
2005 Interim Requirements for Bullet Resistant Body Armor), which is 
the only U.S. standard widely recognized and used for commercial body 
armor. The Bulletproof Vest Partnership Program (BVP), through the 
Office of Justice Programs' (OJP) Bureau of Justice Assistance, 
provides funding of up to 50 percent of each vest purchased or replaced 
by certain law enforcement applicants, but only vests that comply with 
the NIJ Standard may be purchased with BVP Program funds. However, 
there is no federal law requiring body armor to meet the NIJ standard.
    There are other body armor standards or specifications in use: The 
FBI has a body armor test protocol that requires body armor to meet the 
NIJ standard, but also includes several additional requirements to meet 
the special needs of the FBI. Other federal agencies may specify the 
NIJ standard and then tailor additional requirements to their needs. 
The Department of Defense (DOD) relies on its own test methods and 
specifications to accept or reject body armor models. Additionally, 
some other ballistic resistance standards exist in the U.S., but they 
tend to be focused on other types of equipment, not body armor. For 
example, ASTM International. ASTM F-1233, Test Method for Security 
Glazing Materials and Systems; and Underwriters Laboratories UL 752--
Standard for Bullet-Resisting Equipment.
    The Chairman. What is the process by which a supplier obtains NIJ 
certification for a body armor product?
    Dr. Morgan. Currently, the testing of models of body armor to 
determine compliance with the NIJ 2005 Interim Requirements for Bullet-
Resistant Body Armor (which modify and supplement NIJ Standard 
0101.04--Ballistic Resistance of Personal Body Armor) is conducted at 
the manufacturer's expense. Manufacturers negotiate test contracts 
directly with NIJ-approved test laboratories. Once a test contract has 
been established between the manufacturer and the laboratory, the 
manufacturer submits the required number of samples (six for threat 
levels I, IIA, II, and IIIA, four for Level III and nine for Level IV) 
and the manufacturer's declarations required by the NIJ 2005 Interim 
Requirements for Bullet-Resistant Body Armor to the National Law 
Enforcement and Corrections Technology Center (NLECTC)-National, where 
the samples are logged in and visually inspected for compliance with 
the labeling and workmanship requirements. If NLECTC-National staff 
determine the samples comply with these requirements and all of the 
necessary manufacturer's declarations have been properly executed and 
submitted, the test samples are forwarded to the designated laboratory, 
where they are tested in accordance with the requirements of the 
standard.
    Upon completion of testing, laboratory staff conducts a post-test 
examination of the samples, detailing their findings and the test 
results using an NIJ-approved test report format. The test report and 
the tested samples are then returned to NLECTC-National, where NLECTC-
National staff review the test report and tested samples to ensure the 
accuracy and completeness of the test report and adherence to the 
procedures of the NIJ Standard (e.g., proper shot placement on panels, 
verification of armor construction details, etc.). NLECTC-National then 
prepares the documentation demonstrating successful completion of the 
compliance testing process (i.e., executed manufacturer's declarations, 
test report and any related notes from NLECTC-National's review), and 
forwards this information to NIJ for review. NIJ makes the final 
determination to issue a letter of compliance to the manufacturer for 
the model. If NIJ authorizes the issuance of a compliance letter, they 
direct NLECTC-National staff to prepare the letter and to update the 
online listing of all body armor models that have been tested by NIJ 
and found to comply with the NIJ 2005 Interim Requirements for Bullet-
Resistant Body Armor on the NLECTC-National website, JUSTNET (http://
www.justnet.org). The compliance letter is issued to the manufacturer, 
and the listing of all body armor models that have been tested by NIJ 
and found to comply with the NIJ 2005 Interim Requirements for Bullet 
Resistant Body Armor is updated. NLECTC-National maintains at least one 
complete sample of the item in their secure archives for future 
reference, and returns any remaining samples to the manufacturer.
    The Chairman. What is the process by which an independent 
ballistics test laboratory obtains NIJ certification?
    Dr. Morgan. An independent ballistics test laboratory interested in 
obtaining NIJ-approved laboratory status to perform official compliance 
testing in accordance with NIJ Standards must apply in writing to 
NIJ\1\. The applicant laboratory must complete an application form, 
detailing the laboratory's technical and personnel qualifications, and 
demonstrating that they have adequate facilities, qualified technical 
personnel, and the necessary equipment to perform the tests required by 
the standard.
---------------------------------------------------------------------------
    \1\ The current process is described here. As part of NIJ's ongoing 
review of the body armor compliance testing program, NIJ plans to 
require accreditation under the National Voluntary Laboratory 
Accreditation Program as a prerequisite for consideration as an NIJ-
qualified testing laboratory.
---------------------------------------------------------------------------
    The completed application is evaluated by a team consisting of 
representatives of NIJ, NLECTC-National, NIST/OLES, and NIST's National 
Voluntary Laboratory Accreditation Program (NVLAP). Upon completion of 
this review, the laboratory's facilities will undergo an onsite 
inspection by a team consisting of representatives from NIJ, NLECTC-
National, NIST/OLES, and NVLAP. NLECTC-National will schedule a 
mutually agreeable date for the onsite inspection. At the onsite 
inspection, the laboratory is expected to introduce to the inspection 
team all of the key operating personnel, allow for physical inspection 
of the facilities where the compliance testing will be performed, and 
demonstrate a thorough understanding of the test protocol. The 
laboratory must be fully prepared to demonstrate the capability to 
conduct a test in accordance with the NIJ 2005 Interim Requirements for 
Bullet-Resistant Body Armor.
    Upon completion of the demonstration testing, the laboratory 
prepares a test report documenting the results in a format specified by 
NLECTC-National. The test report and armor samples are then submitted 
to NLECTC-National. Upon satisfactory completion of a review of the 
information and test samples submitted by the laboratory, NIJ will 
issue notice of approved status to the NIJ-qualified body armor 
compliance testing laboratory. NIJ-approved status is subject to 
specific terms and conditions, including announced or unannounced 
inspections and biannual renewal.
    After the laboratory completes this process successfully, NLECTC-
National will accept test reports from the laboratory for the purpose 
of issuing letters of compliance to the manufacturer of an armor model 
tested by the NIJ-approved laboratory. The test results from the NIJ-
approved laboratory will also be used to update the listing of all body 
armor models that have been tested by NIJ and found to comply with the 
NIJ 2005 Interim Requirements for Bullet-Resistant Body Armor.
    The Chairman. Has the Army submitted the IBA system for NIJ 
certification?
    Dr. Morgan. The Department of the Army has not submitted the IBA 
system to NIJ for compliance testing. NIJs voluntary compliance testing 
program, operated by NLECTC-National, accepts samples of armor for 
official compliance testing to NIJ Standards from armor manufacturers. 
In general, the Department of Defense relies on its own test methods 
and specifications to accept or reject body armor models.
    The Chairman. Has Pinnacle received an NIJ level III certification? 
An NIJ level IV certification? In your view how would you rate the IBA 
body armor system relative to the NIJ levels?
    Dr. Morgan. One model of Pinnacle Armor (SOV2000.1/MIL3AF01) was on 
the list of body armor models that comply with the NIJ 2005 Interim 
Requirements for Bullet-Resistant Body Armor at Threat Level III. As a 
result of information presented at the House Armed Services Committee 
hearing, NIJ was made aware that this model of armor may not perform as 
expected over its declared warranty period of six years. As a condition 
of meeting the NIJ 2005 Interim Requirements for Bullet-Resistant Body 
Armor, the manufacturer declared that it had data to support its 
certification that the body armor would maintain its ballistic 
resistance over the declared warranty period. Pinnacle Armor also 
agreed to provide the information supporting the certification to NIJ 
if requested. NIJ elected to exercise its option to request the 
information. After receiving and reviewing several data package 
submissions from Pinnacle Armor, NIJ determined that the information 
did not satisfactorily address its concerns and the model SOV2000.1/
MIL3AF01 was removed from the list of compliant armor models.
    Also as of July 25, 2007, Pinnacle Armor, Inc. does not have any 
models at Threat Level IV that comply with the NIJ 2005 Interim 
Requirements for Bullet-Resistant Body Armor.
    There are no models currently compliant with the NIJ 2005 Interim 
Requirements for Bullet-Resistant Body Armor that bear the model 
designation ``Interceptor,'' so we cannot comment on whether those 
armors would correspond to a particular threat level. That would only 
be possible after complete testing against the threats specified in the 
standard.
    The Chairman. How many body armor products have been certified at 
NIJ Level III? At NIJ level IV?
    Dr. Morgan. As of July 25, 2007, there are 49 models of ballistic-
resistant armor that comply with the NIJ 2005 Interim Requirements for 
Bullet-Resistant Body Armor at Threat Level III.
    Also as of July 25, 2007, there are 61 models of ballistic-
resistant armor that comply with the NIJ 2005 Interim Requirements for 
Bullet-Resistant Body Armor at Threat Level IV.
    The Chairman. You indicate in your written statement you purchased 
the soft armor and hard armor Interceptor Body Armor system (both hard 
and soft components) for use in the NBC News limited side-by-side tests 
from Protective Products Intl., a subsidiary of the Ceramic Protection 
Company (CPC). To your knowledge is PPI a qualified source and supplier 
of the Interceptor Body Armor system (both hard and soft armor 
components) to any of the military services?
    Colonel Magee. [The information referred to was not available at 
the time of printing.]
    The Chairman. How were you able to by-pass ITAR restrictions for 
the ESAPI hard armor components of the IBA system?
    Colonel Magee. [The information referred to was not available at 
the time of printing.]
    The Chairman. Was the soft armor component used in the NBC News 
limited tests the modular tactical vest now used by the Marine Corps?
    Colonel Magee. [The information referred to was not available at 
the time of printing.]
    The Chairman. In your opinion what was wrong with the first article 
tests conducted by the Army in May 2006? What do you believe would 
account for the differences between the two tests even at ambient 
temperatures?
    Colonel Magee. [The information referred to was not available at 
the time of printing.]
    The Chairman. In your opinion were the tests conducted by NBC News 
in Germany a fair, objective, and comparable test with respect to 
evaluating the ballistic capability of body armor? On what basis do you 
make this evaluation? What protocol was followed to conduct these 
tests?
    Colonel Magee. [The information referred to was not available at 
the time of printing.]
    The Chairman. Do you think the overall weight of the system and 
environmental testing need to be taken into account for operational and 
tactical suitability?
    Colonel Magee. [The information referred to was not available at 
the time of printing.]
    The Chairman. What previous experiences have you had with observing 
body armor test and evaluation protocols and procedures? Are you 
familiar with both NIJ and IBA specifications and test procedures?
    Colonel Magee. [The information referred to was not available at 
the time of printing.]
    The Chairman. Are you aware of why NBC did not acquire Army IBA 
test articles from the Army? If NBC did in fact inquire to the Army and 
the Army declined, who in the Army declined to provide those vests?
    Colonel Magee. [The information referred to was not available at 
the time of printing.]
    The Chairman. What percent of your business is funded by the Army, 
the Department of Defense, and US government agencies respectively?
    Mr. Dunn. [The information referred to was not available at the 
time of printing.]
    The Chairman. Please provide any information you can regarding the 
Protective Products Intl (PPI) ESAPI armor plate first article testing.
    Mr. Dunn. [The information referred to was not available at the 
time of printing.]
    The Chairman. In your opinion please talk about the differences 
between the National Institute of Justice (NIJ) and Department of 
Defense body armor test standards. How would you compare the DOD IBA 
system to an NIJ Level 4 vest?
    Mr. Dunn. [The information referred to was not available at the 
time of printing.]
    The Chairman. Did NBC News try to contact your Laboratory in order 
to run limited side by side ballistic tests on Interceptor Body Armor 
and Pinnacle Armor, Inc ``Dragon Skin'' body armor?
    Mr. Dunn. [The information referred to was not available at the 
time of printing.]
    The Chairman. Did the Army or any other DOD official ever threaten 
any one in your organization regarding the NBC News limited ballistic 
tests?
    Mr. Dunn. [The information referred to was not available at the 
time of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SAXTON

    Mr. Saxton. The question is, how much armor-piercing round coverage 
is there in IBA versus Pinnacle?
    General Brown. Based on testing at an independent National 
Institute of Justice (NIJ) certified ballistic laboratory, Pinnacle 
Armor Dragon Skin will not protect Soldiers against the armor-piercing 
(AP) round threats in Iraq and Afghanistan. The table below shows the 
area coverage of Interceptor Body Armor (IBA) versus SOV 3000 Dragon 
Skin.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                    QUESTIONS SUBMTTED BY MR. SPRATT

    Mr. Spratt. You recently testified that Pinnacle Armor redressed a 
manufacturing anomaly with respect to the production of the Dragon 
Skin<Register> SOV-3000TM armor system, after it was revealed by a 
failure induced during U.S. Army testing of the system in May 2006. You 
described altering your manufacturing process to create overlapping 
seams of adhesive material upon which the armored disks are attached, 
in lieu of a process that abutted separate adhesive components 
together. Did Pinnacle Armor make other changes or modifications to the 
Dragon Skin<Register> SOV-3000TM design since May 2006 that may have 
improved performance of the system as tested by NBC? If so, please 
describe each change or modification and the improvement that it was 
intended to effect.
    Mr. Neal. No. The system has not changed and does not need to.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. When did you determine what flaw in the production 
cycle of your Dragon Skin armor was responsible for this testing 
failure?
    Mr. Neal. It was determined upon inspection during the high heat 
cycle.
    Dr. Snyder. When was this production flaw corrected?
    Mr. Neal. It was corrected within a week of validation by this 
event, and confirmation with the laminator of the actual processing of 
the adhesive application process.
    Dr. Snyder. Have you notified all agencies and individuals of this 
flaw in the product who purchased Dragon Skin body armor produced prior 
to your correction of the production cycle?
    Mr. Neal. There were none at that time as it was a new roll of 
adhesive coated material that was used for this testing, and all other 
subsequent rolls that were on hand were inspected and did not have the 
same issue at the joints. There was only one customer that we had our 
first small roll of level 4 adhesive that we notified as a matter of 
course, but the roll was only a quarter roll and was not long enough 
for a typical joint location.
    Dr. Snyder. Have you conducted a recall of Dragon Skin body armor 
units produced prior to your correction of the production cycle?
    Mr. Neal. No. The vest in possible question were inspected by the 
end-user and found not to have any issues with them. However, they have 
been instructed to send those few back if they should incur any 
changes.
                                 ______
                                 
                   QUESTIONS SUBMTTED BY MS. BORDALLO

    Ms. Bordallo. I am concerned that we spend a lot of money on 
development of products but we do not spend enough on research of new 
technologies that will directly benefit our servicemembers. I am 
wondering if this situation is present in the case about body armor? 
Specifically, how much Science & Technology money in RDT&E lines 6.1, 
6.2, and 6.3 have gone into the research of improved body armor systems 
since 2001?
    General Thompson. The Army is firmly committed to providing the 
best body armor available to our Soldiers and takes great care to 
balance the S&T investment with current and future needs. Since 2001, 
the Army has invested $109.9M in body armor related research. The 
$109.9M is split between 6.1 ($61.8M), 6.2 ($45.3M) and 6.3 ($2.8M) and 
contains funding in the Army's core program and funding added by 
Congress as special interest items. Investments span efforts in 
materials research, armor designs and modeling of both material and 
system performance.
    Ms. Bordallo. Additionally, in your testimony you state that 
additional funding is necessary for research and development. As a 
matter of fact, on page 8 of your testimony you say, ``However, the 
Army is continually evaluating new technology, and additional funding 
for research and development would expedite that work.'' I am concerned 
that we indeed are short changing necessary research for helpful 
products. Can you elaborate on what risk was taken in this portion of 
the FY08 budget and what would be covered with additional funds?
    General Thompson. The U.S. Army's FY08 budget request for R&D 
funding is sufficient for research and development of body armor 
systems.
    Ms. Bordallo. To what extent does the Department of Defense's 
bureaucracy foster an environment in the research and development 
community that values development over research? Is there a way to re-
structure the Department of Defense's research and development 
community so that more emphasis is placed on research?
    General Thompson. [The information referred to was not available at 
the time of printing.]
                                 ______
                                 
                    QUESTIONS SUBMTTED BY MR. FORBES

    Mr. Forbes. If you were present for the testing of Dragon Skin, why 
did you not raise concerns at the time of the test if you believed they 
were being performed unfairly?
    Mr. Neal. The Army was very adamant that I was there at their 
discretion and I was not to be involved in any manner with how the 
testing was to be completed. Therefore, in trying to not ``rock-the-
boat'' I attempted to adhere strictly to their requests, but took notes 
and kept a mental track of the events during the testing.
    On the first day I did start out in disagreement when both Karl 
Masters the Test Director and James Zheng from Natick, who was 
conducting the tests could not even define a ``Hard Edge'' to the 
flexible system, and could not understand the overlap configurations or 
how to define the areal densities of the flexible armor system.
    On the second day I did complain about James Zheng taking R&D shots 
and deviating from the test protocol and procedures, especially by 
shooting into an area that did not have rifle defeating discs in place. 
That was the time when James and Karl began a heated argument on the 
testing procedures and the Karl threw down his clipboard and told James 
Zheng that he would be responsible for the testing that he was 
conducting and walked out of the range. I also complained about not 
being able to view all of the events such as the post x-rays, etc.
    I also did not agree with the termination of the testing as we had 
not failed anything according to protocol and procedures up to that 
point. A third party independent FAT test will show you that the Dragon 
Skin<Register> system is as we have always stated, ready for military 
use and has been for over 10 years.
    Mr. Forbes. Army officials have noted that the Dragon Skin failed 
at extreme temperatures, and they have also indicated that the weight 
of the Dragon Skin might be as much as 40-70% heavier than other armor, 
such as IBA. Since you were at the test, do you agree that Dragon Skin 
will fail catastrophically at extreme temperatures? Do you agree that a 
comparable IBA vest weighs less?
    Mr. Neal. No, I don't agree and attached you will see ballistic 
data that refutes the allegation that the armor fails in extreme 
temperatures as well as in the document package that was provided at 
the House Armed Services Hearing. Additionally you will note that the 
shots were placed directly in the center of the discs, and not at an 
overlap joint, as the Army has alleged that the center is the weakest 
point of the system. Please see Documents #1 & 2.
    [The information referred to is retained in the committee files and 
can be viewed upon request.]
    I also do not agree with the weight allegations either. I tried to 
explain this during the hearing but it seemed as if no one tried to 
understand the differences. The weight vs. ballistic performance are so 
light that the Army classified it ``SECRET'' due to its mass efficiency 
as per the Security Classification Guide.
    The document package from the hearing also has the data to refute 
it. The XL vest that the Army showed you had 5.6 square feet of rifle 
coverage. The Interceptor that they showed had 2.8 square feet of 
coverage. That is not an ``apples-to-appIes'' comparison. The Dragon 
Skin<Register> vest had twice the amount of rifle defeating coverage. 
If you double the weight of the Army's 28 pound vest you will then see 
the real difference. By the way, the actual weights of every vest as 
weighed and written down by the Army is also in the documents package. 
You can validate the weights by the serial number on the vest. It 
weighs less than what the scale showed, and that is their document.
    Mr. Forbes. Has any Pinnacle Armor product received a Level 4 NIJ 
certification?
    Mr. Neal. NO. Not yet. We are preparing for the side-by-side FAT 
test first and foremost as we have not been receiving any requests from 
the law enforcement community for a level 4 variant yet.
    Mr. Forbes. In light of any new information between the May 2006 
test and today, do you believe another test of Dragon Skin is 
warranted?
    General Thompson. No, Pinnacle Armor has not presented any new 
information regarding product improvements to the Dragon Skin tested by 
H. P. White, an independent NIJ certified laboratory, in May 2006. They 
have the opportunity to submit a proposal in the U.S. Army's current 
body armor solicitation number W91CRB07R0041, posted on Federal 
Business Opportunities (FedBizOpps) on May 27, 2007 with a closing date 
of July 27, 2007.
    Mr. Forbes. Has Pinnacle Armor attempted to win any recent 
contracts to supply body armor to the Army?
    General Thompson. No, Pinnacle Armor has never submitted a proposal 
for U.S. Army body armor solicitations.
    Mr. Forbes. Do you believe it would be responsible to deploy body 
armor which was tested exclusively at room temperature? Why or why not?
    General Thompson. It would not be responsible to deploy body armor 
tested exclusively at room temperatures. Body armor must be operational 
effective in all environmental conditions.
    Mr. Forbes. Can you explain for the Committee how much --weight-- 
is given to other factors aside from the protective qualities of a body 
armor vest, such as modularity and weight?
    General Thompson. The U.S. Army evaluates the complete body armor 
system and applies equal significance to consideration of weight and 
other human factors. The weight requirement is absolutely critical to 
the overall body armor requirement. The Soldier's load, both weight and 
cube, must not degrade the mobility of the dismounted Soldier and the 
momentum of small unit operations in close combat in close, complex 
terrain. Any increase in weight will reduce the Soldier's mobility and 
endurance while simultaneously increasing their risk of becoming a heat 
casualty.
    Mr. Forbes. Has Dragon Skin been certified as a Level 4 NIJ 
certification?
    Dr. Morgan. As of July 25, 2007, Pinnacle Armor, Inc., the sole 
manufacturer of Dragon Skin, does not have any models at Threat Level 
IV that comply with the NIJ 2005 Interim Requirements for Bullet-
Resistant Body Armor.
    Mr. Forbes. Do you believe the Army standard that requires an armor 
capable of withstanding more than one shot closer to the edge of the 
body armor represents a lower, equal, or higher standard as the Level 4 
NIJ certification?
    Dr. Morgan. In many cases, it can be difficult to compare standards 
because of differences between them. In this particular case, the 
comparison is easier. Generally, a requirement for either more shots on 
an armor panel/plate or for shots to be placed closer to the edge, or 
to each other, represents a greater challenge to the armor system. This 
is due to certain material limitations and the potential for damage 
from one shot to affect the outcome of any subsequent shots.
    For the level IV threat, the NU standard requires only one shot on 
an armor plate, and that shot must be located at least three inches 
from the nearest edge. One must also consider that the NIJ standard 
specifies only one type of ballistic threat for level IV protection, 
and only two shots with this threat are required for the basic 
ballistic resistance test.
    The Department of Defense (DOD) Enhanced Small Arms Protective 
Inserts testing requires that the armor sample must resist a complete 
penetration from the same threat type (i.e., same projectile moving at 
essentially the same speed) impacting approximately one inch from the 
edge, as well as a second shot located elsewhere on the same armor 
plate. The DOD specification identifies other ballistic threat rounds 
that must also be used to assess the performance capabilities of the 
armor system.
    In addition to projectile penetration assessments, another 
requirement that must be met during these tests is that the backface 
signature (BFS, or the maximum depth of the impression left in the clay 
behind the armor due to the ballistic impact) cannot exceed certain 
limits. There are minor differences between the clay verification 
methods and the BFS requirements used by the NU standard and the DOD 
specification, although the two are essentially equivalent (NIJ allows 
a BFS up to 44 millimeters, while DOD allows up to 43 millimeters).
    Considering these points, one can conclude that the DOD 
requirements are more stringent than the NIJ level IV performance 
requirement.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY

    Mr. Conaway. The Government solicits proposals from potential 
offerors through issuance of a solicitation. Can you please explain why 
the Request for Proposal in dealing with body armour was strictly 
narrowed as to disqualify flexible vests?
    General Thompson and General Brown. The U.S. Army publicly 
announces body armor solicitations to meet U.S. Army requirements. 
Since the start of Operation Iraqi Freedom, the U.S. Army has publicly 
announced three body armor solicitations. All vendors are provided the 
opportunity to submit a bid for their flexible body armor system; 
however none were received by the U.S. Army. In the recent U.S. Army 
body armor solicitation, a flexible body armor contract line item 
(CLIN) was added to the Request for Proposal (RFP) to further clarify 
U.S. Army requirements.
    Mr. Conaway. To your knowledge did Research and Development tests 
distort or contaminate the first article test?
    General Thompson and General Brown. No. Research and Development 
tests are conducted on First Article test items. The U.S. Army assesses 
some first article Preliminary Design (PDMs), as specified in the 
Request for Proposal (RFP), against certain threats or conditions for 
government information only, but these tests are not scored. The 
government reference tests do not distort or contaminate the first 
article test in any way.
    Mr. Conaway. The Government solicits proposals from potential 
offerors through issuance of a solicitation. Can you please explain why 
the Request for Proposal in dealing with body armour was strictly 
narrowed as to disqualify flexible vests?
    Mr. Smith. Previous Request for Proposals for Enhanced Small Arms 
Protective Insert did not intentionally exclude flexible armor 
solutions. The procurement actions were intended to provide hard 
ceramic plates that could be inserted into existing Outer Tactical 
Vests and could defeat specified small arms fire threats. However, we 
continued to evaluate flexible armor solutions and determined that the 
technology was not yet mature and capable of defeating the required 
threat at an acceptable weight. Therefore, no flexible armor solution 
that supported a modular body armor concept was available.
    Mr. Conaway. To your knowledge did Research and Development tests 
distort or contaminate the first article test?
    Mr. Smith. No, to my knowledge, the government-sponsored Research 
and Development tests did not distort or contaminate the first article 
test.
    Mr. Conaway. The Government solicits proposals from potential 
offerors through issuance of a solicitation. Can you please explain why 
the Request for Proposal in dealing with body armour was strictly 
narrowed as to disqualify flexible vests?
    Mr. Smith. Previous Request for Proposals for Enhanced Small Arms 
Protective Insert did not intentionally exclude flexible armor 
solutions. The procurement actions were intended to provide hard 
ceramic plates that could be inserted into existing Outer Tactical 
Vests and could defeat specified small arms fire threats. However, we 
continued to evaluate flexible armor solutions and determined that the 
technology was not yet capable of defeating the required threat at an 
acceptable weight and there was no flexible armor solution that 
supported a modular body armor concept.
    Mr. Conaway. To your knowledge did Research and Development tests 
distort or contaminate the first article test?
    Mr. Smith. No.
    Mr. Conaway. The Government solicits proposals from potential 
offerors through issuance of a solicitation. Can you please explain why 
the Request for Proposal in dealing with body armour was strictly 
narrowed as to disqualify flexible vests?
    General Thomas. The Request for Proposals was not narrowed to 
exclude flexible vests. Market research was conducted to determine 
sources available in the Individual Body Armor (IBA) sector to meet the 
requirements of deployed Air Force Office of Special Investigations 
(AFOSI) Special Agents performing Counterintelligence and Force 
Protection operations in a combat environment. The contract required 
IBA providing unprecedented levels of protection, range of motion, 
emergency release and comfort to our agents conducting operations in 
hostile environments. A United States Army sponsored event featured 16 
different IBA manufacturers providing one hour presentations detailing 
the benefits/specifications of their individual IBA units. A Pinnacle 
representative provided a presentation at this event.
    Of the 16 vendors, 5 were considered by AFOSI for further 
evaluation. They included: Armor Holdings, Diamondback Tactical 
Defense, Point Blank Body Armor, and First Choice. None of them offered 
products that compared (in our opinion) to the selected IBA in level of 
protection provided, range of motion, quick release, or total system 
weight. Research disclosed Air Force Special Operations Special Tactics 
Squadrons (STS) were also using the selected IBA. Also, deployed AFOSI 
leadership requested HQ AFOSI review this body armor for their 
personnel after data gathering within the Iraqi theater of operation. A 
three day examination period sponsored by HQ AFOSI for recently 
redeployed AFOSI personnel and Antiterrorism Specialty Team/Contingency 
Response Group members provided universal positive feedback on the 
selected IBA's comfort, mobility, and protection as compared to other 
vendors' IBA.
    In addition to the above process, US Central Command reporting 
instructions dictated personnel deploying to Iraq, Afghanistan, Kuwait, 
and Horn of Africa be issued IBA with a minimum of Level III +/IV 
protection for most personnel and Enhanced Small Arms Protective 
Inserts (ESAPI) for career fields operating in higher threat 
environments. The Commander, AFOSI, specified the added protection of 
ESAPI plates for deployed AFOSI special agents.
    Mr. Conaway. To your knowledge did Research and Development tests 
distort or contaminate the first article test?
    General Thomas. No prior tests distorted or contaminated the 13 Jun 
06 standardized testing. Additionally, no first article testing 
occurred. AFOSI took delivery of entire order of 581 units and one of 
those units was used for the 13 Jun 06 testing. Testing was performed 
using National Institute of Justice (NIJ) Level III testing standards 
at an accredited independent laboratory.
    Mr. Conaway. The Government solicits proposals from potential 
offerors through issuance of a solicitation. Can you please explain why 
the Request for Proposal in dealing with body armour was strictly 
narrowed as to disqualify flexible vests?
    Colonel Noonan. Request for Proposals (RFP) from the U.S. Special 
Operations Command (USSOCOM) are not strictly narrowed for the purpose 
of disqualifying flexible vests, nor are they narrowed to exclude 
current or emerging technologies. Our RFPs are tailored to solicit 
items which meet the standards outlined in the Body Armor/Load Carriage 
System (BALCS) requirements document, all of which require 
interoperability with each other. The RFP for our Releasable Body Armor 
Vest (armor carriers) is separate from the one for our ballistic 
protection (plates and soft armor) because the industry that supplies 
these types of end-items is substantially different from each other 
(especially with regard to the plate technology).
    The BALCS requirement addresses the necessary modularity for 
Special Operations Forces (SOF) operators to up-armor to rifle 
protection when required, as well as down-armor when the threat is 
reduced, or the environmental or mission situation dictates the need. 
This integration enables operators on the ground to tailor their system 
to meet specific operational requirements. All designs that meet the 
stated requirements will be evaluated.
    Mr. Conaway. To your knowledge did Research and Development tests 
distort or contaminate the first article test?
    Colonel Noonan. Pinnacle Armor has not participated in any 
competitions for armor conducted by or for the U.S. Special Operations 
Command (USSOCOM). As a result, USSOCOM has not conducted a first 
article test on Dragon Skin Armor.
    Mr. Conaway. The Government solicits proposals from potential 
offerors through issuance of a solicitation. Can you please explain why 
the Request for Proposal in dealing with body armour was strictly 
narrowed as to disqualify flexible vests?
    Dr. Morgan. This question does not pertain to the Department of 
Justice. The Department does not solicit proposals for the procurement 
of body armor. The body armor standard and compliance testing program 
of the Department of Justice's National Institute of Justice does not 
specify armor design, but leaves that up to the body armor 
manufacturer. The purpose of the standard and compliance testing 
program is to evaluate the armor's performance, regardless of the 
manufacturer's design.
    Mr. Conaway. To your knowledge did Research and Development tests 
distort or contaminate the first article test?
    Dr. Morgan. This question does not pertain to the Department of 
Justice. That testing was not performed by us or through our program.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. THORNBERRY

    Mr. Thornberry. Has the Department of Defense conducted any 
research into additional body armor components specifically aimed at 
upper limb (arm and leg above the joint) protection? a. If so, what are 
the results of such research? b. Has there been any research into 
whether amputees enjoy greater mobility/dexterity if upper limbs are 
preserved and prosthetic devices are used only for the lower limbs.
    General Thompson. The Department of Defense has conducted research 
into additional body armor components specifically aimed at upper limb 
(arm and leg above the joint) protection. a. Speaking specifically for 
the Army, the Natick Soldier Research, Development and Engineering 
Center (NSRDEC) has worked to augment the Interceptor Body Armor (TBA) 
currently used by Warfighters, with add-on armor components within the 
Future Force Warrior Advanced Technology Demonstration. These up-armor 
options include ballistic inserts for chassis, groin, collar, leg, and 
shoulder panels. Results of the efforts and assessments to date have 
been promising and testing will continue. b. The Army has not conducted 
any research for the specific purpose of determining whether 
preservation of amputees' upper limbs results in great mobility or 
dexterity.
    Mr. Thornberry. Has the Department of Defense conducted any 
research into additional body armor components specifically aimed at 
upper limb (arm and leg above the joint) protection? a. If so, what are 
the results of such research? b. Has there been any research into 
whether amputees enjoy greater mobility/dexterity if upper limbs are 
preserved and prosthetic devices are used only for the lower limbs.
    Colonel Smith. The Marine Corps has conducted research on 
additional body armor components aimed at upper limb protection for the 
arms and legs.
    A. The Marine Corps has fielded the QuadGuard (QG) system. The 
QuadGuard system was designed to provide ballistic protection for arms 
and legs in response to blast weapon threats and combat casualty trends 
in OIF. It is specifically intended to protect a Marine's arms and legs 
from IED fragmentation threats when serving as gunners on convoy duty 
and to integrate with other personal ballistic protection equipment, to 
include the Outer Tactical Vest (OTV), Enhanced Small Arms Protective 
Insert (ESAPI) and the Lightweight Helmet (LWH).
    B. The Marine Corps has not conducted any research for the specific 
purpose of determining whether preservation of amputees? upper limbs 
results in great mobility or dexterity.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. ROSS

    Mr. Ross. I would first like to thank the Committee and Chairman 
Skelton for allowing me to participate in today's hearing on this 
important topic. This issue was first brought to my attention by one of 
my constituents, Mr. John Grant, whose son serves in the Arkansas 
National Guard and has already served one tour of duty in Iraq and 
expects to be deployed again soon. Mr. Grant's son is part of the 
Arkansas Army National Guard's 39th Infantry Brigade, which was 
recently informed that they could be deployed to Iraq by the end of the 
year and my only concern in this hearings is to ensure that the U.S. 
Army is providing those young men and women with the most 
technologically advanced and effective body armor available. Question 
for Brigadier General Mark Brown: General Brown, while you contend that 
the Army currently provides our troops with the absolute best body 
armor available, it is clear that some disagree with you, including 
some parents of those serving and some troops themselves. However, the 
Army's Safety of Use Message prevents these troops from wearing any 
other body armor than what is provided to them by the U.S. Army. As you 
know, in 2005, due to reports of equipment shortages, some troops and 
their families purchased personal equipment at their own expense. As a 
result, Congress enacted legislation that that would reimburse members 
of the Armed Forces who had to purchase certain personal items, 
including body armor. In the National Defense Authorization Act for FY 
2005, Congress adopted Sections 304 and 351, which allowed 
reimbursement to members of the Armed Forces who purchased protective 
body armor and directed the Secretary of Defense to establish equipment 
reimbursement policy for soldiers, sailors, airmen, and marines who, 
due to equipment shortages, had to purchase their own personal 
protective gear. However, months later, the Army issued a ``Safety of 
Use Message,'' in which they instructed all commanders to ensure that 
only IBA is used by soldiers and that all other body armor should be 
immediately replaced with IBA. The directive specifically states, ``In 
its current state of development, Dragon Skin's capabilities do not 
meet Army requirements . . . Dragon Skin has not been certified by the 
Army for protection against several small arms threats being 
encountered in Iraq and Afghanistan today.'' As a result, the Army's 
safety of use message is essentially denying our troops the option to 
protect themselves with body armor, which some believe, is more 
effective than the standard issued IBA. therefore, my questions to you 
is this: Will the Army lift or rescind the safety of use message to 
allow those troops who believe that other body armor, such as dragon 
skin, is superior, to be able to use it to protect themselves.
    General Brown. The U.S. Army has a current Safety of Use Message 
(SOUM) dated March 17, 2006 specifying that Soldiers are only 
authorized to wear Interceptor Body Armor (IBA). The decision to 
publish the SOUM was to inform Soldiers that commercial body armor 
products, not certified by the U.S. Army, are unsafe and could cause 
death or serious injury.
    Mr. Ross. Would you agree to conduct an independent, unbiased test 
of the two body armors, which is what many of us in Congress have been 
asking for all along? And if Dragon Skin performed just as well or 
better than the current body armor, would the Army allow our troops to 
use it?
    General Brown. The U.S. Army tests against requirements and will 
not do a comparative test of the two body armor systems. The U.S. Army 
has agreed for the Office of the Secretary of Defense, Directorate of 
Operational Test and Evaluation Command to provide oversight in testing 
Pinnacle Armor Dragon Skin, if Pinnacle Armor submits proposal in the 
U.S. Army's current body armor solicitation number W91CRB07R0041, 
posted on Federal Business Opportunities (FedBizOpps) on May 27, 2007 
with a closing date of July 27, 2007 and the requisite number of 
Preliminary Design Models for testing. If Dragon Skin meets U.S. Army 
body armor requirements, the U.S. Army will evaluate their proposal 
against the requirements of the solicitation.
                                 ______
                                 
             QUESTIONS SUBMITTED BY MS. DAVIS OF CALIFORNIA

    Ms. Davis of California. If I could follow up because the Oversight 
and Investigations Subcommittee is looking at the Iraqi army, is that 
body armor that we had used before; or where is that made and what do 
you know about that?
    General Thompson. [The information referred to was not available at 
the time of printing].

                                  <all>

</pre></body></html>
